<html>
<title> - A REVIEW OF NASA'S FISCAL YEAR 2009 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 110-1115]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1115
 
                          A REVIEW OF NASA'S 
                    FISCAL YEAR 2009 BUDGET REQUEST

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
73-513                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BYRON L. DORGAN, North Dakota        ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2008................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     1
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................    17
Statement of Senator Vitter......................................    17
    Prepared statement...........................................    18

                               Witnesses

Griffin, Dr. Michael D., Administrator, National Aeronautics and 
  Space Administration...........................................     2
    Prepared statement...........................................     2
    Supplementary information....................................    35

                                Appendix

Response to written questions submitted to Dr. Michael D. Griffin 
  by:
    Hon. Bill Nelson.............................................    43
    Hon. Mark Pryor..............................................    46
    Hon. Ted Stevens.............................................    44
    Hon. David Vitter............................................    47


                          A REVIEW OF NASA'S 
                    FISCAL YEAR 2009 BUDGET REQUEST

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon, and thank you for coming. 
Thank you for the public service that you render. As you know, 
what I try to do is--so we can get right to the meat of this 
stuff--I'm not going to make an opening statement, it will be 
entered in the record, and we will take your lengthy testimony, 
and it will also be entered in the record, and it's my 
understanding that the STS-120 crew is on their way, and when 
they get here, we will introduce them.
    But, let me just welcome you and thank you for the service 
that you render in a very difficult time, trying to juggle 
innumerable balls in the air all at once. And, it's a very 
difficult job you have, because you don't get to decide how 
much that you would like--you're always, have what we used to 
call in the South, a governor over you. That was a device that 
you would put on a car, that made the car not go any faster 
than a certain number of miles per hour. And--so, it's a 
difficult task that you have and thank you for what you do.
    Let me ask you--Senator Stevens, would you like to make any 
opening comments?
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Good afternoon and welcome to this hearing on NASA's 2009 budget 
request. We welcome NASA's Administrator, Dr. Michael Griffin as our 
witness today and wish to extend a special welcome to the crew of STS-
120 who are visiting today.
    Commander Pam Melroy, Pilot George Zamka, and Mission Specialists 
Scott Parazynski, Doug Wheelock, Stephanie Wilson, and Paolo Nespoli 
completed a spectacular mission back in November. Pam and her crew 
carried the Italian built Harmony module to the International Space 
Station and performed a series of very difficult space walks. Thank you 
for your part in bringing the Space Station one step closer to 
completion and for showing us once again how truly resourceful and 
innovative NASA can be.
    And before we go on, I would also like to welcome Senator Vitter in 
his new role as Ranking Member on the Subcommittee. As you know I 
believe that space exploration is a truly non-partisan endeavor. NASA 
and its aeronautics and space programs are some of the `crown jewels' 
of our country and represent the best of what we can all bring forth as 
a nation. I look forward to working closely with you.
    Dr. Griffin--I wish to express my gratitude for the difficult job 
you are doing. So while you are on the spot today the issue before us 
is not you, but rather the future of our Nation's space program. NASA 
has had many great achievements over the past year, and I applaud the 
hard work and dedication of our country's aerospace team. However I am 
deeply troubled by the direction our space program is heading. A 
countdown clock has started, but unfortunately it is not a countdown to 
launch, rather it is a countdown to crisis.
    We are fast approaching a time where this country will not have the 
means to put our astronauts into space nor to access the Space Station 
that the American people have invested tens of billions of dollars in 
constructing. With the present planning, and the budgets proposed by 
the President, we face a gap in our human spaceflight capability of at 
least 5 years. And this will occur while other nations such as China 
are moving forward in developing their human space capability.
    The President's budget requests for NASA have never provided 
sufficient funds for the challenge our space program faces. And this 
looming crisis is the direct result of this lack of support. Most 
American's don't realize that NASA receives well less than 1 percent of 
the Federal budget. And NASA needs far more resources than it receives 
for all that it has been tasked to do.
    And so Dr. Griffin, we have invited you here to tell us about the 
challenges you face implementing all that you have been tasked with in 
this budget environment. And we also look for your thoughts on how 
Congress can help NASA meet these challenges. Thank you for your time 
today, and we look forward to hearing your testimony.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. No, I'm pleased with your policy. I'd like 
to listen to Dr. Griffin, if we could.
    Senator Nelson. OK, well as a courtesy to you, Senator 
Stevens, you're the man around here. Why don't I just 
relinquish the time, and let you start off the questions?
    Senator Stevens. I'd like to listen to him. You're not 
going to make a statement?
    Senator Nelson. No, we've put his statement in the record, 
it's a very lengthy statement. And we're going to get right to 
the questions.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. And I will waive my oral--I will waive a brief 
oral statement in response to Senator Nelson's desire to get to 
the questions.
    [The prepared statement of Dr. Griffin follows:]

     Prepared Statement of Dr. Michael D. Griffin, Administrator, 
             National Aeronautics and Space Administration

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2009 budget 
request for NASA. The President's budget request for NASA is $17.6 
billion, a 2.9 percent increase over the net budget authority enacted 
for 2008, along with a steady, five-year runout commensurate with 
inflation. This increase demonstrates the President's commitment to 
funding the balanced priorities he set forth for the Agency in space 
exploration, Earth and space science, and aeronautics research. We are 
making steady progress in achieving these goals. I ask for your 
continued support as you consider the President's FY 2009 budget 
request for NASA.
    When I testified before this Subcommittee last year, I spoke about 
the Administration's balanced priorities for our Nation's civil space 
and aeronautics research goals as set forth by the NASA Authorization 
Act of 2005 (P.L. 109-155) and the Vision for Space Exploration. NASA's 
mandate is clear, and the NASA Authorization Act of 2005, as well as 
the level of funding appropriated to NASA in FY 2008, tells me that 
Congress broadly endorses the balanced set of programs the Agency has 
put forward in this era of limited budget growth.
    I have said this in other forums, but it warrants repeating here: 
at present funding levels, NASA's budget is sufficient to support a 
variety of excellent space programs, but it cannot support all of the 
potential programs we could execute. No plan or level of funding can 
fully satisfy all the many constituencies we have. Balanced choices 
must be made. But they cannot continually be remade and revisited if 
there is to be steady progress toward our common, defined objectives.
    As the Columbia Accident Investigation Board noted, and as 
stakeholders acknowledged in ensuing policy debates, it would have been 
far worse to continue with the prior lack of strategic direction for 
human spaceflight, to continue dithering and debating and inevitably 
widening the gap between Shuttle retirement and the availability of new 
systems. Until and unless the Congress provides new and different 
authorization for NASA, the law of the land specifies that we will 
complete the International Space Station, retire the Shuttle, design 
and build a new spaceflight architecture, return to the Moon in a 
manner supporting a ``sustained human presence,'' and prepare the way 
to Mars.
    We are doing those things as quickly and efficiently as possible. 
System designs for the early elements have been completed, contracts 
have been let, and consistently solid progress is being made with a 
minimum of unexpected difficulty. True, the progress might be slower 
than all of us would prefer, but applying resources in the right 
direction, irrespective of pace, is always productive--and we are doing 
that. The Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle, as they are presently taking form, are the building blocks for 
any American future beyond low Earth orbit (LEO).
    Given that this endeavor will be our first step beyond LEO for 
crewed spacecraft since 1972, I believe that bypassing the Moon to 
venture directly into deep space--a proposal some have suggested 
revisiting--poses unacceptable risk. Returning to the Moon and 
consolidating the gains to be made thereby will set us properly on the 
path toward Mars. I believe that the NASA Authorization Act of 2005 
remains the finest policy framework for United States civil space 
activities that I have seen in forty years. And, I thank this 
Subcommittee for its leadership role in crafting this legislation. I 
ask for your continued support and leadership as we progress toward 
achieving the worthy national objectives laid out in the Act.
    Before I highlight key elements of NASA's FY 2009 budget request, I 
would like to summarize NASA's initial FY 2008 Operating Plan, 
submitted to the Subcommittee on February 1, 2008. The initial 
Operating Plan provides aggregate funding of $17.3 billion, at the 
level of the President's FY 2008 request. Pursuant to the rescission of 
$192.5 million in NASA unobligated balances in the Consolidated 
Appropriations Act, 2008 (P.L. 110-161), aggregate funding in NASA's FY 
2007 Operating Plan is reduced by $185.2 million, and prior year 
balances are reduced by $7.2 million. Implementation of direction in 
P.L. 110-161 has resulted in a total reduction of $620.9 million in 
planned NASA activities, consisting of the rescission of $192.5 
million, offsets for programmatic augmentations totaling $345.2 
million, and site-specific Congressional interest items totaling $83.2 
million. Finally, in accordance with Congressional direction, NASA has 
established seven Agency appropriations accounts in the FY 2009 budget 
request. As a result, the budgets for NASA's programs and projects are 
requested only in terms of direct costs, not the additional indirect 
costs associated with operating the Agency's field Centers, ensuring 
safety and mission success, and Agency management and operations. The 
direct budgets will continue to reflect labor, travel, and procurement 
costs associated with each program and project. The indirect costs are 
now budgeted solely within the Cross Agency Support account, and not in 
the NASA programs and projects. We will strive to ensure that these 
changes are transparent to our stakeholders.
    I am appreciative of the action by the Committees on Appropriations 
and Congress in providing regular FY 2008 appropriations for the Agency 
at the level of the President's request, including essentially full 
funding for the Orion, the Ares I, the Space Shuttle, and the Space 
Station. This total FY 2008 appropriations level, with some adjustments 
within the total, will enable NASA to meet critical priorities in 
accordance with the direction from the Congress and the President.
Highlights of the NASA FY 2009 Budget Request
    I am pleased to report that the FY 2009 budget represents a 
substantial step forward in responding to the recommendations of the 
National Research Council's (NRC) first Decadal Survey of Earth 
Science, released in January 2007. The five-year budget runout requests 
$910 million for priorities enumerated in the report. Funding will 
support development of two Decadal Survey new mission priorities--the 
Soil Moisture Active/Passive (SMAP) mission scheduled to launch as 
early as 2012, and the Ice, Clouds, land Elevation Satellite II (ICESat 
II) scheduled to launch in 2015--as well as formulation of three 
additional Decadal Survey missions.
    Working closely with NOAA, we also are making significant progress 
toward restoring climate sensors that had been removed from the tri-
agency National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) in 2006. The FY 2009 budget request of $74 million for 
NOAA supports the addition of a Clouds and the Earth's Radiant Energy 
System (CERES) instrument onto NASA's NPOESS Preparatory Project (NPP) 
satellite, set to launch in 2010; instrument development and ongoing 
analyses to identify a suitable satellite platform for hosting the 
Total Solar Irradiance Sensor (TSIS); and development of climate data 
records. These actions, which will be implemented through close 
coordination between NASA and NOAA, come in addition to the inclusion 
of the Ozone Mapping and Profiler Suite (OMPS)-Limb sensor on the NPP 
satellite that was announced earlier in 2007.
    The Agency's FY 2009 budget request also reflects a number of 
exciting developments in the space sciences, including an increase in 
the number of new missions, a new initiative in lunar science and 
initiation of plans for high priority missions in Astrophysics and 
Planetary Exploration. The FY 2009 request includes an increase of $344 
million over 5 years for Lunar Science in order to better understand 
our Moon. NASA's Science Mission Directorate, with support from the 
Exploration Directorate is developing two small lunar landers, and the 
Science Mission Directorate is initiating a series of new and exciting 
missions headed to the Moon over the next decade. Meanwhile, we are 
focusing our Mars program after 2013 on a Mars sample return mission to 
launch by 2020, and have identified funds to initiate development of an 
outer planets flagship mission to be selected in October of this year 
for launch by 2017. The budget also significantly increases Research 
and Analysis funds in the space sciences to gain better value from the 
missions we are flying, and so too, it increases the funding and, 
therefore, the flight rate of our suborbital rocket and balloon 
research programs in the space sciences.
    Our Aeronautics Research portfolio is positioned to address the 
challenges facing the Next Generation Air Transportation System, while 
also developing world-class aeronautics expertise and capabilities. 
Research is aligned with the National Plan for Aeronautics Research and 
Development and Related Infrastructure, approved by the President in 
December 2007. In FY 2009, we will conduct a key test to advance our 
understanding of aircraft aging and durability, and develop algorithms 
to optimize the use of crowded airspace and airports. We will continue 
work on blended-wing-body aircraft, which may reduce fuel consumption 
and emissions, as well as aircraft noise. Additionally, NASA's 
Aeronautics Research Mission Directorate continues to strengthen 
partnerships with academia, industry, and other government agencies to 
accomplish its strategic goals.
    NASA's commitment to its exploration objectives is clearly 
reflected in the FY 2009 budget request. As assembly of the Space 
Station nears completion, NASA will increasingly focus its efforts on 
continuing the development of the Orion Crew Exploration Vehicle and 
Ares I Crew Launch Vehicle. This budget request maintains Orion initial 
operational capability in March 2015, and full operational capability 
in FY 2016, though we are striving to bring this new vehicle on line 
sooner. In FY 2008, we will see the completion of the formulation phase 
for major elements of the Constellation program; both Orion and Ares I 
will undergo their preliminary design reviews. We will conduct the 
first Ares ascent development flight test with the Ares I-X in the 
Spring of 2009, and we will continue to conduct research and develop 
and test technologies through the Advanced Capabilities Human Research 
and Exploration Technology Development Program. The Lunar 
Reconnaissance Orbiter (LRO)/Lunar Crater Observation Sensing Satellite 
(LCROSS), an important part of NASA's lunar exploration strategy, is on 
track for launch at the beginning of FY 2009. The Agency is also 
requesting $173 million to provide incentives for entrepreneurs--from 
big companies or small ones--to develop commercial transport 
capabilities to support the International Space Station. With more than 
$2.6 billion in NASA funds available over the next 5 years to purchase 
cargo and crew services to support Space Station operations, our 
objective and strong preference is to use these funds to purchase these 
services from American commercial companies wherever possible.
    While I would prefer that the United States have domestic 
alternatives to purchasing crew transport services from Russia, I am 
glad that the Russians are our partners and have such capabilities, 
because the consequences if they were not available are far worse. If 
NASA astronauts were not onboard the Space Station, our National 
Laboratory in space simply would not survive. If there is no Space 
Station, there is no market for the commercial providers we are trying 
to help bring into existence, and our international partnership would 
simply fall apart. So in order to keep these objectives viable, NASA 
may need to obtain additional crew and cargo transport services from 
our international partners if U.S. commercial services are not yet 
demonstrated and available.
    In the area of Space Operations, NASA's FY 2009 budget request will 
allow us to continue to expand the Space Station, complete the 
supporting truss structure and solar arrays, and deliver the final 
component of the Japanese laboratory. This will round out the set of 
three space laboratories aboard the Station, with one each from the 
U.S., Europe, and Japan. In addition, FY 2009 will mark another 
milestone for the Space Station Program--for the first time, the 
Station will be able to support a full-time crew of six astronauts. 
With three major scientific facilities available to them, these larger 
crews will be busy as Station kicks off a new era in microgravity 
research aboard this National Laboratory in orbit. Critical to these 
achievements, the Space Shuttle is scheduled to fly five times in FY 
2009. During that year, NASA also plans to launch payloads on eight 
expendable launch vehicles. FY 2009 will also see the consolidation of 
the Deep Space, Near-Earth, and Space Communications networks into a 
unified Space Communications and Navigation (SCaN) architecture within 
the Space Operations Mission Directorate.
    NASA is continuing to transition from the Space Shuttle to new 
Exploration systems, and will need a complement of critical tools and 
authorities necessary for the transformed Agency to execute its 
mission. This transition is the largest and most daunting since the end 
of the Apollo program and the beginning of the Space Shuttle program. 
It dictates that we obtain the authorities needed to ensure sufficient 
support in the future. We hope to discuss the details of these 
legislative requests with Members of Congress in the weeks ahead.
    The remainder of my testimony outlines the FY 2009 budget request 
for NASA in greater detail.
Science Mission Directorate
    In 2007, NASA successfully launched four new orbital and planetary 
science missions (THEMIS, AIM, Phoenix, and Dawn), almost 20 suborbital 
science missions, and two major airborne Earth Science campaigns. This 
past year also saw the first test flights of the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) 747 airborne infrared 
observatory, as well as the provision of rapid-response airborne remote 
sensing aid to the California wildfire emergencies. In addition, 2007 
was a year of remarkable scientific discovery about the Earth, the Sun, 
the planets and the universe. For example, data from the Ice, Clouds, 
and land Elevation Satellite (ICESat), the Gravity Recovery and Climate 
Experiment (GRACE), and other satellites have provided dramatic new 
insights on ice sheet changes in Greenland and Antarctica. The Solar 
TErrestrial RElations Observatory (STEREO) satellites (A and B) have 
provided the first three dimensional images of the sun and the 
structures of the heliosphere. These new 3-D views, along with 
unprecedented observations from Hinode (Solar-B), NASA's Time History 
of Events and Macroscale Interactions during Substorms (THEMIS) 
mission, and the Aeronomy of Ice in the Mesosphere (AIM) satellite are 
revolutionizing knowledge of the variable Sun and its interactions with 
the Earth. Also, the Cassini spacecraft radar imagery of Titan revealed 
large lakes of methane in Titan's North polar region, indicating a 
hydrological cycle. Finally, a new map provides the best evidence to 
date that normal matter, largely in the form of galaxies, accumulates 
along the densest concentrations of dark matter. Mapping dark matter's 
distribution in space and time is fundamental to understanding how 
galaxies grew and clustered over billions of years.
    NASA's FY 2009 budget request provides $4.44 billion for the 
Agency's Science portfolio to study the Earth, our Sun and its 
heliosphere, our solar system, and the Universe. This funding enables 
NASA's Science Mission Directorate (SMD) to start major new missions, 
to increase research and analysis funding, and to operate and provide 
ground support for 55 operating science missions, including 13 Earth 
Science mission extensions. It provides support for over 3,000 current 
operating research and analysis grants, while continuing to develop 
high priority missions in Earth Science, Heliophysics, Planetary 
Science and Astrophysics, consistent with the priorities established by 
the NRC's Decadal Surveys.
    Pursuant to requirements of the NASA Authorization Act of 2005 
(P.L. 109-555), and consistent with the latest notification provided to 
the Subcommittee on February 11, 2008, NASA is in the process of 
producing more detailed reports on budget adjustments and schedule 
changes which have occurred since NASA submitted its FY 2006 and FY 
2007 Baseline Reports under the Act. Detailed reports are in work and 
planned for submission to the Subcommittee in March 2008 on Aquarius, 
Glory, Herschel, Kepler, NPP, and OCO. In addition, Glory has exceeded 
the 30 percent cost threshold triggering additional requirements as 
provided in the Act. Initial notifications are now in work under the 
processes established by the Act for schedule changes for GLAST and 
SOFIA.
    The FY 2009 budget request for Earth Science provides $1.37 billion 
to help us better understand the Earth's atmosphere, lithosphere, 
hydrosphere, cryosphere, and biosphere as a single connected system. In 
addition to 14 operating missions, the request includes funding for 
seven missions in development. The Landsat Data Continuity Mission and 
Ocean Surface Topography Mission (to launch in 2008) continue the 
decades-long time series of land cover change and ocean surface height 
data, respectively. Glory targets the impact of aerosols on climate. 
The National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) Preparatory Project (NPP) paves the way for the future 
national weather system and continues essential measurements from the 
NASA Earth Observing System (EOS), Aquarius, and the Orbiting Carbon 
Observatory (OCO), set to launch in 2008. Aquarius and OCO will make 
the first-ever global measurements of ocean surface salinity and 
atmospheric carbon dioxide, respectively. The request specifically 
increases funding for OCO and the Aquarius missions to maintain 
development schedules. The Global Precipitation Measurement (GPM) 
mission will extend the rainfall measurements made by the Tropical 
Rainfall Measurement Mission (TRMM) to the global scale. The request 
retains the GPM core mission launch readiness date.
    The budget request responds to the Earth Science Decadal Survey by 
establishing a funding wedge of $910.0 million over the budget runout 
to initiate five new Earth Decadal Survey missions for launch by 2020, 
while continuing to implement seven precursor missions for launch 
between 2008 and 2013. NASA will continue to contribute to the 
President's Climate Change Research Initiative by collecting data sets 
and developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change.
    The Heliophysics budget request of $577.3 million will support 
missions to understand the Sun and its effects on Earth, the solar 
system, and the space environmental conditions that explorers will 
experience, and to demonstrate technologies that can improve future 
operational systems. The request increases budgets for Sounding 
Rockets, Research Range, and Research and Analysis to achieve a more 
robust level of small payload opportunities. In addition to supporting 
16 currently operational missions, the request supports the 
Interstellar Boundary Explorer (IBEX) mission focused on the detection 
of the very edge of our solar system and the Coupled ion-Neural 
Dynamics Investigation (CINDI) ``Mission of Opportunity'' that will 
provide new insight on the Earth's ionospheric structure, both of which 
are planned for launch in 2008. In early FY 2009, the Solar Dynamics 
Observatory (SDO) to study the Sun's magnetic field is planned for 
launch, and the Geospace Radiation Belt Storm Probes (RBSP) mission 
will begin development. RBSP will improve our understanding of how the 
Earth's radiation belts are formed and how solar output modifies the 
Earth's Van Allen radiation belts. Further, the five-year budget funds 
a new Solar Probe mission which has long been sought by the U.S. 
scientific community and is recommended highly in the most recent 
Heliophysics Decadal Survey.
    The Planetary Science budget provides $1.33 billion to advance 
scientific knowledge of the solar system, search for evidence of life, 
and to prepare for human exploration. The budget supports an array of 
eight currently operating spacecraft and rovers traveling to or now 
studying Mercury, Mars, the Asteroid Belt, Saturn, and Pluto, in 
addition to a series of instrument missions of opportunity. The budget 
request augments Lunar Science to include a series of small robotic 
lunar satellites to begin development in FY 2009 and initiates an outer 
planets flagship mission, planned for launch in 2016 or 2017. The 
request includes continuation of funds for all five of NASA's operating 
Mars missions, the development of a Mars Science Laboratory in 2009 and 
a Mars Scout mission in 2013. The Mars Program is redirected to focus 
on the Mars Sample Return mission after the Scout 2013 opportunity, 
while expanding U.S. participation on the ESA/ExoMars mission by 
selecting two instrument Missions of Opportunity for study and 
technology development. With the New Horizons spacecraft continuing on 
its way to Pluto, the request realigns the New Frontiers Program's Juno 
Mission to Jupiter to be consistent with a 2011 launch date, and funds 
initiation of the next New Frontiers mission. An open competitive 
solicitation for the next mission is planned for release near the end 
of this calendar year. The request continues support for the operating 
Discovery mission and for the development of the new Gravity Recovery 
and Interior Laboratory (GRAIL) Discovery mission, the latter of which 
will use high-quality gravity field mapping of the Moon to determine 
the Moon's interior structure.
    The Astrophysics budget provides $1.16 billion to search for 
answers to fundamental questions about how the universe works, how we 
got here, and whether we are alone. The request supports a restart of 
the Nuclear Spectroscopic Telescope Array (NuSTAR) Small Explorer with 
a launch date of no-earlier-than 2011, increases funding for sounding 
rocket payloads, balloon payloads, detector technology and theory, and 
initiates the Joint Dark Energy Mission (JDEM) in FY 2009. The 
Astrophysics suite of operating missions includes three Great 
Observatories (Hubble Space Telescope, Chandra X-Ray Observatory and 
the Spitzer Space Telescope) which have helped astronomers unravel the 
mysteries of the cosmos. The request will support the Gamma-ray Large 
Area Space Telescope (GLAST) which is now planned for launch in May 
2008, to begin a five-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. It also provides funding for the Kepler 
telescope which is planned for launch in February 2009 to detect 
planets in the ``habitable zone'' around other stars. SOFIA will begin 
science operations in 2009, significantly earlier than previously 
planned. The request supports development of the Wide-field Infrared 
Survey Explorer (WISE), which will conduct an all-sky survey, and the 
James Webb Space Telescope, which will explore the mysterious epoch 
when the first luminous objects in the universe came into being after 
the Big Bang.
Aeronautics Research Mission Directorate
    In 2007, the Aeronautics Research Mission Directorate (ARMD) 
continued to pursue high-quality, innovative, and cutting-edge research 
that develops revolutionary tools, concepts, and technologies to enable 
a safer, more flexible, environmentally friendly, and more efficient 
national air transportation system. ARMD's research also plays a vital 
role in supporting NASA's space exploration activities. ARMD's program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, as well as the follow-on National Plan 
for Aeronautics Research and Development and Related Infrastructure 
that the President approved on December 21, 2007.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas.
    ARMD has established over 35 Space Act Agreements with industry 
partners and more are in the works. We have ensured that all Space Act 
Agreements are negotiated so that results of collaborations will be 
broadly disseminated. To date, NASA has selected 346 proposals for 
negotiation of award through the NRA process from more than 70 
different universities and 60 different companies and nonprofits. NASA 
investment in NRAs will increase steadily from FY 2009 ($72 million) 
through FY 2013 ($100 million).
    We have also strengthened our partnerships with other government 
agencies. For example, NASA and the Joint Planning and Development 
Office (JPDO) have established quarterly reviews to ensure close 
coordination, and NASA participates in all major JPDO planning 
activities. In addition, NASA and the Federal Aviation Administration 
have developed a joint program plan for the Aviation Safety Information 
Analysis and Sharing (ASIAS) effort with well defined roles and 
responsibilities. Also, NASA and the U.S. Air Force have established an 
Executive Research Council that meets at least twice a year to ensure 
close coordination and collaboration. Last, NASA and the Army have 
signed a Memorandum of Understanding to coordinate research efforts on 
rotorcraft.
    In FY 2009, the President's budget for NASA requests $446.5 million 
for Aeronautics Research. ARMD is directly addressing the fundamental 
research challenges that must be overcome in order to enable the JPDO 
vision for the Next Generation Air Transportation System (NextGen).
    NASA's Airspace Systems Program has partnered with the JPDO to help 
develop concepts, capabilities and technologies that will lead to 
significant enhancements in the capacity, efficiency and flexibility of 
the National Airspace System. In FY 2009, NASA's budget request will 
provide $74.6 million for the Airspace Systems Program to conduct 
trajectory analyses for service-provider-based automated separation 
assurance with time-based metering in an environment with two to three 
times capacity and with delay and separation comparable to or better 
than that achieved today. In addition, the Airspace Systems Program 
will develop algorithms to generate robust, optimized solutions for 
airport surface traffic planning and control. These surface models will 
be developed as a basis for the optimized use of super-density 
airports, integrated airport clusters, and terminals where demand for 
runways is high.
    NASA's Fundamental Aeronautics Program conducts research in all 
aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. The FY 2009 budget request, 
amounting to $235.4 million, will enable significant advances in the 
Hypersonics, Supersonics, Subsonic Fixed Wing, and Subsonic Rotary Wing 
projects that make up the Fundamental Aeronautics Program. These 
projects focus on creating innovative solutions for the technical 
challenges of the future: increasing performance (range, speed, 
payload, fuel efficiency) while meeting stringent noise and emissions 
constraints; alleviating environmental and congestion problems through 
the use of new aircraft and rotorcraft concepts; and facilitating 
access to space and re-entry into planetary atmospheres. A wide variety 
of cross-cutting research topics are being pursued across the speed 
regimes with emphasis on physics-based multi-disciplinary analysis and 
design, aerothermodynamics, materials and structures, propulsion, aero-
servo-elasticity, thermal protection systems, advanced control methods, 
and computational and experimental techniques.
    The FY 2009 budget request for NASA's Aviation Safety Program is 
$62.6 million. The four projects within the Program (Integrated 
Intelligent Flight Deck, Integrated Resilient Aircraft Control, 
Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NextGen. In FY 2009, the Program will demonstrate aircraft engine 
safety and reliability improvements using advanced sensing technologies 
and new methods for modeling engine gas flow characteristics. In 
addition, ballistic tests will be used to study the effect of aging on 
the impact resiliency of composite fan-blade containment structures for 
aircraft engines.
    Multiple flight and simulation tests will evaluate technologies to 
protect aircraft during hazardous situations. For example, simulations 
will evaluate technologies enabling aircraft to land safely even when 
flight control surfaces are partially damaged or malfunctioning, and 
flight tests will examine forward-looking, multi-frequency radar 
systems for early detection of potential hazardous icing.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet Agency and national 
aeronautics needs. The FY 2009 budget request for the ATP is $73.9 
million, which will enable strategic utilization, operations, 
maintenance, and investment decisions for major wind tunnel/ground test 
facilities at Ames Research Center in California, Glenn Research Center 
in Ohio, and Langley Research Center in Virginia, and will support 
specific aircraft and test bed aircraft at Dryden Flight Research 
Center, also in California. ARMD has established the National 
Partnership for Aeronautical Testing with the Department of Defense to 
pursue a coordinated approach to managing DOD-NASA aeronautical testing 
facilities. In FY 2009, ATP will continue to reduce the deferred 
maintenance associated with its facilities and will also invest in new 
test technologies ensuring a healthy set of facilities and the new 
capabilities needed for future programs. In addition, ATP plans to 
continue off-setting the user rates for its facilities through the 
funding of a portion of the indirect costs resulting in competitive 
prices. Simultaneously, the Program will continue to move toward a 
long-term strategic approach that aligns the NASA and DOD facilities to 
meet future requirements with the right mix of facilities and 
appropriate investments in facility capability.
Exploration Systems Mission Directorate
    In 2007, the Exploration Systems Mission Directorate (ESMD) 
delivered as promised and will continue to do so in 2008. Major 
development work is underway; contracts are in place, and our future 
Exploration plan is executable. By the end of 2008, ESMD will see its 
first spacecraft launched from the NASA Kennedy Space Center, Florida. 
This Lunar Reconnaissance Orbiter (LRO) and the Lunar Crater 
Observation Sensing Satellite (LCROSS) will help NASA scout for 
potential lunar landing and outpost sites. Additionally, in 2008, NASA 
will continue to plan how best to transition any needed Shuttle 
workforce and infrastructure to the Constellation program.
    The FY 2009 budget request of $3.5 billion for Exploration will 
support continued development of new U.S. human spaceflight 
capabilities and supporting research and technologies, and will enable 
sustained and affordable human space exploration after the Space 
Shuttle is retired at the end of FY 2010. The budget request provides 
stable funding to allow NASA to continue developing our next-generation 
U.S. human spaceflight vehicles while also providing research and 
developing technologies for the longer-term development of a sustained 
human presence on the Moon. Budget stability in FY 2009 is crucial to 
maintaining a March 2015 Initial Operational Capability for the Orion 
Crew Exploration Vehicle and Ares I Crew Launch Vehicle. There is 
minimum flexibility through 2010, so Congressional support for budget 
stability is critical. Additionally, ESMD will continue to work with 
other nations and the commercial sector to coordinate planning, 
leverage investment, and identify opportunities for specific 
collaboration on lunar data collection and lunar surface activities.
    The FY 2009 budget request for Constellation Systems Program is 
approximately $3.0 billion. The Constellation program includes funding 
for the Orion and Ares, as well as for ground operations, mission 
operations, and extravehicular activity projects and a dedicated in-
house effort for systems engineering and integration. Last year, the 
Constellation program made great strides and it will continue to do so 
in 2008. We have tested real hardware; we have tested landing systems; 
and we have logged thousands of hours in wind tunnels. So far, NASA 
engineers have conducted almost 4,000 hours of wind tunnel testing on 
subscale models of the Ares I to simulate how the current vehicle 
design performs in flight. These wind tunnel tests, as well as NASA's 
first scheduled demonstration test flight for Ares I, known as Ares I-
X, are scheduled for spring 2009 and will lay the ground work for 
maturing the Ares I final design.
    Constellation has an integrated schedule and we are meeting our 
early milestones. In fact, all major elements of the Orion and Ares 
vehicles were placed under contract by the end of 2007. Currently, NASA 
has civil servants and contractors on board for the Constellation 
program serving at all ten Agency Centers, as well as in more than 20 
states. In 2008, NASA will continue efforts to define the specific work 
the Agency's Centers will perform in order to enable astronauts to 
explore the Moon. Preliminary work assignments covering elements of the 
Altair human lunar lander and lunar surface operations, as well as the 
Ares V, were announced in October 2007.
    During 2007, ESMD completed a series of key project review 
milestones, including a System Definition Review for the Orion project 
in August and for the Ares I project in October. During these reviews, 
each project examined how its proposed requirements impact engineering 
decisions for the functional elements of the system. The Orion and Ares 
I teams are currently assessing design concepts, and are moving toward 
finalized reference designs that meets their requirements. This 
reference configuration will be the starting point for the design 
analysis cycle that leads to Preliminary Design Reviews for the Orion 
and Ares I projects, in turn leading to an integrated stack review by 
the end of December 2008. A Preliminary Design Review is a crucial 
milestone, during which the overall program verifies that the 
preliminary design meets all requirements within acceptable risk limits 
and within the cost and schedule constraints.
    In FY 2009, NASA is requesting $173 million for the Commercial Crew 
and Cargo Program and its associated projects. Full funding is 
essential to maintaining NASA's promised $500 million investment in 
this program to spur the development of U.S. commercial space 
transportation services to and from the Space Station, while also 
providing substantial savings to the taxpayer compared to NASA 
government-owned and operated capabilities. On February 19, 2008, NASA 
announced that the Agency had signed a Space Act Agreement with a new 
funded partner, Orbital Sciences Corporation of Dulles, Virginia. 
Technical progress continues to be made by our other funded partner, 
SpaceX of El Segundo, California, as well by as several of our unfunded 
partners.
    The Agency's FY 2009 budget request provides $453 million for 
activities in ESMD's Advanced Capabilities theme, which seeks ways to 
reduce the risks for human explorers of the Moon and beyond by 
conducting research and developing and maturing new technologies. In 
2008, NASA's Human Research Program will focus on the highest risks to 
crew health and performance during exploration missions. We also will 
develop and validate technologies that serve to reduce medical risks 
associated with human spaceflight. For example, NASA will continue its 
work to understand the effect of space radiation on humans and to 
develop effective mitigation strategies. During 2008, NASA also will 
continue to research ways to reduce the risks to future explorers. 
Research onboard Space Station will include human experiments, as well 
as biological and microgravity experiments. In 2009, the Advanced 
Capabilities Exploration Technology Development program will conduct a 
range of activities, including testing prototype ablative heat shield 
materials; throttleable Lox Hydrogen engines suitable for a human lunar 
lander; and lightweight life support systems for Orion. The program 
also will deploy and test advanced environmental monitoring systems on 
the Space Station to advance the safety of crewmembers, and will 
continue to test in situ resource utilization technologies as well as 
life support and cryogenic fluid management.
    In response to Congressional direction contained in the Explanatory 
Statement accompanying the Consolidated Appropriations Act, 2008 (P.L. 
110-161), ESMD will fund in 2008 a robotic lander project managed by 
NASA's Marshall Space Flight Center in Alabama as a pathfinder for an 
anticipated network of small science landers based on requirements for 
NASA's expanded lunar science program. The first lander mission is 
planned to fly in 2013-2014. NASA's Exploration Systems and Science 
Mission Directorates will continue to work together combining resources 
to ensure that the goals of the science lander are achieved.
    NASA's LRO and the LCROSS have a planned launch later this year 
from Kennedy Space Center. These dual-manifested spacecraft are in the 
assembly, integration, and test phase and are making excellent progress 
toward launch. The knowledge generated by these missions will enable 
future outpost site selection and new information about resources 
within the permanently shadowed craters at the lunar poles. The LRO/
LCROSS missions represent NASA's first steps in returning to the Moon.
    Lastly, facility, infrastructure, property, and personnel 
transitions from Space Shuttle to Constellation continue to be a major 
activity. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. To date, NASA has met all of its 
milestones and disposition targets. This joint effort between the Space 
Operations Mission Directorate and ESMD includes the utilization and 
disposition of resources, including real and personal property, 
personnel, and processes, to leverage existing Shuttle and Space 
Station assets for NASA's future Exploration activities. Formalized 
Transition Boards are working to successfully achieve this outcome. An 
initial Human Spaceflight Transition Plan was developed in 2006. An 
updated NASA Transition Plan, supported by key metrics, is being 
refined and will be released this year.
Space Operations Mission Directorate
    The Space Shuttle and Space Station programs both enjoyed a highly 
successful and productive year in 2007. The Space Shuttle flew three 
missions during the year, continuing the assembly of the Station and 
expanding its capabilities. The June 2007 flight of Atlantis on STS-117 
added a truss segment and new solar arrays to the starboard side of the 
Station to provide increased power. In August, Endeavour brought up 
another truss segment, supplies, and became the first Orbiter to use a 
new power transfer system that enables the Space Shuttle to draw power 
from the Station's solar arrays, extending the duration of the 
Shuttle's visits to Space Station. On the same mission, STS-118, 
teacher-turned-astronaut Barbara Morgan conducted a number of 
education-related activities aboard the Space Station, inspiring 
students back on Earth and realizing the dream of the Teacher In Space 
Project for which she and Christa McAuliffe trained more than two 
decades ago. In October 2007, Discovery flew the STS-120 mission, which 
added the Harmony node to the Station and featured a spacewalk to 
disentangle a snagged solar array.
    The STS-120 mission paved the way for Station astronauts to conduct 
a series of ambitious spacewalks and operations using the Station's 
robotic arm to move the Pressurized Mating Adapter-2 and Harmony node 
in preparation for the addition of the European Columbus laboratory and 
the Japanese Kibo laboratory in 2008. These spacewalks are particularly 
challenging and impressive, as they are carried out entirely by the 
three-person Expedition crews, without benefit of having a Shuttle 
Orbiter, with its additional personnel and resources, docked to the 
Station.
    NASA looks forward to Space Shuttle missions and Space Station 
Expeditions in 2008, which will feature the delivery, docking, and 
activation of key scientific assets from two of our International 
Partners: the European Columbus laboratory, launched on February 7, 
2008, aboard Shuttle Atlantis on STS-122, and the pressurized module of 
the Japanese Kibo laboratory, to be launched in May. In addition, a 
major contribution from Canada, the Special Purpose Dextrous 
Manipulator--or Dextre--will be delivered to the Station, along with 
the Japanese Experiment Logistics Module, in March. Dextre, the final 
component of the remote manipulator system provided by Canada, will act 
as the ``hand'' on the robotic arm, allowing astronauts to conduct 
operations and maintenance activities from inside the Space Station, 
rather than via spacewalks. In late summer, the crew of STS-125 will 
become the final Shuttle crew deployed to a non-Station orbit, as they 
conduct the last Hubble Space Telescope servicing mission from the 
Space Shuttle. This mission will outfit the telescope with the Cosmic 
Origins Spectrograph and the Wide-Field Camera 3, as well as replace 
components to extend Hubble's operational life.
    The Space Shuttle FY 2009 budget request of approximately $3.0 
billion would provide for five Shuttle flights to support assembly of 
the Space Station. This would include the flight of the Japanese Kibo 
laboratory's Exposed Facility, and the delivery of the final Station 
truss segment.
    The FY 2009 budget request includes about $2.1 billion for 
International Space Station activities, reflecting the presence of a 
permanent six-person crew and three major research facilities aboard 
Station.
    After the Space Shuttle retires at the end of FY 2010, NASA will 
use alternative means to transport cargo and crew to the Space Station. 
The Agency's first choice for such services is domestic, commercial 
capability, the development of which is the focus of the Commercial 
Orbital Transportation Services (COTS) effort. ESMD is funding the 
first phase of COTS under the Commercial Crew and Cargo Program, which 
will demonstrate this capability via funded and unfunded Space Act 
Agreements. SOMD will manage the second phase of the effort, covering 
actual cargo--and potentially crew--delivery services to the Space 
Station. Until such time that operational commercial means are 
available for resupplying the Station, NASA will look to its 
international partners to provide cargo resupply capability, much of 
which will be provided as part of the partners' contributions to the 
International Space Station Program. NASA has contracted with Roscosmos 
to provide Soyuz and limited cargo services through the end of FY 2011, 
as permitted under the Iran, North Korea and Syria Nonproliferation Act 
of 2005 (P.L. 109-112). NASA is monitoring the progress of potential 
domestic commercial providers to develop cargo and crew transportation 
services to the Space Station, and the Orion project is on track to 
reach its Initial Operational Capability in March 2015. The 
Administration is considering options to maintain a U.S. crew presence 
aboard the Space Station after the retirement of the Shuttle and before 
the advent of Orion. Purchasing crew transportation services 
domestically is NASA's preferred method to meet the needs of the Space 
Station. Another option may be to seek relief from the provisions of 
the Iran, North Korea, and Syria Nonproliferation Act of 2005 for 
additional Soyuz services to keep a U.S. crew presence on the Space 
Station until either domestic commercial crew transportation services, 
or Orion, become available. We will keep the Congress fully informed of 
our plans.
    NASA remains focused on, and committed to, flying out the remaining 
Space Shuttle missions safely and completing the assembly of the Space 
Station. Beyond those aims, one of the challenges NASA faces as we 
approach the end of the Shuttle era is the smooth disposition of 
personnel and infrastructure. SOMD and ESMD have been working hand-in-
hand to ensure that needed skills and facilities are retained and put 
to productive use during the development and operational phases of the 
Orion, Ares I, and Ares V projects. In FY 2009, the Agency's transition 
milestones will include the transfer of Pad 39B and Mobile Launch 
Platform #1 to Constellation, after the Hubble Servicing Mission. In 
addition, the Space Shuttle Program is reviewing whether the Space 
Shuttle Atlantis will be retired in FY 2008 or used to conduct existing 
missions within the planned manifest.
    The Space Flight Support Program's FY 2009 budget request of $733 
million would help mitigate out-year costs associated with the Delta II 
launch pads. The request also reflects the consolidation of the 
Agency's space communications projects into the Space Communications 
and Navigation Program. Finally, it includes funding for the 
development of two satellites to replenish the Tracking and Data Relay 
Satellite System, planned for launch in 2012 and 2013.
Education
    The FY 2009 budget request for Education totals $115.6 million and 
furthers NASA's commitment to Science, Technology, Engineering, and 
Mathematics (STEM) education. NASA's primary objectives for Education 
are to: (1) contribute to the development of the Nation's STEM 
workforce through a portfolio of initiatives for students at all 
levels; (2) attract and retain students in STEM disciplines while 
encouraging them to pursue higher education that is critical to NASA's 
workforce needs; and (3) engage Americans in NASA's mission through 
strategic partnerships with STEM education providers.
    NASA is committed to ensuring that its future workforce is fully 
prepared to handle a variety of challenging scientific and technical 
careers. NASA's Office of Education encourages student interest in STEM 
through the Agency's missions, workforce, facilities, and innovations 
in research and technology. The FY 2009 budget request reflects a 
balanced portfolio of investments which takes into account 
Congressional priorities, the NASA Strategic Plan, and recommendations 
from the National Research Council, as well as the priorities of the 
education community. NASA Education is the critical link between the 
Agency's scientists and engineers and the education community. NASA 
Education translates the Agency's missions into educational materials, 
services, and opportunities for students and learners of all ages. NASA 
strives to support the role of educational institutions, which provide 
the framework to unite students, their families, and educators for 
educational improvement.
    In 2008, NASA's Office of Education will continue to collaborate 
with Agency mission directorates and field Centers to assist educators 
in promoting scientific and technical literacy while attracting and 
retaining students in STEM disciplines and careers. NASA Education will 
also continue its work with other Federal agencies engaged in 
educational activities, along with public and private partners to 
leverage the effectiveness and reach of its efforts.
Cross-Agency Support
    The FY 2009 budget request for activities within Cross-Agency 
Support includes funding for developing and maintaining NASA's 
technical capability including the Agency's vital mission support 
functions. Cross-Agency Support provides a focus for managing technical 
capability and Agency mission support functions. This budget area 
consists of three themes: Center Management and Operations; Agency 
Management and Operations; and, Institutional Investments. Cross-Agency 
Support is not directly identified or aligned to a specific program or 
project requirement but is necessary to ensure the efficient and 
effective operation and administration of NASA.
    The most significant change is in the area of Agency Management and 
Operations. Agency Management and Operations provides for the 
management and oversight of Agency missions and functions and for the 
performance of many Agency-wide activities. Agency Management and 
Operations is divided into five programs: Agency Management; Safety and 
Mission Success; Agency Information Technology services; Innovative 
Partnerships Program; and, Strategic Capabilities Assets Program.

  <bullet> The FY 2009 budget request provides $414.6 million for 
        Agency Management which sponsors and supports an executive-
        based, Agency-level functional and administrative management 
        agenda. Agency Management delivers policies, controls, and 
        oversight across a range of functional and administrative 
        management service areas and also provides for independent 
        technical assessments of Agency programs. It delivers strategic 
        planning services. It assesses and evaluates NASA program and 
        mission performance. It sponsors and directs the Institutions 
        and Management agenda in procurement, human capital, real 
        property and infrastructure, security and program protection, 
        diversity, equal opportunity, and small business. Agency 
        Management also provides for the operational costs of 
        Headquarters as an installation, including salaries, benefits, 
        training and travel requirements of the Headquarters workforce, 
        as well as the resources necessary to operate the Headquarters 
        installation.

  <bullet> The FY 2009 budget request provides $163.4 million for the 
        Agency's Safety and Mission Success support activities required 
        to strengthen and enable the fundamental and robust cross 
        checks applied on the execution of NASA's mission. The 
        engineering; safety and mission assurance; and health and 
        medical independent oversight and technical authority which are 
        essential to NASA's success and were established in direct 
        response to the Challenger and Columbia Shuttle Accident Board 
        recommendations for independent funding of these efforts. The 
        Safety and Mission Success program directly supports NASA's 
        core values and serves to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The Safety and Mission Success program includes the corporate 
        work managed by the offices of the Chief, Safety and Mission 
        Assurance (including the NASA Safety Center), Chief Engineer 
        (including the NASA Engineering and Safety Center), the Chief 
        Health and Medical Officer, and the Director of the Independent 
        Verification and Validation Facility.

  <bullet> The FY 2009 budget request for Agency Information Technology 
        services is $163.9 million which encompasses cross-cutting 
        services and initiatives in IT management, applications, and 
        infrastructure necessary to enable the NASA Mission and improve 
        security, integration and efficiency of Agency operations. In 
        FY 2009 significant emphasis will be placed on consolidation of 
        networks and network management, improved security incident 
        detection, response and management, further consolidation of 
        desktop/laptop computer services, data center assessment for 
        consolidation, and application portfolio management leading to 
        consolidation. NASA is using an enterprise architecture 
        approach to assess current assets, capabilities and costs for 
        services and developing requirements, projects and procurements 
        for transition to the desired consolidated state. Additionally, 
        the underlying infrastructure and systems to instill strong 
        authentication and access to information systems in alignment 
        with HSPD-12 will progress significantly in FY 2009. Critical 
        work will continue under the Integrated Enterprise Management 
        Program to improve business processes by minimizing data 
        redundancy, standardizing information and electronic data 
        exchanges, and processing. Also, NASA will continue 
        participation in several Federal E-Government initiatives and 
        Lines of Business to improve services to citizens and gain 
        efficiencies across the government.

  <bullet> The FY 2009 budget request for Innovative Partnerships 
        Program activities is $175.7 million. This program provides 
        leveraged technology investments, dual-use technology-related 
        partnerships, and technology solutions for NASA. This program 
        also facilitates the protection of NASA's rights in its 
        inventions and the transfer of that technology for commercial 
        application and public benefit. In addition, the Innovative 
        Partnerships Program implements NASA's Small Business 
        Innovation Research and Small Business Technology Transfer 
        Programs which seek out high-technology small businesses to 
        address key technology needs for NASA. The program also manages 
        a Seed Fund to address technology needs through cost-shared, 
        joint-development partnerships. The Centennial Challenges 
        Program, which is also managed by the Innovative Partnerships 
        Program, consists of prize contests to stimulate innovation and 
        competition in new technologies for solar system exploration 
        and other NASA mission areas. NASA has already benefited from 
        Centennial Challenge competitions, and last year awarded 
        $450,000 in prize money for the Astronaut Glove Challenge and 
        Personal Air Vehicle Challenge. The Innovative Partnerships 
        Program also transfers NASA technology for public benefit, as 
        documented in NASA's annual ``Spinoff'' publication. ``Spinoff 
        2007'' documented 39 new examples of how NASA innovation has 
        been successfully transferred to the commercial marketplace and 
        applied to areas such as health and medicine, transportation, 
        public safety, consumer goods, homes and recreation, 
        environmental and agricultural resources, computer technology, 
        and industrial productivity.

  <bullet> Finally, NASA is requesting $28.0 million in FY 2009 for the 
        Strategic Capabilities Assets Program, a focused activity 
        designed to ensure that critical Agency capabilities and assets 
        for flight simulation, thermal vacuum testing, arc jet testing, 
        and microgravity flight services are available to NASA missions 
        when needed. Strategic Capabilities Assets Program assets are 
        also used by other government agencies, industry, and academia 
        to improve the Nation's position in the global marketplace as 
        well as its defense capabilities. The Strategic Capabilities 
        Assets Program budget request covers the direct and associated 
        costs required to sustain key test capabilities and assets 
        including operating staff, preventive maintenance, subsystem 
        repairs, and component replacements required to keep the assets 
        in ``ready for testing'' condition. Incremental costs to 
        conduct specific tests are borne by individual programs and 
        reimbursable customers. The Aeronautics Research Mission 
        Directorate budget request includes $73.9 million for the 
        Aeronautics Test Program (e.g., wind tunnels and flight 
        testing) and the Science Mission Directorate budget request 
        includes $41.9 million for High-End Computing Capability (e.g., 
        the Columbia super computer), which are also managed as 
        Strategic Capabilities Assets. Centralized management at the 
        Agency-level allows NASA to better prioritize and make 
        strategic investment decisions to replace, modify, or 
        disposition these capabilities and assets.
Conclusion
    NASA has a lot of hard work ahead, but the Agency continues to make 
steady progress in managing its challenges. We are deploying our 
workforce to carry out the great task before us. Last fall, the Agency 
assigned new leadership roles and responsibilities for exploration and 
science missions to NASA's ten field Centers across the country in 
order to help restore the core technical capabilities across the Agency 
as we transition from the Space Shuttle to new capabilities. I ask your 
continued help to ensure that this Nation maintains a human spaceflight 
capability.
    In a short span of years, we have already taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in our solar system. Indeed, 
a generation from now, astronauts on Mars will be flying and living 
aboard hardware America is funding and designing today, and will be 
building in the near future. This is a heady legacy to which we can 
aspire as we develop the next U.S. human space exploration vehicles. 
The foundation of this legacy will include work we plan to carry out in 
FY 2009.
    As I said earlier in my testimony, NASA is committed to executing 
the exciting programs and projects within the President's FY 2009 
budget request. Having reached a steady state on a balanced set of 
priorities, we now have a sense of purpose to make steady progress 
toward achieving our goals for continued leadership in space 
exploration, scientific discovery, and aeronautics research.
    Chairman Nelson, with your support and that of this Subcommittee, 
we are making the right strategic choices for our Nation's space 
program. Again, thank you for the opportunity to appear before you 
today. I would be pleased to respond to any questions that you may 
have.

            National Aeronautics and Space Administration President's FY 2009 Budget Request Summary
                                        [Budget Authority, $ in millions]
----------------------------------------------------------------------------------------------------------------
 By Appropriation Account By Theme    FY 2007    FY 2008    FY 2009    FY 2010    FY 2011    FY 2012    FY 2013
----------------------------------------------------------------------------------------------------------------
Science                                4,609.9    4,706.2    4,441.5    4,482.0    4,534.9    4,643.4    4,761.6
----------------------------------------------------------------------------------------------------------------
  Earth Science                        1,198.5    1,280.3    1,367.5    1,350.7    1,250.9    1,264.4    1,290.3
  Planetary Science                    1,215.6    1,247.5    1,334.2    1,410.1    1,537.5    1,570.0    1,608.7
  Astrophysics                         1,365.0    1,337.5    1,162.5    1,122.4    1,057.1    1,067.7    1,116.0
  Heliophysics                           830.8      840.9     577.3*      598.9      689.4      741.2      746.6
----------------------------------------------------------------------------------------------------------------
Aeronautics                              593.8      511.7      446.5      447.5      452.4      456.7      467.7
----------------------------------------------------------------------------------------------------------------
Exploration                            2,869.8    3,143.1    3,500.5    3,737.7    7,048.2    7,116.8    7,666.8
----------------------------------------------------------------------------------------------------------------
  Constellation Systems                2,114.7    2,471.9    3,048.2    3,252.8    6,479.5    6,521.4    7,080.5
  Advanced Capabilities                  755.1      671.1      452.3      484.9      568.7      595.5      586.3
----------------------------------------------------------------------------------------------------------------
Space Operations                       5,113.5    5,526.2    5,774.7    5,872.8    2,900.1    3,089.9    2,788.5
----------------------------------------------------------------------------------------------------------------
  Space Shuttle                        3,315.3    3,266.7    2,981.7    2,983.7       95.7         --         --
  International Space Station          1,469.0    1,813.2    2,060.2    2,277.0    2,176.4    2,448.2    2,143.1
  Space and Flight Support               329.2      446.3     732.8*      612.1      628.0      641.7      645.4
----------------------------------------------------------------------------------------------------------------
Education                                115.9      146.8      115.6      126.1      123.8      123.8      123.8
----------------------------------------------------------------------------------------------------------------
Cross-Agency Support                   2,949.9    3,242.9    3,299.9    3,323.9    3,363.7    3,436.1    3,511.3
----------------------------------------------------------------------------------------------------------------
  Center Management and Operations     1,754.9    2,013.0    2,045.6    2,046.7    2,088.0    2,155.3    2,211.6
  Agency Management and Operations       971.2      830.2      945.6      945.5      939.8      950.5      961.3
  Institutional Investments              223.8      319.7      308.7      331.7      335.9      330.4      338.3
  Congressionally Directed Items            --       80.0         --         --         --         --         --
----------------------------------------------------------------------------------------------------------------
Inspector General                         32.2       32.6       35.5       36.4       37.3       38.3       39.2
----------------------------------------------------------------------------------------------------------------
  FY 2008 Rescission**                            (192.5)
----------------------------------------------------------------------------------------------------------------
NASA FY 2009                          16,285.0   17,309.4   17,614.2   18,026.3   18,460.4   18,905.0   19,358.8
----------------------------------------------------------------------------------------------------------------
  Year to Year Change                                6.3%       1.8%       2.3%       2.4%       2.4%       2.4%
----------------------------------------------------------------------------------------------------------------
Budgets include all direct costs required to execute the programs. Indirect costs are now budgeted within Cross-
  Agency Support.
* Deep Space and Near Earth Networks Transfer $256M to SFS in FY 2009.
** FY 2008 Appropriation rescinded $192.475M in prior-year unobligated balances, effectively reducing FY 2008
  authority. Not included in totals.
FY 2008 budgets are the enacted levels per the FY 2008 Appropriation as shown in the Agency's FY 2009 Budget
  Estimates. Totals may not add due to rounding.


    Senator Stevens. Well, my basic question would be, how are 
you doing, and how much--what are your problems, money-wise?
    Dr. Griffin. Wow. I think--I think we're doing well. And I 
think we have an adequate budget to accomplish the tasks that 
have been set before us. As Senator Nelson indicated--not as 
rapidly as most of us would like to see them accomplished, but 
I think we can do it, and I'll leave it at that, for the 
moment.
    Senator Stevens. It looks to us like we're sort of 
dependent now upon Russian, or foreign vehicles, for our 
launches. How long is that going to continue?
    Dr. Griffin. You have just asked the question that probes 
at my greatest concern and my greatest regret. Yes, sir, you 
are correct--we are dependent, we are dependent for crew 
transport to the Space Station between Shuttle retirement at 
the end of 2010, and the expiration of our INKSNA waiver, the 
Iran, North Korea, Syria Nonproliferation Act waiver that we 
have, that expires at the end of 2011. So, for a year there, 
we're absolutely dependent upon Russia.
    If--and I'll say if--the Congress of the United States 
chooses to give NASA another exemption to purchase Russian crew 
transport services, we will be dependent upon such service 
until either we deploy the Orion crew exploration vehicle at 
the end of--or, at the beginning of 2015, or until an 
independent U.S. commercial capability takes form, by one or 
another company.
    If we do not--if we do not have a further exemption to the 
INKSNA provisions, then there will not be U.S. crew on the 
Space Station after 2011, and we will have to abrogate our 
commitments to our international partners, to provide transport 
to them after 2011.
    So, in brief, sir, that is the situation, as we see it.
    Senator Stevens. Mr. Chairman, you might want to introduce 
the crew, I think that's true, that's STS-120 just came in, if 
I'm right.
    Dr. Griffin. I would be thrilled to take a break and 
recognize the STS-120 crew.
    [Laughter.]
    Dr. Griffin. In fact, we can recognize them two or three 
times, and it will be a----
    [Laughter.]
    Senator Nelson. No, don't worry. We're getting back to you, 
Dr. Griffin.
    [Laughter.]
    Dr. Griffin. Somehow I thought that might be the case.
    Senator Nelson. The Commander, Pam Melroy; the Pilot, 
George Zamka; Mission Specialist, Scott Parazynski; the Mission 
Specialist, Doug Wheelock; Mission Specialist, Stephanie 
Wilson; and Mission Specialist from our colleagues in ESA, 
Paolo Nespoli.
    Paolo is from Italy, and they launched an Italian-built 
module, called Harmony. It is now part of the Space Station and 
it is an important connector that other payloads will be 
connected to.
    And this is the flight last fall that, you remember the 
drama when they unfurled part of the solar array and something 
wasn't working, and they had to send Scott out there, and if 
Scott made a slip, he could have been fried.
    But NASA, in its usual excellence, pulled it off, working a 
problem real-time. We all are very proud of you all, and want 
to welcome you to our little Subcommittee here. And this is how 
we try to do the people's work, and this is how we try to keep 
alive America's hopes and dreams through its space program.
    So, welcome to you all.
    [Applause.]
    Senator Nelson. You all are welcome to just sit and 
observe, and enjoy it until you have to go, so entirely on your 
own schedule, Madame Commander, whatever is your pleasure. Do 
you have a moment or two to wait; or do you all need to run on?
    Ms. Melroy. I think we have a few moments. Thanks for 
inviting us.
    Senator Nelson. Yes, indeed.
    Senator Stevens. Mr. Chairman, I think we can see why they 
sent Scott, he can outreach them all.
    [Laughter.]
    Senator Stevens. Great. Great job, we all watched you very 
carefully, thank you.
    Dr. Griffin. These are the people that I'm proud to lead 
for the duration of my assignment as Administrator, and my 
primary goal is to make them proud to work with me.
    So, thanks for recognizing them, Mr. Chairman.
    Senator Nelson. Yes, indeed.
    Senator Stevens, do you want to continue?
    Senator Stevens. Can I ask one last question?
    Senator Nelson. Oh, absolutely.
    Senator Stevens. How do you plan to pay for these foreign 
services, if we authorize you to use them?
    Dr. Griffin. We do have money set aside, in the budget, to 
purchase crew transport services from Russia. Whether it's 
enough money, or not, of course depends on the outcome of 
negotiations that can't begin yet.
    If we wish to--let me back up. Our current contract 
expires, and is well-understood, and expires at the end of 
2011, of course, as I just said. The Russian development 
history and production history for Soyuz is such that, if we 
wish to fly at the beginning of 2012, we need to have a new 
contract in place by the Spring of 2009. They have a 3-year 
production time, lead time, for Soyuz systems.
    So, over the course of the next--approximately the next 
year, if we wish to avail ourselves of Russian crew 
transportation services--as opposed to de-crewing, or taking 
U.S. crew of the Station--if we wish to procure Russian 
transportation services, we would need to--the Administration 
would have to formulate--or finish the formulation of--a 
request to Congress for a further exemption, and then we would 
have to negotiate a new contract with the Russians by, roughly, 
April of 2009.
    Senator Stevens. Could we build our own transportation in 
that timeframe, if we gave you the money?
    Dr. Griffin. No, sir. With--Senator Nelson has asked me 
that question previously, for the record, and I have responded. 
And the answer is no different today. Returning to that--I 
mean, there are always uncertainties--but with the best 
analysis we have, returning to that earlier answer, the 
technical limit, at this point, on deployment of a new system, 
would be September-October of 2013, and to achieve that would 
require an additional $2 billion over Fiscal Year 2009, 2010, 
and a little bit of Fiscal Year 2011.
    At the present pace, if everything goes as we expect it to 
go--neither better nor worse--we will deliver new capability in 
March of 2015, about 18 months after that.
    So, the technical limit is Fall of 2013, our expected 
delivery date today is the Spring of 2015.
    Senator Stevens. You've been very generous, Mr. Chairman, 
thank you very much.
    Senator Nelson. Well, you are certainly welcome, and you 
all can turn off the lights, we don't need any timing on this.
    And, Senator Stevens, thank you for asking that question, 
because naturally that's of an enormous concern to me, with the 
Kennedy Space Center. Because if there is a 5-year gap, from 
the time that we are launching humans into space, putting on my 
parochial hat for Florida, it affects a huge number of layoffs.
    Putting on my NASA hat, we become entirely reliant on 
Russian vehicles. And who knows what the geo-politic of the 
year 2013, 2014, and 2015 is going to be about Russia. Number 
one, that they produce the Soyuz craft for us to get to the 
Space Station, or number two, what they're going to cost us. 
And that's an uncertainty that we have.
    My colleague, who has replaced Senator Hutchison as the 
Ranking Member of the Committee, Senator Vitter, of Louisiana, 
and Senator Vitter has really jumped into this with a whole 
bunch of gusto, and we are all very appreciative of Senator 
Vitter.
    Senator Stevens. Before you go, would you permit me to put 
my statement in the record?
    Senator Nelson. Absolutely, without objection.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Mr. Chairman, I want to thank you for calling this hearing to hear 
from Dr. Griffin about the FY 2009 Budget Request for NASA.
    I am also happy that the crew of the STS-120 Shuttle mission were 
able to stop by the hearing. Led by Colonel Pamela Melroy as mission 
Commander and George Zamka as Pilot, this crew delivered the key module 
that enabled all three major laboratories of the Space Station to be 
attached and linked together. They all represent the best and brightest 
of our country, and the other countries they represent, as in this 
case, Italy, with Paolo Nespoli serving as a Mission Specialist.
    Our Nation's leadership in space exploration has provided this 
country with many scientific and technical benefits and advantages in 
an increasingly competitive world, but we cannot take that leadership 
for granted. Other nations, such as Russia, China, and even India, 
either have or are developing the capability to explore space, 
including human exploration.
    I am concerned that we still do not have a clear and reliable plan 
for continuing our human space exploration without an extended gap 
after the retirement of the Space Shuttle.
    It is important to complete the International Space Station and to 
have the Station available for our scientists and researchers to work 
there--that is why we have made the investment over the years to build 
it. But we also need to be able to get to it and use it. I am very 
concerned that we might be in a situation where--for as many as five or 
6 years--there is no U.S.-owned capability to launch humans into space.
    I will work with NASA, the Administration and this Subcommittee to 
ensure this country stays in the forefront of exploration of the 
frontiers of space.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Well, thank you, Mr. Chairman. And I'm very 
excited to join the subcommittee; I'm very excited to be 
Ranking Member. I'm very interested in the mission of NASA as a 
very important part of our national vision for the future. 
Also, there are, of course, significant facilities in my part 
of the world, related to NASA, Michoud, assembly facility in 
the New Orleans area, which has a very proud past, and I think 
an even more promising future, both tied to the Shuttle, and 
beyond.
    And Doctor, I certainly appreciate your personal 
recognition of the asset that Michoud constitutes, and how it 
should be utilized in the future. And also, Stennis--right 
across the line in Mississippi--is a very important asset, and 
probably about a third of their workforce happens to live in 
Louisiana, so I take a great, specific interest in that, as 
well.
    Along with the Chairman--along with many other folks--I'm 
very concerned about this gap from a lot of different 
perspectives, not just a parochial one, but from the 
perspective of the future of NASA.
    And I guess one of my biggest concerns is that, I think 
we're very good at calculating the cost of additional action, 
like the $2 billion you're talking about--and that's real, I'm 
not trivializing that.
    But I think we're not very good at calculating the cost of 
inaction. Because there is real cost--it's tougher to 
calculate, it's tougher to put a number on, but that doesn't 
mean it's any less real, the cost of inaction. There's enormous 
cost in terms of loss of workforce and skills, and you just 
don't turn off a switch, and then turn on a switch 2 years 
later and, you know, the lights come on and nothing's been 
interrupted. Those are people with skills, they leave--many of 
them--they don't just hang around and wait. They can't be 
immediately, or easily, or cheaply replaced, in terms of those 
critical skills.
    I think there's also real cost in terms of this dependence 
on Russia for transportation--and not just the cost of national 
prestige or any of that--but I'm talking about dollar cost. And 
I wanted to try to explore with you, some of those costs, which 
again, are not as easy to calculate as the $2 billion, but I 
think are nevertheless, very real.
    What has NASA done to sort of put pencil to paper and 
understand the cost of the gap, in terms of loss of workforce 
and skills, and how we re-gain that on the other end of the 
gap? And is that cost really built into the budget, in terms of 
the training and the skills development we're going to need, if 
there is this same gap, if that plays out on the other end of 
it?
    [The prepared statement of Senator Vitter follows:]

  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana
    Thank you, Mr. Chairman. I am delighted to be here for my first 
hearing on NASA-related issues since becoming the Ranking Member of the 
Subcommittee.
    I am also happy to welcome the crew of the STS-120 Space Shuttle 
mission with us today. I had the opportunity to meet with them briefly 
just before the hearing, and they are a very impressive group of 
professionals. As many of you know, they delivered the Harmony 
connecting node to the Space Station last November, which paved the way 
for the delivery of the final laboratory modules for the Station, built 
by our partners in Japan and the European Space Agency. They also 
conducted an impressive spacewalk to repair a torn panel on one of the 
station's solar arrays. We are delighted to have them with us briefly.
    Like most Americans, Mr. Chairman, I have been aware of and proud 
of our Nation's accomplishments in space exploration. I have also long 
been aware of two of NASA's key installations that are vitally 
important to many of my constituents--the Michoud Assembly Facility 
near New Orleans, where the huge Space Shuttle external tanks are 
manufactured, among other things, and the Stennis Space Center, just 
over the line in Mississippi, but with thirty percent of its workforce 
living in Louisiana. Together, these two facilities represent a major 
force in the economic well-being and technical excellence of the 
citizens of my state.
    1 am excited about this assignment and look forward to the 
opportunity to work with you and our colleagues as we conduct oversight 
and develop legislation to help guide our Nation's extremely important 
civilian space agency and its activities and programs.
    We begin that effort today by hearing from Dr. Michael Griffin, 
NASA Administrator, as he describes the President's FY 2009 Budget 
Request for NASA. I met with Dr. Griffin just a few days before the 
budget was released and--while he was of course circumspect about the 
details at that point--he indicated that there would not likely be any 
surprises in the request, or a major departure from what had previously 
been projected for NASA for FY 2009.
    He was correct in that characterization. However, this budget 
request does not, I believe, adequately address a number of very 
important issues of concern to me and I believe to many of my 
colleagues.
    Perhaps first and foremost, the request provides no new funding to 
accelerate development of the Ares I launch vehicle and the Orion Crew 
Exploration Vehicle (CEV) in order to begin to narrow the gap in U.S. 
human spaceflight capability that will occur if the Space Shuttle 
program is phased out at the end of 2010, as is the Administration's 
plan.
    I firmly believe this issue is one that is growing in concern to a 
great many Members--and one that will be of widespread concern to the 
American public when they realize its true impact on the ability of the 
United States to maintain its leadership in space exploration. I do not 
believe they will be happy with the fact that the only way we can put 
Americans into space is to pay the Russians to launch them. On top of 
that, under current law, we cannot even buy those services from Russia 
after 2011. Unless that law is changed--and there is no guarantee of 
that--the United States will be unable to fly its crew members to the 
Space Station for the remaining 4 years of the expected gap. In the 
meantime, the other fifteen nations who are our partners in building 
the Space Station would continue to be able to access the Station with 
the help of Russia, doing the kind of research our own scientists have 
waited so long to be able to do.
    Even if the exemption is extended, I am not sure the American 
people will be especially thrilled that we will be paying hundreds of 
millions of dollars to the Russians to send American astronauts to 
space at the same time we are laying off or forcing into other jobs the 
highly qualified, experienced and dedicated Americans who have been 
doing that job for the country in the Space Shuttle program for the 
past twenty-seven years.
    We should examine whether it makes more sense to spend those 
hundreds of millions of dollars to close the gap, rather than to pay 
the Russians to try to fill the gap.
    This is an issue that the Administration--at least those who 
drafted the budget request--has seemingly chosen not to address, but 
it's one I believe we in this Subcommittee, and in the Congress as a 
whole must deal with as we consider NASA reauthorization legislation.
    I have other concerns regarding the transition from the Space 
Shuttle to its successor, and will have some questions for Dr. Griffin 
to address, either today or for the record.
    As I have been familiarizing myself with the wide range of issues 
facing NASA, not only in human spaceflight, but in the areas of Space 
Science, Earth Science, Aeronautics Research and Education and Advanced 
Technology, it is clear to me that NASA is at a crucial point in its 
history. Decisions being made now will dramatically impact the degree 
to which this Nation can maintain its long-standing leadership in the 
exploration and utilization of space.
    I look forward to working with the Chairman, my colleagues on the 
Subcommittee and with NASA leadership to help ensure the right 
decisions are made and the support needed to carry them out is provided 
by the Congress.

    Dr. Griffin. Well, let me take the last part, first. Our 
budget, in terms of bringing on-board the people who are 
needed--through, and at the end of, the gap--does contain the 
necessary funds for the people we will need.
    What, I think, of course, you appreciate is that people 
will be coming off the Shuttle program, and will be coming onto 
the new Constellation program--our Ares and Orion systems to 
start, that I mentioned a few moments ago.
    And that while our budget, in constant dollars, remains 
approximately fixed, and therefore the number of our people 
remains approximately fixed, they won't necessarily be in the 
same physical places, and they won't be the same people doing 
the same things.
    Additionally, some of the--many, in a sense, we are ceasing 
for several years, we will have a hiatus, in human spaceflight 
operations, as opposed to design and development--the kinds of 
people involved are very different, in terms of their skills.
    And so, as you correctly point out, the operational skills 
will atrophy during those years--they will atrophy. And we will 
have--we will undoubtedly have--startup problems as we begin to 
try to operate the new systems.
    I appreciate your point about the cost of inaction. The 
opportunity cost is always harder to calculate than direct 
cost, but it is nonetheless real to an economist. It matters.
    We owe the Congress--and will deliver to the Congress--a 
report, a series of reports, the first of those is due on March 
24. And every 6 months thereafter, we are obliged to provide to 
the Congress an assessment of workforce impacts from Shuttle 
retirement, and Constellation buildup, at all of the different 
centers. We will do that. That will be available, from this 
date, within less than a month.
    Preliminary figures that I could give you today are very 
uncertain, as will be the figures I will give you in a month. 
And they will be updated every 6 months. But, in your area of 
the world, Senator Vitter, in Michoud, we expect that the NASA 
employments--now, this is not the total government employment--
but the NASA employment will drop from about 1,900 today, to 
under 600. Somewhere down around 500 for a time, before coming 
back up.
    At the Kennedy Space Center, specifically, we will see--
after the Shuttle retires--a net reduction in contractor force 
of at least several thousand. And that will not come back up, 
at least in terms of launch processing, because of the fact 
that our new systems will require--and should require--fewer 
people to operate than the Shuttle, which is an expensive 
system. We are, after all, retiring the Shuttle.
    Our goal is to work as carefully as possible to preserve 
the skills that we need. We are dealing with that every day. 
And our goal, also, will be--very specifically--to move some 
new roles and missions to the Kennedy Space Center to replace 
the specific Shuttle operations tasks, which will go away and 
which will not come back.
    We do not, by any means, have all of the answers to these 
problems today. I want you to know--from my heart--that I take 
this seriously, the displacement of lives, the displacement of 
skills, as we wind down the Shuttle program and start a new 
program, matters to me. And it matters to my team, and we are 
working it. We don't have all of the answers today.
    Senator Vitter. To follow up, specifically, on this atrophy 
of skills, you say the money is there at the other end of the 
gap for the people. But, do you think it fully takes into 
account, the increased cost per head, if you will, that may be 
involved because of the atrophy of skills, and the re-training 
required?
    Dr. Griffin. I take your point, I think so, but I can't 
know that, now. And that symptom will be manifested in our 
ability to sustain the schedule we want to sustain. If it takes 
longer to get our people back up to speed than we anticipate, 
then we will not be able to hold our schedule. And that's how 
that symptom will show.
    Let me be clear--we have a program today which is heavily 
focused on operations--Shuttle operations. We are, of course, 
not designing and building the Shuttle any more. As we reach 
and pass 2010, we will be out of the operations business for 
awhile, and into the design, development, test and evaluation 
side of our business--we will be developing new systems.
    We will be spending, in total, the same amount of money, 
nationwide, on our workforce, but it will be different people 
in different places. And then as we close in on 2015, and begin 
to develop routine operations again, we will shift out of 
design, development, test and evaluation, and back into 
operations.
    So, at different portions of this product life cycle, we 
will need different kinds of people in different kinds of 
places.
    Senator Vitter. The other cost of inaction, specifically, 
that I'm concerned about is what we end up paying to the 
Russians. You know, buying transportation from them isn't like 
buying a plane ticket in a free market, where you have plenty 
of customers going to that airline. It's a very unique 
negotiation.
    Dr. Griffin. Yes, sir.
    Senator Vitter. We're the only customer in sight that has 
the attributes that we have, vis-a-vis buying what we're trying 
to buy from them. So, it is a one of a kind negotiation, it's 
not buying something off a shelf with a clear price, fixed by 
the market. And I'm afraid some of our inaction--whether it's 
in not trying to accelerate the next generation program, or 
perhaps not putting more money into COTS--dramatically 
increases their bargaining power, dramatically increases the 
price we end up paying for that next contract. And we've seen, 
I believe, major increases in that price we've gotten from 
them, over several years, already.
    Dr. Griffin. We have.
    Senator Vitter. How do you analyze that, and is there any 
effort within NASA to try to estimate? I realize it's 
impossible to predict, because it's a very unique negotiation, 
but to try to estimate what impact on that price our own 
additional expenditures could have, either in terms of 
accelerating our program, or putting more money into COTS, et 
cetera?
    Dr. Griffin. We do have an estimate for what we expect the 
cost of Russian Soyuz seats, if you will, to be after the 
current contract runs out. I'd rather not discuss that estimate 
here, I'd be happy to do that with you in private. But based on 
our history with the Russian program, we do have such an 
estimate.
    I do not have an estimate for how that estimate might 
change as a result of more timely investment in our own 
capabilities--whether in COTS, or in accelerating our own Orion 
and Ares program. I don't have a sensitivity estimate for you, 
that you ask about.
    Senator Vitter. Wouldn't it be reasonable to develop that, 
to understand the cost/benefit of spending, in terms of 
acceleration of our program, or acceleration of COTS; if there 
is some saving, in terms of the bill from the Russians?
    Dr. Griffin. I think it would. I'd be happy to develop 
that. Again, it's not something I'd like to discuss publicly--
--
    Senator Vitter. No, I don't suggest we should publish it, 
for obvious reasons, because we have this negotiation with the 
Russians, but I do suggest we should develop it on our side.
    Dr. Griffin. Sure. Of course, at one extreme, if we had, by 
the time--if we are granted, if we, if the Administration seeks 
and if we are granted--an exemption to INKSNA--and Senator 
Nelson rightly points out that we don't know what the political 
environment will be after 2012, but let us assume that it 
continues stably today--by the time we are paying for Russian 
services, at one extreme, we will have expended the $2 billion 
I spoke of that would have been necessary to close the gap.
    Now, we can't go back and redo that decision, because water 
has moved under the bridge. But, between the existing contract, 
and our anticipated expenditures in the future, we will spend 
in the neighborhood of $2 billion on Russian hardware.
    Senator Vitter. Well, again, I'd like to specifically 
request that sort of analysis----
    Dr. Griffin. We will develop it for you.
    Senator Vitter.--confidential on our side, because, you 
know, it's--I don't necessarily predict this, but it's possible 
for me to imagine--certain investments, either in accelerating 
the timeline of our next systems, or in COTS, that pay for 
themselves, or almost pay for themselves, in terms of savings 
to the Russians.
    Dr. Griffin. Yes, sir. I understand, and we'll develop that 
for you.
    One option might be to accelerate the award of the D-phase 
of COTS, COTS D-phase----
    Senator Vitter. Right.
    Dr. Griffin.--which is the human spaceflight capability, if 
we believe that the present agreements are going well, that's 
always an option.
    Senator Vitter. Right.
    Dr. Griffin. So, yes, sir. I understand. We'll get back to 
you for the record on that.
    [The information previously referred to follows:]

    Purchasing Soyuz crew transportation and rescue services does not 
require up-front financing or amortization of development cost. U.S. 
payments to Russia are based strictly on capabilities already available 
and certified, and do not require any development funding or investment 
on NASA's part.
    NASA has conducted analyses on the projected development cost, 
schedule, and cost per seat of a domestic commercial Capability D. 
These analyses were based on the NASA/Air Force Cost Model (NAFCOM), 
and were cross checked with commercial cost estimating tools, including 
Parametric Review of Information for Costing and Evaluation (PRICE) and 
System Evaluation and Estimation of Resources (SEER). Though the 
results are fairly representative of the expected development costs and 
schedules, the models are not able to reflect commercial market 
conditions and industry business models that could have an effect on 
the cost-per-seat analysis. Such financial considerations as the cost 
of capital, distribution of risk across business lines, and profit 
margins, were not taken into consideration. The modeling did take into 
consideration such traditional cost drivers as maturity of design, 
available funding, test approach, pre-development studies, developer 
experience, infrastructure maintenance, operational cost, and 
complexity of design.
    Based on multiple modeling scenarios, the estimated development 
costs, including NASA investment, industry contributions, and 
commercial financial investments, ranged from $1.2-$4.7B. Estimated 
development and qualification time ranged from three to 6 years. The 
lower development cost and shorter development times reflect the most 
optimistic model settings (e.g., high developer experience, readily 
available funds, and high maturity of design). The higher development 
cost and longer development time represents less optimistic settings 
for cost drivers. Credible industry proposals for Capability D should 
take into consideration an extended development period, major financial 
investments, and high infrastructure costs. It has been the experience 
of NASA and the overall aerospace industry that the eventual cost per 
unit will end up reflecting the development cost and market conditions.
    NASA prefers to purchase U.S. commercial crew transportation and 
rescue services once they have been demonstrated rather than purchase 
Russian Soyuz services. Nonetheless, it is NASA's opinion that it is 
unrealistic to expect that the price per seat for Capability D will be 
significantly less than the Soyuz cost, and initially it is likely to 
be higher as the cost will need to reflect development cost outlays. 
Eventually, the Capability D seat price could approach Soyuz price 
levels. Even if Capability D becomes operationally available during 
this timeframe, NASA will still need to purchase Russian Soyuz crew 
transportation services to fill the gap between Shuttle retirement and 
Capability D availability.
    NASA's current investment approach is to demonstrate commercial 
cargo capability before investing in crew transportation capability. 
This approach reduces the development risk for a future Capability D by 
doing early demonstrations of proximity operations, rendezvous and 
docking, and pressurized cargo delivery and return. The experiences 
gained by industry in development, operations, and certification of 
these capabilities will significantly reduce uncertainty in the 
development cost and schedule for Capability D.

    Senator Vitter. That's all I have right now.
    Senator Nelson. Well, chime in any time.
    Senator Vitter. Sure.
    Senator Nelson. We'll just keep this going as a 
conversation here.
    All right, well let me pick up right there. COTS-D, which 
is developing a new vehicle that would have human capability. 
The company, SpaceX, which you've already awarded a contract 
to, to develop a cargo carrier, but they just bid to also 
develop a human carrier. The extra money that you had left over 
because the second bidder on the original COTS contract left 
the scene, you did not give it on a COTS-D contract. But now 
you're raising the possibility of a COTS-D, which is the human 
carrier, to SpaceX?
    Dr. Griffin. Well, let me clarify, sir, if I might. We 
don't have contracts, we have technically--and I need to be 
careful about this--Space Act Agreements for, whereby we now 
have two purveyors, SpaceX and Orbital, whereby they can 
qualify for NASA payments by reaching certain milestones in 
their development process. And once there is developed 
capability, we may well--we hope to--put out RFPs for actual 
contracts.
    But these are other transactional authority in government 
procurement language and I need to be very careful about that.
    Senator Nelson. And these are for cargo?
    Dr. Griffin. And the milestones that we are seeking, the A 
milestone is for unpressurized cargo, the B milestone is for 
pressurized cargo, the C milestone is for--equally important--
the return of cargo from the Station, processed experiments and 
such things. And finally, the D milestone is for the delivery 
and return of crew.
    SpaceX has bid on all four milestones--A, B, C, and D, and 
at--we, of course, had desired, do desire, to recognize and 
award the easier milestones first. I think that's obvious.
    Orbital--the recent winner of a COTS agreement, has 
proposed on only the first two milestones. All of those are 
valuable things to us.
    I was mentioning the point, in response to Senator Vitter's 
question that it is possible, if we are willing to take a lot 
more risk--and this may be a time to take, this may be a time 
to take more risk--it is possible to recognize progress, and 
make an earlier award of Phase D. That is something that could 
be considered, which I was offering as an answer to the 
Senator's question, without trying to be overly specific about 
when, and under what conditions, we could do it.
    Senator Nelson. Especially since your policy goal is to 
keep U.S. astronauts on the Space Station, after you shut down 
the Space Shuttle.
    Dr. Griffin. Yes, sir.
    Senator Nelson. Ergo, you have to have human capability to 
launch into space.
    Dr. Griffin. Yes, sir.
    Senator Nelson. And without the new vehicles, Orion and 
Ares, coming online until 2015, unless we can accelerate that, 
therefore for 5 years, you've got to rely on a Russian vehicle. 
Number one, you do not know what it costs, and number two, you 
do not know with absolute certainty that it is available.
    Dr. Griffin. That is correct, sir. Both of those are 
correct.
    Senator Nelson. Well, then, wouldn't it be wise for us to 
be planning for, number one, accelerating Ares and Orion, and/
or trying to get an additional human capability?
    Dr. Griffin. I will review with my folks, the possibility 
of accelerating COTS within the funding that we already have 
available for it.
    With regard to our Ares and Orion program, our government 
vehicles, the President's budget contains the funding to 
deliver that capability in the Spring of 2015. Now, things may 
go better than we expect--sometimes that happens--or they could 
go worse. But that's our nominal planning date, at 65 percent 
budgetary confidence estimate.
    Senator Nelson. Well, let me just throw you another----
    Dr. Griffin. That's what the President's budget----
    Senator Nelson. I understand.
    OK, now I want to give you another realistic political 
monkey wrench.
    Dr. Griffin. Thank you?
    Senator Nelson. That is very realistic. Because current law 
prevents NASA from purchasing flights, because of ongoing 
Russian support to the Iranian nuclear and missile programs. 
So, here we have a gap coming up, regardless of Russia saying, 
``Well, I'm not going to supply you the vehicle,'' or Russia 
saying, ``I'm going to gouge you,'' by making it prohibitively 
expensive. But now, we've got another situation, because of 
current law that says that we can't do ongoing contracts with 
the Russians if they are supporting the Iranian missile and 
nuclear program, which, in fact, they are.
    So we've got to do this kabuki dance that we've done in the 
past, which is get a waiver of that. Have you had conversations 
with the White House and OMB about that issue?
    Dr. Griffin. Yes, sir. I'm, of course, aware of the issue, 
and that's why I qualified my earlier statements by saying, if 
the Administration seeks, and we are granted a waiver of INKSNA 
law, then we would be able to purchase seats. So, I am aware of 
that.
    We have initiated, within the Administration, of the 
discussions of which you speak, with various staff offices in 
the White House. And we at NASA hope to bring that to a 
successful conclusion in the near future.
    We realize that the Congress needs--we realize the Congress 
needs an ample amount of time to consider our request. I don't 
have such a formal request available for you today.
    Senator Nelson. Have you had a discussion with Secretary 
Rice or her Deputy?
    Dr. Griffin. Yes, I have not personally I would say that I 
know for certain that our folks who work inter-agency and 
intergovernmental affairs, are working with the Department of 
State on this matter.
    Senator Nelson. Well, at the end of the day it's going to 
be us, in the Congress, that are going to have to bring about 
this waiver.
    Dr. Griffin. Yes, sir.
    Senator Nelson. And in order for us to consider this in a 
deliberate manner, we're going to have to receive a request 
from the White House by when, March the 14 of this year, of 
2008. You think we can have that request from the White House 
for a waiver?
    Dr. Griffin. I can't commit to that date, because it's not 
within my authority to do so, but I will do everything I can to 
get you such a request at the earliest possible time.
    Senator Nelson. That's only about 3 weeks away.
    Dr. Griffin. I know that, sir.
    Senator Nelson. I want to go back to another line of 
questioning that Senator Vitter had mentioned. You stated that 
Michoud workforce was going to go from 1,900 down to 600?
    Dr. Griffin. Or thereabouts. I wouldn't want anyone to 
place too much precision to that.
    Senator Nelson. You said KSC, in 2011, was going to be a 
several thousand reduction. Then you made another statement 
that, you're trying to bring in additional work. Was that 
several thousand reduction for the Kennedy Space Center, was 
that net, or was that gross, before you brought in the 
additional work?
    Dr. Griffin. The reductions I speak of in all cases are 
before we have any consideration of what new work might exist 
there. For example, the COTS operations, if they're successful, 
are not factored in.
    Again, we will never--I hope we will never use as many 
people to process our new launch vehicles as we used to process 
the Shuttle. So, if we are to avoid a permanent downturn in the 
contractor workforce at the Kennedy Space Center, we would need 
to assign some new roles and missions to the Kennedy Space 
Center, so that they can do other things at that location, 
besides process Shuttles. It is my hope to do that.
    Now, the budget to support those new roles and missions, of 
course, doesn't materialize until after the Shuttle is retired.
    Senator Nelson. And one of those roles that is already in 
the works; according to the contract that you let on Orion was 
the assembly of Orion there----
    Dr. Griffin. Correct.
    Senator Nelson.--in the big High Bay.
    Dr. Griffin. Correct. And I hope to find other similar 
tasks as we develop new hardware systems to return to the Moon.
    As you know, Senator Nelson, better than anyone, we will 
need a number of new hardware systems as we mount our campaign 
to return to the Moon, and we--but here is our issue, with 
regard to employment in Kennedy Space Center. During Apollo we 
developed all of those systems in parallel. And the Nation 
simply supplied the money to do that. In Constellation, we are 
developing them in series, in sequence, in order to fit the 
confines of a, basically, flat budget, adjusted for inflation.
    So, we have to develop first one thing, and then the next 
thing, and the next thing after that. So, as these systems come 
online, I am very much hoping that we can do--with later 
systems--as we are doing with Orion. That we will assemble them 
at Kennedy Space Center. That is my goal. That would be my 
hope.
    We can't know how that will come out for a number of years, 
because the budget to do those new systems is done serially, 
rather than in parallel.
    Senator Nelson. And because of that, which I am grateful 
for as I try to look at the finest launch team in the world and 
it has an excellent corporate memory that you would not like to 
lose, and I am grateful to that, but the key word is, serially.
    Dr. Griffin. Yes, sir. Yes, sir.
    Senator Nelson. So, the Moon program comes on down the 
line. That doesn't help us in 2011, when you're shutting down, 
to use your words, several thousand.
    Dr. Griffin. It does not. We have--I've been calling 
attention to this matter for 3 years now. We have reached the 
point where there is nothing that will--to use your words--fill 
in the gap. We are retiring the Shuttle, after 30 years--by the 
time it's retired--after 30 years of service. We are retiring 
the Shuttle, we are moving on to new systems. We are not, 
immediately, replacing the Shuttle with those new systems. And 
when we do, it is a policy goal to have the new system use 
fewer people. So, we have a gap that will open up in the 
contractor workforce at the Kennedy Space Center, and that will 
not be filled.
    Senator Nelson. Are the other centers going to share some 
of the pain?
    Dr. Griffin. Well----
    Senator Nelson. For example, what's going to be the 
reduction at Johnson?
    Dr. Griffin. I don't have that with me at the moment.
    Senator Nelson. How about at Marshall?
    Dr. Griffin. I don't have any of that. I really don't.
    Senator Nelson. Well, last November, in our hearing I had 
asked for the out-year projections of all of the workforce 
levels at all of the NASA centers. That was last November. When 
do you think that this Committee will receive that information?
    Dr. Griffin. Absolutely by March 24, which is the 
legislatively required, mandated date for the workforce report 
that we owe you, center by center, and with updates every 6 
months thereafter.
    I'm not 100 percent sure I recall, but I think that was the 
answer I gave you last November when we talked about it. That 
we were working on this report, and we would have it for you in 
March.
    Broadly speaking, I don't think we're going to have 
significant overall employment reductions at Marshall or 
Johnson.
    Senator Nelson. How about Goddard?
    Dr. Griffin. That's--Goddard is primarily not in the manned 
spaceflight business, and so we're not looking at any 
reductions at Goddard.
    Senator Nelson. Glenn?
    Dr. Griffin. Again, I think Glenn is--will remain healthy.
    Senator Nelson. JPL?
    Dr. Griffin. JPL will remain healthy.
    Senator Nelson. So the ones that are getting it in the 
neck, are first, KSC, and number two, Michoud?
    Dr. Griffin. That is where our contractor workforce 
problems are the most severe, yes, sir.
    Senator Nelson. The way to get around this is to get 
additional money, so that we can accelerate Orion and Ares from 
2015 to 2013, and therefore it's only a 3-year gap. But we went 
through this drill last year, having gotten a billion dollars 
extra, which was merely to repay you for the money that you had 
to spend on the recovery from the Columbia disaster. There was 
a lot of shoe leather, and a lot of sweat to get that, in the 
Senate, and then we couldn't get support out of the White House 
to keep that number in the negotiations with the House. So we 
lost the billion dollars. But, we did get at least the 
President's requested level.
    Dr. Griffin. Yes, sir.
    Senator Nelson. But that doesn't help us with the instant 
problem that Senator Vitter and I have.
    Dr. Griffin. That's correct, sir. Because, for the next few 
years, after the retirement of the Shuttle, our--NASA's--human 
spaceflight budget is spent primarily on the development of new 
systems. And since that was not--and is not being, and was not 
planned to be primarily in parallel with the Shuttle--we go, 
again, as I said earlier, we go from a situation where today 
our program is largely about spaceflight operations. And then, 
for several years, our program will largely be consumed with 
design, development, test, and evaluation. Development of new 
systems--and then we will transition back to operations.
    So, we are doing those things serially, rather than in 
parallel.
    Senator Nelson. I am a Florida native, my home county is 
Brevard County. We don't want to go through what we went 
through after the shutdown of Apollo.
    There were about 25,000 employees in the height of the 
Apollo Moon program. Within a short period of time, that 
employment went down to something less than 10,000. Massive 
economic dislocation. Dinks and danks to keep it going with a 
Skylab, and then Apollo-Soyuz. And then there was a 6-year gap 
from Apollo Soyuz in 1975, to 1981, the first flight of the 
Space Shuttle. And those were rough times for folks back home. 
Nobody wants to see that kind of economic and professional 
dislocation occur again.
    We have talked about this, privately, for some period of 
time, and we have talked about additional items that we could 
bring in. I would like for you to be thinking about that, and I 
would like also now to pick up on the previous thing that we're 
talking about, of being totally dependent on the Russians. If 
we did have an additional capability, American-wise, to get 
humans up there, that would certainly help the space launch 
business down at Kennedy Space Center, and it's clearly going 
to lessen our dependence on the Russians. And yet, we're not to 
the point at which we're even thinking about the capability of 
developing that human capability.
    Dr. Griffin. On COTS, you mean?
    Senator Nelson. On COTS.
    Dr. Griffin. Well, sir, I have thought about it. Let me 
give you the other side--and if wishes were free, I would have 
already done it. Let me give you the other side of the coin, if 
I might.
    Our COTS agreements are predicated upon the demonstration 
of progress by those who hold the agreements, and, in exchange 
for progress, and reaching certain milestones, they qualify for 
certain payments.
    I could--as you are indicating that I should--I could bet 
on the outcome, and assume that we're going to have progress, 
and maybe this is a time to do just that, because of the 
exigency in which we find ourselves.
    But, in the customary stewardship of government funds that 
I believe that you all, here on the Hill, expect of me, I don't 
normally wish to put government funds, in any way at risk, 
without a reasonable certainly that I will get a product back.
    Now, when I say those words, I sound as if I'm somehow down 
on SpaceX--I'm not. Or down on COTS--I'm not. I'm the 
originator of the COTS program. It was----
    Senator Nelson. Indeed, you are, and you should be 
congratulated for that.
    How much do you think COTS-D would cost?
    Dr. Griffin. I don't have that in my head right now. I just 
don't.
    Senator Nelson. I think you'll find it to be somewhere 
around $300 million, to move to start to develop that 
capability.
    Dr. Griffin. Well, of course, we don't have to put that all 
up at once.
    Senator Nelson. That's correct. So, is it worth risking 
that as opposed to risking $2 billion later down the road on 
the Russians, that we don't even know is going to work for 
those 5 years?
    Dr. Griffin. I completely understand the question, we have 
not done--we have not analytically fleshed out our options for 
accelerating COTS-D within the budget that we have, we have not 
done that. And I will do it, and I will get back to you on what 
our options might be to do so.
    Senator Nelson. And in the meantime, you have awarded 
another COTS contract for cargo, that was about $170 million?
    Dr. Griffin. That's correct, sir. We need that, too. Our--
--
    Senator Nelson. Tell us, why we need that?
    Dr. Griffin. Well, our objective is to have--again, the 
COTS agreements are for the development of commercial 
transportation ability, which does not today exist. The 
government has never put up money to sponsor such development. 
We have done that now. It is very difficult--we can not 
guarantee the success of any given provider. If we had had more 
money available, or thought that lesser amounts of money to any 
one potential provider would be a sufficient incentive, we 
would have had three or more contracts. I would like to have as 
many commercial purveyors of this capability as I could get.
    What we were able to budget, starting a few years ago, we 
set aside in our budget, $500 million for these COTS 
agreements, as you well know. And we had hoped to have two 
providers, and so we--we had an earlier provider, who was not 
able to make his milestones. We didn't spend the money, but 
they didn't make the milestones, so we still had the money 
available. We did a re-compete and selected a different second 
provider.
    Senator Nelson. And will this----
    Dr. Griffin. I didn't--I didn't want to get to a place 
where I was funding only one provider.
    Senator Nelson. All right. I'm not going to beat a dead 
horse.
    Dr. Griffin. I----
    Senator Nelson.You got the message.
    Dr. Griffin. I understand your question.
    Senator Nelson. And you got the message of what we have at 
risk here, and oh, by the way, on top of that, is this Iranian 
nuclear issue.
    Dr. Griffin. I--I don't know how to phrase this in such a 
way as to convince you that I totally understand the concern 
and the problem, and I share it. I share the concern, I 
understand the problem.
    Senator Nelson. Speaking of the award that you just made on 
COTS, for what lift cargo weight are we talking about there? As 
compared to SpaceX? Give us a comparison of the two.
    Dr. Griffin. They're in the same payload class, many 
thousands of pounds, when at the end of their development 
cycle, thousands of pounds not tens of thousands of pounds. 
They're in the same general class.
    Senator Nelson. Tens of thousands of pounds?
    Dr. Griffin. Not tens of thousands of pounds.
    Senator Nelson. Not tens of thousands, just thousands.
    Dr. Griffin. Thousands of pounds.
    Senator Nelson. Both of them?
    Dr. Griffin. Yes.
    Senator Nelson. Even with the new SpaceX rocket that 
they're going to launch from Complex 20 at Cape Canaveral Air 
Force station?
    Dr. Griffin. Well, Falcon 9, when developed, has a 
substantial payload capacity, over 10,000 pounds, but that's 
not the first development. They have yet to develop the Falcon 
1.
    Senator Nelson. Yes, but that's out at Kwajalein. Once they 
develop it, they're going to strap them together when they 
launch from the Cape, aren't they?
    Dr. Griffin. The Falcon 9 design is a clustered--design of 
clustered engines, yes sir.
    Senator Nelson. And its payload is how many pounds?
    Dr. Griffin. I--I'll give it to you for the record.
    Senator Nelson. But you just said, somewhere----
    Dr. Griffin. It's over 10,000 pounds.
    Senator Nelson.--over 10,000 pounds.
    Dr. Griffin. Yes. I don't----
    Senator Nelson. My question then, to get back to it, is 
compare the two. If that's over 10,000 pounds, what's the 
payload capacity of the other one?
    Dr. Griffin. I'm sorry, I'll get that for you.
    [The information previously referred to follows:]

    SpaceX's Falcon 9 launch vehicle is designed to lift approximately 
nine Metric tons into the International Space Station's orbit, and 
carry about three Metric tons of cargo.

    Senator Nelson. Does anybody in that front row back there 
know?
    Dr. Griffin. I don't.
    Senator Nelson. You all just issued a contract to them, and 
you don't know what the payload capacity is?
    Dr. Griffin. No, sir. We know what it is. We have it. I 
just don't have it in my head. I'm sorry.
    Senator Nelson. OK.
    Senator Vitter. If I could follow up on a few things?
    Senator Nelson. Yes, please.
    Senator Vitter. This is related, if I could follow-up. 
First of all, Doctor, I'd echo a thought you yourself 
mentioned, which is analyzing COTS-D and analyzing that 
investment, particularly given all of these circumstances. I 
would completely encourage you to do that carefully.
    Dr. Griffin. And I have committed to doing that.
    Senator Vitter. Great.
    A few minutes ago you said if dreams were free, but they're 
not, maybe in a very limited circumstance some of them are, at 
least in the initial stage. And by that I mean, isn't there an 
option that you have to enter into certain unfunded Space Act 
Agreements, if a commercial entity is willing to take up a 
project on the risk that they'll develop a good product and 
we'll buy it?
    And as I understand it, some major entities like Boeing are 
willing to look at that. For instance, for a manned capsule 
that could fit on a lot of these other transportation rockets.
    Dr. Griffin. Absolutely, and we have a number of unfunded 
Space Act Agreements existing today, and stand ready to do more 
of them.
    Senator Vitter. So, you're already actively exploring that?
    Dr. Griffin. Absolutely, and have been for the last couple 
of years.
    Senator Vitter. Great.
    Also, going back to the Russian negotiation--let's say, for 
the sake of discussion, that the Administration submits a 
request to Congress for this INKSNA waiver, we give it, it's 
early 2009, and so you're negotiating with the Russians. At 
that point, what would the duration of the next contract with 
the Russians likely be, what would the term likely be? Do you 
know?
    Dr. Griffin. That's, I mean, that's a subject for 
negotiation. But in my own view, we would want to end that 
dependence with the deployment of our own capability, the Orion 
and Ares combination. Now--and I need to be clear on this, the 
first time--let us say we make our schedules with our present 
funding and fly with human crew--the first Ares and Orion 
flight to the Station in March 2015, for the sake of argument, 
let's say that. That vehicle is not, at that point, necessarily 
qualified for 6 months duration on-orbit, to serve as a crew 
rescue vehicle.
    I think it's a good time to point out to everyone, we've 
been focusing on the transportation up and back, but another 
service that the Russian Soyuz provides today, and will provide 
through at least 2015, is that of crew rescue.
    Now this was an obligation that the United States initially 
signed up for, for ourselves and our partners. So--until and 
unless we have a system, whether commercial or government, and 
until and unless we have a system up there qualified for 6 
months flight between crew rotations--we can not, we can not 
say that we have crew rescue capability, and we will still be 
dependent upon the Russians.
    So, speaking as an engineer, if our first flight of Ares or 
Orion is in March of 2015, then it would be the end of that 
fiscal year, we would be into Fiscal Year 2016 before we would 
know that we had a system qualified for crew rescue, as well as 
transportation up and down. So, we're looking at a substantial 
period of dependency upon Russia in the Space Station 
partnership.
    Senator Vitter. Well, the point I was driving to is that, 
the term of that next phase is open for discussion and 
negotiation?
    Dr. Griffin. Yes, sir.
    Senator Vitter. And therefore, clearly if we would do 
something in addition, with either accelerating the NASA 
program or funding COTS-D or accelerating COTS, any of that, 
that can clearly have an impact on that Russian contract?
    Dr. Griffin. Absolutely.
    Senator Vitter. And, so again, just to restate the obvious, 
I'd really like for you all to develop a comparison of those 
costs and benefits, costs and savings, because it certainly 
seems like there could be substantial savings, in terms of 
payments to the Russians for certain actions we take.
    Dr. Griffin. Yes, sir, I agree.
    Senator Vitter. Thank you.
    Senator Nelson. By the way, in our last conversation about 
the difference between the two COTS contracts, is there not 
another difference in that SpaceX has the capability of 
bringing down cargo in their contract, and the most recent 
contract does not have that capability of bringing down cargo?
    Dr. Griffin. That's correct, sir. The recent agreement that 
we concluded with Orbital, includes up-cargo, pressurized and 
unpressurized only, and their proposal did not offer down-cargo 
or human transportation.
    Senator Nelson. And if you have an International Space 
Station, you want to bring down experiments, as well as take 
them up?
    Dr. Griffin. We do.
    Senator Nelson. I would just add, as a backdrop to this 
whole discussion, with regard to Russia, that they're just 
getting ready to have an election in Russia. And it's not 
exactly the kind of election that we're accustomed to here, 
because the President is inserting his own person as the new 
President, in order to comply with the Constitution, but it's 
an open secret that he is going to be the Prime Minister, and 
therefore the real power will continue in the hands of Vladimir 
Putin.
    And, we know also, that Russia has been buying up all the 
pipelines that feed gas and oil to Europe, and so he is going 
to be in a very significant position to yank a bunch of chains 
of a bunch of people. And I just don't think that's a good 
position for the United States to be in, where he's got a major 
chain to yank.
    Now, speaking of that, we've got a Station, we've spent 
billions, tens of billions of dollars, we want to do scientific 
research on it. What are NASA's plans for the Station beyond 
the year 2016?
    Dr. Griffin. We don't currently--the Administration does 
not currently have plans in place for the utilization of the 
Station after 2016. We have taken no action to preclude such 
operations, but we don't have specific plans for them as yet.
    Senator Nelson. Well, one of the reasons for having the 
Space Station was to not only conduct scientific research and 
spending lots of American taxpayer money, as well as other 
nations' moneys--but it was also to encourage private sector 
partners to make investment in research projects. And so, if 
they don't know that there's going to be a Space Station after 
2016, how are we going to give them assurance if we don't make 
plans for the Space Station past that year?
    Dr. Griffin. I understand, sir.
    I will say again, I mean, certainly--well, this is a 
personal opinion. I do not believe that the Congress which is 
sitting at that time or an Administration which is in place at 
that time, would shut down a perfectly good Space Station. I 
just don't believe that. That doesn't seem to me to be a 
realistic possibility. But, this is 2008, and what we're doing 
is planning for the next 5 years, at most, and most of my 
emphasis is on the next couple of years. We're not, at the 
moment, planning for 2016 and thereafter.
    Senator Nelson. So you don't think there are any steps that 
we need to take now in order to operate beyond 2016?
    Dr. Griffin. There is nothing that we need to do in a 
budgetary sense this year, that affects what we do in 2016.
    Now, as the next year or so approaches, and we start to 
work up our current budget horizon--of course the President's 
submission goes from Fiscal Year 2009 to Fiscal Year 2013. As 
we go to the next budgetary submission and the one after that, 
we do begin to have items which we will need to pay attention 
to in order to continue sustaining the Station. But this year, 
that's not an issue.
    Senator Nelson. Well, no doubt, you're clear that you want 
the Station to operate beyond 2016?
    Dr. Griffin. I do, and of course, I will not be the 
Administrator at that time, and there will be several changes 
of Congressional sessions and several Administrations between 
now and then. The point I was making earlier, sir, was that I 
just--if the Space Station, after having been the result of 
tens of billions of dollars worth of development, is still 
working fine in 2016, I personally consider it unlikely that 
this Congress or any Administration would shut it down.
    Senator Nelson. Well I do, too. I agree with you, assuming 
we have access----
    Dr. Griffin. There is that.
    Senator Nelson.--to the International Space Station. 
Assuming all of that, let me ask you this. Don't we have to 
plan ahead of time for recertification to extend the service 
life? And what would that recertification entail and when 
should we start it?
    Dr. Griffin. I don't know that I would call it 
recertification. We certainly, in the next few years, will have 
a chance--as we are doing now--we will have a chance to observe 
how the individual components and pieces on the Space Station 
are wearing out and how they break and why they break and what 
equipment needs to be put up and what equipment is lasting 
longer than expected. So we will have an opportunity to 
accumulate maintenance data, if you will, on the Station. And 
that will influence, without question, that will influence what 
we decide to do and how we decide to do it in the out-years to 
sustain the facility.
    I mean, when it is completed, you will have here, sir, a 
facility that weighs almost, well 900,000 pounds, just shy of a 
million pounds, on-orbit. It will need care.
    Senator Nelson. And for the extension of its life, is going 
to cost some money. So, as we get around to budgeting for that, 
we've got to put that in there.
    Dr. Griffin. And as we get closer to--as we get further out 
in our out-years, we will have to include some budgeting for 
maintenance of the Station beyond 2016, but we don't need to do 
that today.
    Senator Nelson. All right, let me come back to this year's 
budget. The budget reserves for the Station and the Shuttle 
leave such a small margin, that any unforeseen circumstance 
would alter the ability to meet the Shuttle manifest and 
complete the Station. So, how do you account for the slim 
margins and the potential program risk?
    Dr. Griffin. As of, I think you've--I believe you've almost 
answered your own question. The margins are quite slim. We 
don't have reserves in Station and Shuttle accounts, and the 
successful completion of the task requires us to execute as we 
plan.
    If things go bad, if something goes badly wrong, I mean, if 
we have another hurricane at the Cape or something of that ilk 
that causes us a lot of additional expenditure, we will have to 
seek the permission of the Congress to reprogram money from 
other accounts in order to finish this job.
    I mean, if we had another Hurricane Katrina at Michoud or 
another hurricane, as came through a few years ago at the Cape, 
and tore up the vertical assembly building. Those things do 
happen, and if they happen, we will have to take money from 
somewhere else.
    Senator Nelson. Not even to speak of, a continuing 
resolution.
    Dr. Griffin. If we have another continuing resolution, 
there will be programmatic impacts. We lost, last year, as you 
know, about $675 million from the manned spaceflight program 
because of the continuing resolution that came out of 
Exploration rather than the Shuttle and Station accounts. If 
that happens again, we will have more delay in the Exploration 
program.
    Senator Nelson. I had the occasion, recently, to go to the 
floor and kind of get it off my chest, about the Alpha Magnetic 
Spectrometer and trying to find 25 percent of the cargo bay on 
one of the remaining Shuttle flights, so that we can get that 
up there.
    You have indicated several times, that NASA has all the 
space manifested. It's a major scientific experiment, put 
together by 20 countries. I'm going to see it in 2 weeks, it is 
virtually complete, sitting on the ground ready to launch: 20 
countries, 50 universities, probably inviting a couple of Nobel 
Prizes, because of its pushing the frontiers of knowledge. To 
be attached to the Space Station, which the purpose of the 
Space Station and Senator Kay Bailey Hutchison's designation of 
it as a National Laboratory, is for the purpose of scientific 
research.
    Now, I'm trying to figure out how we can accommodate this 
and what you can take off in the way of smaller payloads, that 
are not scientific experiments, but are supplies that you can 
put in smaller packets, so that if either one works out, you 
could use a COTS vehicle. You could get it up economically with 
another vehicle, perhaps an expendable. You can't get AMS up 
without a big booster, since this thing weighs about 15,000 
pounds.
    So, wouldn't it make sense, what I've laid out, to take 
some of the Station's supplies and hardware, put it over on an 
ELV, particularly since you're developing some, and fly the AMS 
and let it start doing the science that it's supposed to do?
    Dr. Griffin. Sir, we've looked at that over and over again. 
The payloads that are manifested on the Shuttle from now until 
its retirement, are either crucial for Station assembly, or 
they are crucial for maintenance of the Station during the gap.
    Now, with the expenditure of enough money, I mean, anything 
can be flown on anything, but these payloads are uniquely 
configured for the Shuttle. As is, I admit, the AMS.
    In our judgment, the cruciality of sustaining the Space 
Station appropriately, with the tens of billions of dollars we 
have invested in that, outweighs the desire to fly the AMS. 
It's not that I don't wish to fly the AMS, it's that I have to 
put the Space Station at risk to do it. And I don't have other 
good means to get the hardware up to the Station that I need to 
have there. I do not have the authority to add another Shuttle 
flight to the manifest. So, I'm out of options.
    Senator Nelson. Well, I think you have----
    Dr. Griffin. I'm out of options.
    Senator Nelson. I don't think you are out of options, and 
this is what I want to suggest. You have some very smart people 
that work for you, throughout this NASA network we know as the 
NASA family. What some of these smart people have suggested, is 
that unpressurized logistic flights for ORUs, what does that 
stand for?
    Male Speaker. Orbital Replaceable Units.
    Senator Nelson. OK, Orbital Replacement Units, that could 
be launched after the AMS could be launched, in 25 percent of 
the cargo bay. You take those off, and this is how those 
Orbital Replacement Units could be launched.
    On STS-129, in August 2009, with two EXPRESS logistics 
carriers--now these are unpressurized logistic flights. On STS-
131, in February 2010, an Integrated Cargo Carrier, Vertical 
Light Deployable, and a Docking Cargo Module. And then the 
third one would be on STS-133, in July 2010, with two EXPRESS 
logistics carriers. So, that any of those flights can be 
reconfigured to include AMS and still carry a number of ORUs. 
And the displaced ORUs could be launched on the ELVs.
    Now, this is coming from your people, so, would you look 
into that?
    Dr. Griffin. Of course, and we will get you a detailed 
answer.
    [The information previously referred to follows:]

     Supplementary Information Submitted by Dr. Michael D. Griffin
Introduction
    Given the most recent information available, the conclusions from 
the February 2008 NASA report to the Congress on the Alpha Magnetic 
Spectrometer (AMS) still stand: the cargo capabilities of International 
Space Station (ISS) utilization flight (ULF) 3--and potentially ULF4 
and ULF5 if schedule allows them to be flown--are likely to be fully 
subscribed with hardware and logistics that can not (or can not cost 
effectively) be carried to ISS on anything but the Space Shuttle. 
Although NASA has done nothing to preclude flying AMS on the Space 
Shuttle before the Shuttle's retirement in FY 2010, a final decision 
does not need to be made until approximately February 2009. NASA has 
the opportunity to wait and observe ISS systems' performance to make a 
more informed decision about the spares requirements of ISS.
    The first priority of the International Space Station partnership 
is a robust and viable ISS that is ready to support exploration and 
other goals after assembly is complete and the Space Shuttle is retired 
in 2010. It is important that NASA not put any single experiment, no 
matter its promise, ahead of the significant investment and future 
potential of the ISS partnership without serious consideration of the 
risks of that action.
Shuttle Manifest and ISS Operations
    There are only eight assembly and logistics flights left on the 
Shuttle manifest with which NASA can complete the ISS by the end of 
Fiscal Year 2010 and deliver cargo for the post-Shuttle era. This makes 
Space Shuttle cargo capability an extremely limited and valuable 
commodity. Even if time allows for the two additional contingency 
logistics flights (ULF4 and 5) before 2010 retirement, the top priority 
for these flights is to ensure a robust configuration post-2010. This 
will enable as much flexibility as possible for engineers and mission 
planners.
    NASA and its partners are only a few years into learning how to 
fly, operate, and maintain the largest and most complex facility ever 
constructed in space. Despite NASA successes thus far, the 
unprecedented scale of ISS construction and utilization activities in 
low-Earth orbit has challenged some initial assumptions about the on-
orbit performance of ISS systems. To the credit of this international 
team of scientists and engineers, most ISS systems are lasting longer 
than anticipated. Other systems--like the control moment gyroscopes 
(CMG), the starboard beta gimbal assembly (BGA), and the starboard 
solar alpha rotary joint (SARJ)--have required maintenance sooner than 
was expected. The BGA has been repaired, and the failed unit was 
returned to Earth on STS-122 for analysis. This analysis will determine 
if there is a generic design flaw in the BGAs or if this is an isolated 
event. This determination is critical for developing the sparing 
requirements for the BGAs, and how much payload space will be required 
on the remaining Shuttle manifest. It should also be noted that both 
the BGA and the SARJ are needed for the solar arrays to track the sun 
and to provide power for the ISS. AMS would be a significant consumer 
of ISS power, and thus both the BGA and SARJ need to be repaired before 
serious consideration is given to mounting AMS on the ISS.
Shuttle Payload Planning
    It takes several months to baseline a Space Shuttle flight. 
Engineers throughout NASA and its international partner community spend 
that time trading off between a number of critical, interrelated 
variables, including Shuttle mass and volume constraints; center of 
gravity; sequencing of hardware to ISS; power (both within the Shuttle 
cargo bay and on ISS); cargo bay hard points; the capabilities and 
constraints of other international partner vehicles; and internal and 
external stowage capabilities on ISS. Individual elements of that team 
each approach the manifesting challenge from their own perspectives. 
This plurality of voices benefits all, but it must be synchronized and 
vetted through established engineering decision-making processes. 
Taking any single position out of context may obscure the true 
complexity of the manifesting process.
    Analysis to date indicates that manifesting AMS on a Shuttle flight 
would be technically very risky and would result in a significantly 
increased shortfall of spares to ISS. In general, while AMS may only 
occupy about 25 percent of the Shuttle cargo bay by volume, its 15,000 
pounds mass would consume approximately 43 percent of the total launch 
capability of the Shuttle for a given flight. In addition, because AMS 
is a large and heavy payload, manifesting it along with other payloads 
would be problematic given the Shuttle's center-of-gravity 
requirements. This translates into a much more dramatic reduction in a 
mission's mass-to-orbit capability than is apparent on the surface.
    From an integrated manifest standpoint, it is difficult to see how 
NASA would be able to manifest AMS on an existing Shuttle flight at 
this time. The packing of the cargo on the EXPRESS Logistics Carriers 
(ELC) in the Shuttle is the most launch and operationally effective way 
to deliver these spares to orbit. For example, multiple commercial 
cargo launches or three to five Japanese H-II Transfer Vehicle (HTVs) 
(if either is available) would be required to deliver the displaced 
cargo of one Shuttle ELC to the ISS. Commercial transportation is not 
currently available, and NASA does not plan to use HTV because it is 
not cost effective. As a result, the Shuttle is the only way to 
effectively deliver this time-critical hardware to orbit.
    Following are some of the specific issues NASA has identified thus 
far with flying AMS on ULF3, or potentially the contingency flights 
ULF4 or ULF5 if schedule permits. Other challenges with flying AMS on 
either Shuttle or another vehicle are addressed in the AMS report 
delivered to Congress in February 2008.
Reconfiguring ULF3
    In August 2009, ULF3 will deliver two fully populated ELCs with 
assembly hardware, science experiments and pre-positioned spares 
critical to the operation of the ISS. Each ELC is an external platform 
that provides mechanical mounting surfaces, electrical power, and 
command and data handling services for up to 9,800 pounds of 
unpressurized cargo, including two science payloads. It is important to 
recognize that the logistics carriers are more than just carriers to be 
used for the Shuttle flights. They are also the mounting pallets that 
must be used to store components (either spares or experiments) outside 
on the truss of the ISS.
    Together, the two ELCs manifested on ULF3 will deliver eleven pre-
positioned spares and two science experiments with a combined mass of 
approximately 18,200 pounds. Launch and stowage of the pre-positioned 
spares will facilitate sustaining ISS through 2015, since maintenance 
after Shuttle retirement must either occur using an on-orbit inventory 
of spare parts or commercial cargo services. Launch and activation of 
the ELC-based science payloads is useful to the operation of the ISS as 
an international facility conducting important space research. The mass 
of the AMS is too great compared to the total mass of these smaller 
science payloads to allow for a manifest change. In other words, even 
if all of these smaller pieces were removed, there would still not be 
room to fly AMS.
    Although the ULF3 flight could potentially be reconfigured to 
deliver just one ELC and AMS, it would be at the expense of losing or 
delaying the delivery of approximately 10,700 pounds of cargo that 
supports ISS viability after Shuttle retirement. Only the Space Shuttle 
currently has the capacity to effectively transport an ELC to the ISS; 
failure to launch an ELC on the ULF3 Shuttle flight could result in a 
permanent loss of external stowage and experiment capacity for the ISS.
    Co-manifesting AMS and an ELC on the same Shuttle flight would 
require AMS to be placed in the aft portion of the payload bay due to 
the need to maintain proper weight and center of gravity. The maximum 
total weight for the companion ELC would be reduced to approximately 
12,000 pounds, decreasing the maximum cargo capability from 9,800 
pounds to 7,500 pounds. This is significantly less than the manifest 
planned for the carriers on ULF3. Therefore, the total impact of 
launching AMS on ULF3 is the loss of an entire ELC worth of cargo, plus 
the loss of approximately 1,100 pounds from the remaining ELC. This 
reduction of pre-positioned spares delivered on ULF3 further increases 
NASA's reliance on limited or yet-to-be demonstrated non-Shuttle launch 
opportunities. The loss of an ELC and the external platform it provides 
for unpressurized science experiments would pose challenges to ISS 
operations and capability to support other important planned space 
research.
Using a Contingency Flight
    ULF4 and 5 are the Shuttle contingency flights that will only be 
flown if they can be completed before the end of 2010.
ULF4
    If approved, ULF4 would deliver an Integrated Cargo Carrier--
Vertical Light Deployable (ICC-VLD) and the Docking Cargo Module (DCM) 
in February of 2010. The ICC-VLD is an external platform used to ferry 
up to 6,560 pounds of unpressurized cargo to and from the ISS; the ICC-
VLD returns with the Space Shuttle and does not become a permanent part 
of the ISS. The ICC-VLD would deliver maintenance and assembly 
hardware, as well as a pre-positioned spare, with a combined mass of 
approximately 5,900 pounds. Six power system batteries would be 
replaced during the ULF4 mission to allow ISS operations through 2015. 
The Enhanced Orbital Replacement Unit (ORU) Temporary Platform would 
increase the efficiency of robotics operations, and delivery would 
augment on-orbit inventory of spares in order to maintain ISS through 
2015.
    The DCM is a pressurized module built by the Russian Space Agency, 
Roscosmos, which would deliver 3,086 pounds of United States On-orbit 
Segment (USOS) internal cargo, as well as approximately 3,400 pounds of 
cargo as part of the U.S. contribution to the ISS partnership. The DCM 
would become a permanent part of the ISS, providing a docking port, 
additional habitable volume, and external stowage for Russian Segment 
outfitting.
    ULF4 could potentially be reconfigured to deliver the ICC-VLD and 
AMS, but at the risk of losing the DCM and its associated 
accommodations. NASA would undergo significant technical challenges in 
potentially reconfiguring an ELC on ULF5 to deliver and stow the 
external outfitting for the Russian Segment, reducing pre-positioned 
spares and science experiments by approximately 8,500 pounds. In 
addition, the loss of 3,086 pounds of USOS internal cargo would force 
NASA to rely on limited pressurized resupply opportunities.
    Alternately, ULF4 could be reconfigured to deliver the DCM and AMS, 
at the expense of losing or delaying approximately 5,900 pounds of 
cargo. However, due to the substantial weight of each element, 
significant technical challenges would exist in accommodating the DCM 
and AMS on the same Shuttle flight. In this configuration the AMS would 
have to be flown in the forward position of the payload bay. 
Considerable structural and loads issues are expected regarding the 
placement of the approximately 15,100-pound AMS in the forward position 
of the payload bay. For this reason, this configuration does not now 
appear to be supportable from a Shuttle payload bay loads standpoint.
    Even assuming the Shuttle can physically support AMS in this 
configuration, the Shuttle would still run a negative mass margin 
(approximately 4,000 pounds) unless other items were de-manifested from 
ULF4.
ULF5
    If ULF5 is approved, the impacts of flying the AMS on this 
contingency flight are very similar to the impacts described on ULF3. 
The weight impact of flying AMS on ULF5 is slightly less, but this 
flight would require removal of spares that are best flown on the 
Shuttle. For example, accommodating AMS on ULF5 would remove EXPRESS 
Logistics Carrier number 4. This carrier would carry a fourth high 
pressure oxygen tank to support ISS space walks, a battery charge 
discharge unit, an S-Band antenna support assembly and a spare robot 
arm for Dextre. The high pressure O<INF>2</INF> tank does not fit on 
another launch vehicle without major redesign, and is critical to ISS 
basic operations.
Summary
    NASA has done an exhaustive look at flying AMS on the Space 
Shuttle. NASA has carefully evaluated all suggestions and has looked 
creatively for any options to fly AMS on the remaining eight assembly 
and logistics flights, or potentially the two contingency logistics 
flights, before 2010 retirement. Until engineers better understand the 
performance of ISS systems and gain experience in operating the new 
systems on ISS, however, replacing critical hardware with the AMS poses 
risks to ISS operations.
    Flying and operating ISS is one of the most complicated tasks that 
NASA has ever attempted, and therefore requires margin in order to be 
successful. NASA will continue to evaluate the hardware performance on 
ISS. If the observed performance of ISS systems proves to be better 
than predicted, NASA may reevaluate the option of replacing spares with 
AMS before a final decision is necessary in February 2009. Making a 
decision to fly AMS before then, only to find that the ISS has not been 
properly outfitted to support long-duration science experiments or 
power requirements, is not prudent.

    Dr. Griffin. I think some of my folks may be stepping a bit 
out of line. When you talk about 25 percent of a cargo bay, 
you're talking about by volume. And yes, the AMS uses 25 
percent of a cargo bay by volume, but it uses almost half of a 
cargo bay by weight. So, in order to displace a number of small 
components, I have to actually displace more than--I can't 
displace 25 percent by volume of ORUs and replace it with the 
AMS, because I actually have to account for the weight as well 
as the volume, and that's going to eat into another one.
    So, the manifesting challenges for what is on the Space 
Shuttle today are not trivial, and everything that's on there 
was--is on there as a result of a very severe winnowing 
process. But I understand your question. I will not--I will not 
be cavalier with it, I will take it for the record and we will 
give you a detailed answer as to how--as to how we might 
manifest these other things, if it is possible, on other 
flights. But we have looked at that.
    Senator Nelson. Well, I'm sure you have, but again, this is 
coming from your very smart people.
    Dr. Griffin. Everything is easy----
    Senator Nelson. Let that ingenuity bubble up, let that 
creativity bubble up. I want to give you two examples, and this 
isn't my thinking, this is folks that are these creative 
geniuses.
    One flight would be reconfigured to include the AMS and an 
ICC-VLD, which is the Integrated Cargo Carrier Vertical--Light 
Deployable. This would allow the Space Shuttle to launch 8,800 
pounds of ORUs plus the ICC-VLD to the Space Station on the 
same flight as the AMS. That's one example.
    A second example is, reconfigure one of the existing 
flights to include AMS and an EXPRESS Logistics Carrier. The 
ELC would have to be loaded only with ORUs that do not require 
power in the Shuttle. Now, if you'll take that as creativity 
and see if it's possible.
    Dr. Griffin. I, of course, will do that. I would remind you 
that everything is easy for those people that don't have to do 
it. We have--we have explored these questions throughout NASA 
over and over again, and we've not been able to converge it, 
but I will try again.
    Senator Nelson. My rejoinder to you is, you lead the agency 
that is capable of miracles. It happened on Apollo 13, and it 
happened, to a degree just last October, when that crew that we 
just announced went up there and figured out how to get that 
solar array unfurled. And, my hat's off to the ingenuity in 
NASA.
    Dr. Griffin. I'll give you the best answer I can get.
    Senator Nelson. Well, I want you to do that without, you're 
a good Administrator because you're hard-headed, and that's a 
good quality, and I appreciate that, and I just hope that you 
will look at this.
    Senator Vitter?
    I need to ask you about Earth Sciences. I know that you 
have had a difficult time sometimes with NOAA, and also with 
the Department of Defense on NPOESS, with the significant cost 
and schedule overruns, and then the Nunn-McCurdy review came in 
2006, and the sensor ended up being delayed by another 8 
months. How is this delay going to affect NASA's launch 
schedule for the replacement, for NPP, before the next NPOESS? 
And what are the cost implications associated with the delay?
    Dr. Griffin. The sensor of which you speak is the VIIRS 
sensor, currently scheduled for delivery, I think, at the end 
of March next year. We are now to a point where if that sensor 
slips any further, we're a day-for-day slip on the launch. So 
that sensor is on the critical path for NPP, and the VIIRS 
sensor, of course, is the number one priority sensor aboard 
NPOESS itself. NPP is the NPOESS Preparatory Program. So, the 
VIIRS sensor is critical, is on critical path for everything 
that we're doing on NPP and NPOESS.
    I will get for you, for the record, the consequential 
damages of a launch delay. I don't, again, I don't have those 
in my head. I'm sorry.
    [The information previously referred to follows:]

    The delay in the launch readiness date of the National Polar-
orbiting Operational Satellite System (NPOESS) Preparatory Project 
(NPP) satellite is driven entirely by delays in the delivery of the 
Visible Infrared Imager Radiometer Suite (VIIRS) instrument. The delay 
now totals 3 years and 9 months, and the most recent delay is 8 months. 
NPP is currently planned for launch in June 2010. For NASA, the NPP 
satellite is a bridge mission to continue a subset of measurements of 
land, ocean and atmosphere currently recorded by NASA's Earth Observing 
System (EOS) Aura, Aqua and Terra satellites. The first NPOESS 
satellite is set to launch in January 2013, when the EOS satellites, if 
they continue to operate, will be well beyond their design life. The 
NPP launch delay increases the risk of a potential data gap in key 
climate data sets provided by these NASA EOS satellites.
    The additional cost to NASA associated with an 8-month delay is an 
average of $2.75M per month, or a total of $22M. The additional amount 
covers costs for the technical support workforce and infrastructure 
required to maintain the instruments, equipment and facilities for 8 
months to be available at launch. The major NASA-provided items are the 
spacecraft; the Advanced Technology Microwave Sounder (ATMS) 
instrument; the Science Data Segment (SDS) Product Evaluation and 
Analysis Tool Elements (PEATES) for the atmosphere, ocean, land, ozone, 
and sounder; the launch vehicle; and the management for the NPP 
mission. The ATMS has already been integrated into the spacecraft and 
the PEATES are ready to perform their tasks.

    Dr. Griffin. But, there will be a substantial cost increase 
to the NPP program if the VIIRS instrument doesn't show up. 
Now, I don't even remotely want to be seen to making excuses, 
but the VIIRS instrument is not a NASA development. We are a 
customer for it, we are waiting for it to show up, but it is 
not an instrument over whose development we have had any 
influence in the past.
    Senator Nelson. How about NASA's Glory, the climate 
monitoring satellite? It seems like it might be heading toward 
a similar fate to NPOESS, with cost overruns and delays?
    Dr. Griffin. It is, there is another instrument--there is 
an instrument on the Glory spacecraft that--possibly not 
coincidentally--is being supplied by the same vendor, and that 
instrument is late and has caused substantial consequential 
damages to the Glory schedule. About 90 percent of the Glory 
cost overrun is due to this instrument or its consequential 
damages.
    Senator Nelson. And that's Raytheon Space and Airborne 
Systems. How is NASA improving the oversight of this contract?
    Dr. Griffin. Well, our oversight of them has been careful 
and consistent. Their response has been less so. We--I met with 
the Chief Executive Officer of Raytheon 2 weeks ago, and they 
have pledged to remedy their--remedy the disparities between 
their promises and performance. We continue to work with them. 
At this point, I really don't have other positive options to 
offer you. The progress has been slower than planned, the 
instruments are late, and that does have ripple affects.
    Senator Nelson. And so, since it's rippled far over budget, 
there's no way of getting this program back on cost and on 
schedule?
    Dr. Griffin. At this point, no. The best we can do is to 
contain the damage, and make as much progress toward the launch 
date as we can.
    Senator Nelson. Do you want to share with the Committee 
about the Next Generation Air Transportation System? What R&D 
projects does NASA currently have underway that will support 
this?
    Dr. Griffin. Yes, sir, quite a few.
    NGATS, of course, is the centerpiece of FAA development of 
a new air traffic management system, and NASA is a partner on 
that. We are conducting research on statistical air traffic 
management to improve the traffic density that we can safely 
fly. We're conducting research on higher efficiency engines, 
lower noise, lower emission engines, aircraft configurations 
that are more efficient. We're doing a host of activities in 
support of the FAA and in collaboration with the FAA on NGATS, 
and we are--we are meeting our budgetary commitments to the FAA 
for it.
    Senator Nelson. Is this to take existing technology and 
apply it? Or are you focused more on basic research?
    Dr. Griffin. For NASA, we focus more on basic research. 
We're not, in our aeronautics programs, we're not primarily in 
the business of taking existing technology and applying it.
    Senator Nelson. Has NASA completed an MOU with the Joint 
Planning and Development Office that outlines the Agency's role 
in this next generation effort?
    Dr. Griffin. I don't know that we have. I can check on that 
for you. We certainly have a good relationship with the FAA and 
the JPDO, but whether the MOU is signed or not, I don't know.
    Senator Nelson. Is whatever the arrangement is reflected in 
the 2009 budget that you have?
    Dr. Griffin. The 2009 budget and the out-years budget for 
aeronautics fully supports our commitments to the FAA on NGATS. 
That has been a priority for me.
    Senator Nelson. We'll ask for the record, questions about 
the U.S. national wind tunnel facilities, and we will also ask 
questions about the American COMPETES Program.
    [The information previously referred to follows:]

    NASA has signed a Memorandum of Understanding between member 
agencies of the Joint Planning and Development Office (JPDO) to 
implement the Congressionally-mandated Next Generation Air 
Transportation System Joint Planning and Development Office.

    Dr. Griffin. OK, and I will answer as expeditiously as 
possible.
    Senator Nelson. OK.
    I don't want any misunderstanding in the term that I used 
earlier, hard-headed, because I use that and I explained as an 
attribute of admirable quality that you, as an Administrator, 
have and have to have. So I just want to make sure that that 
was not, in any way, taken as a derisive term, rather an 
admirable term.
    And what I am trying to get out is, that this Agency has so 
much creativity. If there's a chance of solving this problem 
with the Alpha Magnetic Spectrometer, it's well worth it for us 
to look at different things.
    Dr. Griffin. Well, sir, I took no offense and I do agree. I 
think, there seems to be among your staff a perception that I 
don't want to fly the AMS. In fact, that's false. I do want to 
fly the AMS. I yield to none in my belief that the United 
States should keep its international commitments, commitments 
made to international partners. I've said that on the record 
multiple times, and I mean it.
    We have looked carefully--and in detail--at options to fly 
the AMS within the exiting manifest, and I've not found them. 
If people have clever ideas and they have not put them forth, 
then we will investigate again and we will listen to those 
clever ideas and let them put those ideas forth. I would like 
to find an option to fly AMS. Far from stiff-arming it, I would 
like to do it. But I will not--I will not do it in such a way 
that would cause, in my judgment, harm to the Station.
    Senator Nelson. Well, I certainly understand that, but at 
the same time, I've got to remind everybody, what's the purpose 
of the Space Station? And what's the purpose of the expenditure 
of tens of billions of American taxpayer dollars? And that was, 
not only to have a facility where we could learn about the 
adaptation of humans to space, but that we would have a 
scientific facility for experimentation. And this is just one 
project, but to move that over to an expendable, which it's 
going to be delayed 5 to 7 years, at considerable additional 
cost.
    Dr. Griffin. And we don't recommend that.
    Senator Nelson. And that's what I'm trying to find a 
solution for.
    This has nothing to do with the State of Florida. In some 
minimal amount it may, with regard to the 50 universities that 
are involved in this thing, I think there is one university in 
Florida that's involved, but that's beside the point. This is 
an experiment that's ready on the ground, to analyze these 
cosmic rays and to see what's out there and what's the origin 
and so forth.
    So, thank you very much.
    Senator Vitter, anything further?
    Senator Vitter. No, thank you very much.
    Dr. Griffin. Thank you both, and I will do everything in my 
power to answer your questions about remanifesting cargo to fly 
AMS. We will look at it and give you the most honest answer 
that we can do. I will spend time on it personally.
    Senator Nelson. Thank you, Dr. Griffin.
    And the meeting is adjourned.
    Dr. Griffin. Thank you, sir.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Dr. Michael D. Griffin

    Question 1. In your opinion what would it take to get the Alpha 
Magnetic Spectrometer (AMS) up to the International Space Station 
(ISS)?
    Answer. Consistent with the report NASA submitted to the 
Subcommittee on February 22, 2008, regarding Alpha Magnetic 
Spectrometer (AMS), a Space Shuttle flight is not a viable approach to 
launching AMS to the International Space Station (ISS). The Space 
Shuttle manifest is fully subscribed with hardware and logistics 
intended to safely maintain the ISS in the post-Shuttle era. 
Manifesting AMS on one of the few remaining scheduled Space Shuttle 
flights would mean bumping a large quantity of higher priority ISS 
hardware and spares intended to maintain the ISS after September 2010. 
As a result, no Space Shuttle payload opportunities for AMS are 
available, even if the program is able to fly the two contingency 
flights that could be added to the manifest if they can safely be flown 
before program retirement in September 2010. NASA will continue to 
evaluate the hardware performance on ISS. If the observed performance 
of ISS systems proves to be better than predicted and the Shuttle 
continues to fly on schedule, NASA may reevaluate the option of 
replacing spares with AMS before a final decision is necessary in 
February 2009.
    Adding an additional Space Shuttle flight to the manifest before 
September 2010, assuming contracts could be reworked, sufficient parts 
could be built and the schedule would allow such a change, would cost 
approximately $300-$400M and would mean accepting additional schedule 
and programmatic risk in the Shuttle program. Adding an additional 
Space Shuttle flight to the manifest after September 2010 and 
maintaining the infrastructure needed to safely fly the Space Shuttle 
into FY 2011 would cost approximately $3-$4B, and have both a 
significant negative impact on NASA's Exploration program and the 
potential of adding additional safety risks to the Space Shuttle 
program.
    Modifying the AMS hardware to fly on an Expendable Launch Vehicle 
(ELV) would delay the launch until 2013 or 2014 and add an additional 
$570M to $1.0B to the cost of the project. Moreover, a 2013 or later 
ELV launch implies that the baseline AMS three-year science mission on 
ISS may not be completed by FY 2016.

    Question 2. Can you comment on the current state of U.S. wind 
tunnel capabilities?
    Answer. Over the last decade, in response to changes in the 
Aerospace arena (primarily economic), many U.S. wind tunnels have been 
closed to reduce excess capacity and eliminate redundant capabilities. 
While there may be some further reductions, primarily due to 
redundancy, the remaining facilities will represent a basic capability 
to meet current and perceived future demands.

    Question 2a. Do you see our wind tunnel facilities as a national 
capability that should be maintained?
    Answer. Yes. The majority of the remaining U.S. facilities are 
unique and are a critical capability required to support the U.S. 
aerospace industry.

    Question 3. Would you support commissioning a study to examine this 
issue and produce recommendations on retaining this capability?
    Answer. Currently there are a series of studies addressing this 
issue, and several others have been completed over the last few years. 
The results of these studies should be digested before a new study is 
considered. The current studies addressing the U.S. wind tunnel 
situation are as follows:

  <bullet> National Partnership for Aeronautic Testing (NPAT)--NPAT is 
        addressing the potential combined needs of both NASA and DOD, 
        specifically looking at rightsizing the portfolio and 
        establishing reliance across the agencies with the potential of 
        a corporate management structure.

  <bullet> National Plan for Aeronautics Research and Development and 
        Related Infrastructure--This effort being conducted under the 
        auspices of the National Aeronautics R&D Policy is addressing 
        the future wind tunnel needs required for the Nation.

  <bullet> U.S. Industry Working Group--This group under the auspices 
        of the American Institute of Aeronautics and Astronautics 
        (AIAA) is compiling the wind tunnel requirements for the U.S. 
        aerospace industry and mapping these requirements against the 
        current inventory of U.S. wind tunnels.

  <bullet> Transonic Study, Supersonic Study, Subsonic Study & 
        Hypersonic Study--These four studies that are currently being 
        conducted jointly between NASA and DOD are cataloging the 
        capabilities and health of NASA and DOD wind tunnels.

  <bullet> Over the last 2 years RAND and the Institute for Defense 
        Analysis (IDA) have conducted studies pertaining to the status 
        of the U.S. Government wind tunnels.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                         Dr. Michael D. Griffin

    Question 1. In order to avoid being wholly dependent on Russian 
launch vehicles for human access during the gap, does it make sense--
and isn't it the responsible thing to do--to develop a back-up plan to 
extend the life of the Shuttle for some period of time beyond 2010 so 
that we at least maintain the option to insure U.S. human access to 
space? Obviously, such a plan would have considerable cost associated 
with it, but how are we in the Congress to judge whether or not it 
should be funded if we aren't able to see it?
    Answer. NASA does not believe extending the Space Shuttle program 
beyond 2010 is a viable option to address the challenges we face. NASA 
cannot continue flying the Space Shuttle while simultaneously and 
aggressively developing the next-generation exploration systems under 
the Constellation program. There are several reasons for this.
    First, maintaining even a minimal capability to launch two Shuttle 
flights per year after FY 2010 would require nearly the same 
infrastructure and vendor capabilities we have today, at a cost of 
approximately $2.7-$4.0B per year. These funds would have to come at 
the expense of Constellation development. Second, the Constellation 
architecture is designed to take advantage of Space Shuttle 
infrastructure, production capabilities, and workforce once they are no 
longer needed for flying the Shuttle. If the Shuttle were kept flying 
past 2010, these capabilities could not be released for Constellation's 
modification and use.
    In addition to these two main reasons, it will also be extremely 
difficult to keep the Shuttle workforce engaged if Shuttle retirement 
is extended. A very dedicated workforce is needed to safely operate 
this complex machine. By ending on a planned date, known well in 
advance, is much preferred for the workforce than a floating end date. 
Finally, the Shuttle is an extremely complicated vehicle to operate, 
and it should only be flown as long as its capabilities are required to 
assemble the Space Station. The Orion Crew Exploration Vehicle is a 
safer vehicle for crew transport, and unlike the Shuttle, will be able 
to transport crew to the Moon.
    As a result, keeping Shuttle flying past 2010 would only compound 
the problem of getting Constellation into service.

    Question 2. Under your current plans, for what period of time will 
the U.S. be completely reliant on foreign launch vehicles for human 
access to space, if U.S. commercial providers do not deliver any such 
capability? Please provide what alternative foreign launch vehicles you 
anticipate using, over what period of time, and at what cost.
    Answer. NASA plans to retire the Space Shuttle at the end of FY 
2010. The next new U.S. crewed space vehicle will be the Orion Crew 
Exploration Vehicle, which is expected to have its first crewed flight 
to the International Space Station (ISS) in March of 2015. This would 
mean that the U.S. would not have a domestic crew launch capability for 
about 4.5 years, assuming no change in the current development program 
of Orion. While one of NASA's funded Commercial Orbital Transportation 
Services (COTS) agreements includes provisions for the development of a 
``Capability D,'' which would demonstrate commercial crew 
transportation services to the ISS, this capability has no Federal 
funding at this time. In addition, it is NASA's plan to first have a 
COTS provider successfully demonstrate and then establish routine cargo 
services to the ISS prior to initiating the competition for the 
development and demonstration of a commercial crew service.
    At this time, the only spacecraft that could provide the required 
crew services and rescue capability is the Russian Federal Space 
Agency's Soyuz crew transport. Therefore, use of Russian systems for 
ISS crew transportation and rescue would still be essential. NASA is 
currently constrained from purchasing Soyuz services after December 31, 
2011, by the Iran, North Korea and Syria Nonproliferation Act (INKSNA, 
50 U.S.C. 1701 note). On April 11, 2008, NASA submitted to the Congress 
a proposed amendment to extend the exception for payments to Russia for 
Soyuz crew transportation and rescue services until the Orion Crew 
Exploration Vehicle reaches Full Operational Capability. NASA looks 
forward to working with the Congress on enactment of this legislation. 
It is important to note that this long-standing partnership is 
interdependent. While NASA is relying on Russia for crew transportation 
services, Russia depends on the United States to meet operational, 
engineering, and safety requirements on the ISS.
    Currently, NASA purchases comprehensive Soyuz support, including 
all necessary training and preparation for launch, crew rescue and 
landing for an entire long-duration mission. NASA does not purchase 
Soyuz launches, but rather a round trip ``seat'' or crew rotation. 
Soyuz can accommodate up to three seats per launch. At this time, it is 
premature to speculate on the cost of any future contract with Russia 
to provide crew transport and rescue services. To meet our U.S. 
obligations for U.S., Canadian, European and Japanese crew, we would 
require six seats per year. The total would depend on when a U.S. 
capability is operational.

    Question 3. What is NASA doing to make sure the country gets the 
best return on its very large investment in building the International 
Space Station? What are your plans to ensure that U.S. scientists--not 
just NASA researchers--have access to this unique National Laboratory?
    Answer. NASA has a research program that utilizes the International 
Space Station (ISS) with the support of NASA and non-NASA scientists. 
This research portfolio includes experiments in the fields of Human 
Research and Countermeasure Development for Exploration, Fundamental 
Physical and Biological Sciences, and Technology Development for long-
duration space missions. A major portion of research is solicited 
through NASA Research Announcements that are open to scientists from 
all U.S. institutions. In most cases NASA's role is to facilitate the 
execution of this research on the ISS.
    In addition, as reported to the Congress in April 2007, NASA has 
three tactical initiatives underway to identify expanded uses of the 
ISS beyond NASA and enter into agreements with non-NASA entities for 
use of the ISS in the post-assembly time-frame.

Education Initiative
    NASA, in conjunction with the National Institutes of Health, the 
National Science Foundation, the Department of Energy, and the 
Department of Defense, has identified potential specific educational 
projects that could use or center on the International Space Station. 
The Department of Education has participated in the development of this 
report and is preparing an accompanying statement that warrants the 
validity of these educational projects for advancing progress in 
Science, Technology, Engineering, and Mathematics education in 
accordance with national policy.

Basic Research Initiative
    NASA continues to meet with, and cooperatively provide information 
to, other government agencies (OGAs) interested in utilization of the 
ISS. It is anticipated that OGA discussions may lead to Memoranda of 
Understanding (MOUs) for use of the ISS that are similar in scope to 
the MOU signed by the National Institutes of Health (NIH) and NASA in 
September 2007. With respect to this existing MOU, NIH Institute 
Directors discussed use of the ISS National Laboratory at an NIH 
leadership meeting on February 28, 2008. As a result, the plan for a 
2008 NIH research announcement specific to ISS opportunities is now 
under development.

Applied Research Initiative
    In August 2007, NASA issued an announcement of opportunities for 
use of the ISS by domestic non-government entities for research and 
development (R&D) purposes. The proposals received were evaluated 
during the Fall of 2007, and NASA decided to pursue development of 
three Space Act Agreements (SAAs) as a result. The potential 
agreements, which involve the exchange of proprietary information that 
cannot be discussed at this time, are with two private firms and one 
university. We anticipate concluding these agreements in the Spring of 
2008, and are in the process of establishing a pilot program to test 
the experiment hypotheses and business models as proposed. In addition, 
NASA is continuing to cooperatively exchange information on ISS R&D 
opportunities with private firms and nonprofit institutions that have 
displayed an interest in ISS utilization. It is expected that these 
discussions may lead to private initiatives to form institutes or 
consortia for ISS utilization. Along these lines, the U.S. Chambers of 
Commerce, Space Enterprise Council, plans to host a May 2008 meeting at 
its headquarters in Washington D.C. specifically for the purpose of 
discussing ISS National Lab opportunities. The top 100 corporate R&D 
investors will be invited to attend.
    The education, basic, and applied research initiatives are all 
progressing well and non-NASA interest in utilization of the ISS 
continues to grow, as predicted, with the completion of each new 
assembly flight and the resultant reduction in perceived risk.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                         Dr. Michael D. Griffin

    Question 1. NASA's Education program is an important element of the 
Nation's commitment to excellence in science, technology, engineering 
and mathematics (STEM). The NASA Experimental Program to Stimulate 
Competitive Research (EPSCoR) provides 26 jurisdictions or states that 
traditionally do not receive significant NASA research funding with an 
opportunity to participate with NASA on science and technology 
projects. The NASA Space Grant program is a national network of 
colleges and universities that provide important fellowships and 
scholarships for students at a time when NASA is trying to recruit its 
next generation of scientists and engineers. In FY 2008, Congress 
appropriated $12.8M for EPSCoR and $35.7M for Space Grant. The Fiscal 
Year 2009 budget proposal for both programs is significantly below 
their historical funding. Please explain what steps NASA's Office of 
Education is taking to expand these programs, support STEM education 
initiatives, and train NASA's future workforce?
    Answer. Education is and will continue to be a fundamental element 
of NASA's activities reflecting a diverse portfolio of higher, 
elementary/secondary, and informal education programs. The FY 2009 
budget request in no way reflects a de-emphasis in education programs.
    In order to maintain an ideal portfolio identified by the Education 
Coordinating Committee, the Office of Education balanced the 
Congressional priorities--EPSCoR, Space Grant, and Motivating 
Undergraduates in Science and Technology Project (MUST)--with the 
recommendations from the National Research Council of the National 
Academies of Sciences and NASA's three education outcomes.
    The FY 2009 President's request includes $28.7M for Space Grant and 
$8.3M for EPSCoR. The requested funding allows NASA to maintain 
research infrastructure development in all states and provide six new 
research awards. Funds will be apportioned to the Space Grant consortia 
in a pro rata manner consistent with 35 Designated consortia and 17 
Program Grant/Capability Enhancement consortia.
    Additionally, through the annual Progress Report and Proposal/
Budget submission, the 52 consortia would determine which of their 
consortium projects would be reduced or terminated based on available 
funding while remaining in alignment with the NASA Education Strategic 
Framework, outcomes, objectives, and measures.

    Question 2. In the early 1990s NASA decided in favor of Principal 
Investigator (PI) led missions for the Discovery, Scout, and New 
Frontiers programs. The philosophy behind PI-led missions is that space 
missions should be science driven, and new PIs and new kinds of science 
are to be encouraged. In order to implement the mission, a science PI 
partners with a NASA Center, which manages the project and an 
industrial spacecraft provider. Without community or National 
Academies' input, it appears that the Science Mission Directorate has 
changed the ground rules and now requires that the PI must have 
significant prior experience in leading space missions. Please explain 
how this new requirement will result in better science and management 
of NASA space missions?
    Answer. Though NASA is no longer requiring specific PI experience, 
a PI-led mission is more likely to be successful if the PI-led 
management team has demonstrated relevant scientific, leadership, and 
managerial skills through appropriate prior experiences. Having a PI 
who has played a relevant and significant role in a spaceflight mission 
or space instrument project can help reduce the inherent risk in PI-led 
missions. When the PI does not have specific experience, this can be 
mitigated by assembling a strong mission management team that includes 
not only the PI, but also the project manager, the projects scientist, 
and the mission systems engineer.
    NASA has programmatic reasons to reduce the probability that its 
missions are not achieved within the planned cost and schedule 
commitments. Overruns and delays adversely affect the frequency of 
future missions that NASA can mount and additionally can jeopardize the 
viability of the PI-led mission model. Therefore, PI-led mission teams 
must demonstrate appropriate experience and expertise in order to 
significantly mitigate these risks to the benefit of NASA and the 
science community.
    In response to community input and the experienced gain through the 
2007 Small Explorer solicitation for small PI-led mission proposals, 
NASA is modifying its policies and requirements in this area. The 
experience and expertise of the proposed mission management team will 
be a required evaluation factor in all future science Announcements of 
Opportunity.

    Question 3. After the retirement of the Space Shuttle, NASA will 
have to rely upon Russia for crew transport to and from the 
International Space Station (ISS). NASA's waiver from the Iran, North 
Korea, Syria Nonproliferation Act (INKSNA) expires January 1, 2012. The 
COTS Space Act Agreements include an unfunded option to demonstrate 
Capability D, the transport of crew to and from the ISS. Would it be 
prudent for NASA to provide some funding for Capability D as an 
``insurance policy'' against the expiration of the INKSNA waiver?
    Answer. As part of COTS, NASA intentionally limited its investment 
in privately developed spacecraft by first requiring the successful 
demonstration of an orbital cargo mission before considering additional 
investment in the more difficult crew transportation capability. Some 
of the top risks associated with approaching and berthing with the ISS 
are common to both cargo and crew missions and waiting for successful 
cargo mission demonstrations will close these risks before placing 
additional crew in the mix. In essence, NASA believes it is important 
to first demonstrate cargo services before even considering a 
demonstration of the transportation of our most valuable commodity--
American astronauts.
    Capability D is currently unfunded. Given that technological 
advancements in the commercial space sector will likely occur between 
now and 2010, if sufficient funding were available for a Capability D 
demonstration, NASA would hold a full and open competition to find the 
best partner to demonstrate crew transportation services. Doing so 
would ensure that NASA has the best proposals to choose from at the 
best value for the American taxpayers.
    NASA prefers to purchase U.S. commercial crew transportation and 
rescue services once they have been demonstrated rather than purchase 
Russian Soyuz services. However, even if Capability D becomes 
operationally available during this time-frame, NASA will still need to 
purchase Russian Soyuz crew transportation services to fill the gap 
between Shuttle retirement and Capability D availability.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Dr. Michael D. Griffin

    Question 1. Can you explain the thinking behind a course of action 
that would have the U.S. finally complete a space station--at a cost of 
$50 billion to $100 billion, depending on whether you include launch 
costs--and then immediately and voluntarily suspend our ability to put 
U.S. astronauts and researchers aboard that station?
    Answer. Through a mixed-fleet strategy, NASA plans to ensure that 
capability to operate, maintain, and productively utilize the ISS 
continues to be available after the Space Shuttle is retired at the end 
of FY 2010.
    Following the Columbia accident, NASA took to heart the commentary 
of the Columbia Accident Investigation Board concerning the direction 
of the Nation's space activities and established a new U.S. Space 
Exploration Policy, endorsed by the Congress in the NASA Authorization 
Act of 2005 (P.L. 109-155), which calls for completion of the 
International Space Station (ISS), retirement of the Space Shuttle and 
development of new transportation systems, including the Orion Crew 
Exploration Vehicle (CEV) and the Ares family of launch vehicles.
    In order to ensure the steady development of the Nation's 
exploration capabilities NASA must retire the Space Shuttle, and focus 
human, infrastructure, and monetary resources toward development of the 
new systems. We cannot simultaneously continue to operate the Shuttle 
fleet and develop Orion, so we must phase out the former as we ramp up 
the latter, if we are to continue to move forward to achieve our 
Exploration goals.
    NASA recognizes the importance of America's investment in the ISS 
and the formidable--and increasing--research capabilities of this 
National Laboratory. Consequently, NASA is supporting the development 
of commercial services to sustain the ISS. As a backup, NASA is also 
ensuring that its new exploration vehicles are capable of supporting 
the ISS, and is maintaining the option of purchasing Russian crew 
transfer capabilities.
    NASA is making an investment of $500M to spur the development of 
Commercial Orbital Transportation Systems (COTS) through funded Space 
Act Agreements with U.S. commercial space industry partners. The 
companies pay for the development of these COTS vehicles by means of 
private sector investment, leveraged with NASA's investment, with the 
anticipation of selling COTS services to support the ISS to NASA.
    We have known we would require use of Russian crew transportation 
and rescue services following retirement of the Shuttle, and for that 
reason, we sought an amendment in 2005 to what was then the Iran 
Nonproliferation Act (INA). In 2000, Congress passed the INA, which was 
subsequently amended to become the Iran, North Korea and Syria 
Nonproliferation Act (INKSNA). Among other things, INKSNA prohibits the 
U.S. (NASA) from making barters and purchases from the Russian 
Government and proscribed Russian entities in connection with the 
International Space Station due to concerns with Russian proliferation. 
In 2005 Congress passed a legislative exception to the prohibition 
allowing NASA to make such barters and purchases until December 31, 
2011. In April 2008, NASA submitted to Congress a proposed amendment to 
INKSNA that would permit NASA to continue to procure Russian support 
for the ISS until suitable U.S. capabilities are in place.

    Question 2. I understand the budgetary planning horizon for the 
Space Station is 2015 or 2016. Is that correct?
    Answer. The budget horizon associated with the President's FY 2009 
budget request runs through FY 2013. The notional planning horizon for 
ISS operations runs through 2015 because U.S. Station components are 
certified for 15 years on-orbit, and the U.S. Laboratory was launched 
in February 2001. While NASA has not assumed any budget for ISS 
operations and research beyond this planning horizon the Agency has not 
taken any actions to preclude continuation of Station operations and 
research beyond that year. It will be up to future Administrations and 
Congresses to make the decision regarding the Station's orbital 
lifetime. NASA is currently preserving options to continue operations 
beyond this point.

    Question 2a. And yet the current plan indicates we won't have a 
Shuttle replacement ready until 2015--and likely 2016. How do you 
propose we can expect to actually use our newly-finished Space Station 
between 2010 and 2016?
    Answer. Both crew and cargo transportation capability will be 
necessary to operate, maintain, and use the ISS productively, during 
the period 2011-2016.
    The United States will rely on the Russian Soyuz for crew 
transport/rescue capabilities until the Orion Crew Exploration Vehicle 
comes on line, or a U.S. commercial COTS vehicle for crew transport/
rescue is successfully demonstrated. NASA currently has a contract with 
Russia for crew transportation and rescue through 2011. And, in April 
2008, NASA submitted to Congress a proposed amendment to the Iran, 
North Korea, and Syria Nonproliferation Act (INKSNA, 50 U.S.C. 1701 
note) that would permit NASA to continue to procure Russian support for 
the ISS until U.S. capabilities are in place.
    With respect to cargo transportation capability, COTS agreements 
with both the Space Exploration Technology Corporation (SpaceX) and 
Orbital Sciences Corporation (OSC) include milestones for cargo 
capability demonstrations in the 2010 timeframe. NASA released the 
Request for Proposals (RFP) for Commercial Re-supply Services (CRS) on 
April 14, 2008, which will allow contract mechanisms to be in place for 
services in the 2011-2015. NASA plans to award contracts by the end of 
calendar year 2008. In the event that domestic, commercial cargo 
transportation capability is delayed, NASA will rely on the existing 
and planned services of the ISS partnership until such time as U.S. 
services become available. The ISS partners have existing capabilities 
through the Russian Progress vehicle, and planned capabilities through 
the European Automated Transfer Vehicle (ATV), which was successfully 
launched on March 8, 2008, and subsequently docked on April 3, 2008, 
with the International Space Station, and the Japanese HII Transfer 
Vehicle (HTV), which is scheduled for its maiden launch in September 
2009. The planned ATV and HTV flights are part of the negotiated 
offsets to NASA for launching their respective modules to space.
    Through this mixed-fleet strategy, NASA plans to manage risk in 
such a way as to ensure that capability to both operate and maintain, 
and productively utilize the ISS continues to be available after the 
Space Shuttle is retired at the end of FY 2010.

    Question 2b. What steps would be required to make a determination 
as to the maintenance and use of the ISS after 2016? When would you 
project that such steps would be implemented?
    Answer. Continued operation and use of the ISS after 2015 will 
depend on an assessment of the benefits and costs by future 
Administrations and Congresses. Key factors are likely to include: (a) 
cost of cargo and crew transportation; (b) cost of operation and 
research; (c) perceived benefits of operations and research; (d) 
national and international policy objectives in the future; (e) the 
technical feasibility of continued safe operations; and (f) interest in 
the National Laboratory from other government agencies and the 
commercial sector. During the period from 2011 to 2015, the 
productivity potential of the ISS should become more clear and by FY 
2014, NASA will have the information needed for the Administration and 
Congress to make an informed decision in cooperation with the ISS 
international partners. NASA is currently taking no steps that would 
preclude continued operation and utilization of the ISS beyond FY 2015. 
NASA is technically prepared to extend the life of ISS and has begun 
collecting technical data to allow for life extension.

    Question 3. You have indicated you plan to fill the ``cargo gap'' 
for station resupply using the COTS (Commercial Orbital Transportation 
System) program. You have budgeted $500 million total over a period of 
5 years, and divided that amount between two separate development 
efforts. Do you believe this funding level is adequate?
    Answer. Yes, the funding level is adequate. The existing funding--
$500M over 5 years--has enabled NASA to enter into funded Space Act 
Agreements with two partners. It is our judgment that this is a 
sufficient number of funded partners to provide a reasonable chance of 
at least one company being able to offer NASA cargo transportation 
services after the retirement of the Space Shuttle in 2010.

    Question 4. If, for whatever reason, we are unable to get U.S. crew 
members to the space station, what is the impact of that on your cargo 
and resupply requirements?
    Answer. The most critical issue would be the ability to safely 
operate and maintain the ISS with a reduced complement of only three 
crewmembers--none of whom would be American. Currently, operations and 
maintenance of the U.S. operating segment (USOS) of the ISS is 
estimated to require 65 crew hours per week. This work requires 
extensive knowledge in U.S. systems operations, and cannot be 
effectively done by a non-U.S. crew member. NASA would need to spend a 
large amount of time training others to operate the U.S. systems and it 
is not practical to provide this level of training to our partners. The 
U.S. systems also provide key services for the partners' power, 
communication, data, thermal control, etc. Without U.S. crew on the 
ISS, the critical ISS systems will fail. In this scenario, it would 
make little sense for the U.S. to continue to provide logistics for a 
Station that we could not use or maintain. The need for cargo goes to 
zero in this scenario. In addition, under the ISS international 
agreements, the U.S. is responsible for crew transportation, crew 
rescue, and some cargo upmass and downmass for Canada, Europe, and 
Japan. For these reasons, NASA intends to sustain U.S. astronauts 
aboard ISS to minimize risks to the continued operation of the 
spacecraft.

    Question 4a. What would be the impact of a reduction in cargo 
requirements on the business case for your COTS contractors?
    Answer. NASA has not specifically analyzed the impact of a 
reduction in cargo requirements on the business cases of future 
Commercial Re-supply Service (CRS) contractors (which are proprietary).

    Question 5. Your intention to transport U.S. crew members to the 
ISS after 2010 is to send them on Russian Soyuz vehicles, which you 
have contracted to pay Russia for, at a cost of over $700 million, 
through 2011. What is the cost per launch for that service?
    Answer. NASA purchases comprehensive Soyuz support, including all 
necessary training and preparation for launch, crew rescue and landing 
for an entire long-duration mission. These services amount to an 
average of $26M for each crew rotation purchased. NASA does not 
purchase Soyuz launches, but rather a round trip ``seat'' or crew 
rotation. Soyuz can accommodate up to three seats per launch. The $700M 
contract includes items other than crew transportation, such as 
training, habitation, and rescue. It includes cargo transport as well 
as other items needed for ISS. The current contract only purchased the 
minimum cargo capability to keep ISS functional while the U.S. 
commercial market develops.

    Question 6. Under current law, you cannot even buy those launch 
services from Russia after 2011. How do you propose to get U.S. crew 
members to the station after 2011?
    Answer. NASA can't get U.S. crew members to the ISS after 2011 
until a new U.S. capability comes on line, unless Congress amends the 
Iran, North Korea, and Syria Nonproliferation Act (INKSNA) to enable 
the Agency to purchase Russian services beyond 2011.

    Question 6a. If an extension were granted by the Congress, allowing 
purchase of those launch services, what would you expect the total cost 
to be for using those capabilities, through 2016?
    Answer. At this time, it is premature to speculate on the cost of 
any future contract with Russia to provide crew transport and rescue 
services. In order to meet our U.S. obligations for U.S., Canadian, 
European and Japanese crew, NASA would require six seats per year. The 
total cost would depend on when a U.S. capability is operational.

    Question 7. In preparing to negotiate an expanded contract for 
Russian launch services, assuming an exemption is granted which allows 
you to proceed with that negotiation, how do you believe the U.S. 
negotiating position could be improved by specific actions that might 
be taken or initiated to either accelerate the development of the Ares/
Orion projects or to actively pursue alternative U.S. commercial 
alternatives for human access to ISS? In particular, address the cost-
benefit analysis of undertaking those acceleration or development 
activities versus making the anticipated expenditures for Russian-
provided services.
    Answer. It is important that NASA receive relief from the 
provisions of the Iran, North Korea and Syria Nonproliferation Act 
(INKSNA) as soon as possible so that the Agency can begin negotiations 
with Russia for Soyuz crew transport and rescue services; the earlier 
the Agency is able to begin these discussions, the more effective its 
negotiating position will be. If the legislative authority NASA 
requested last April is not enacted this fall, we face the very real 
prospect of a gap in U.S. crew presence onboard the ISS beginning in 
late 2011, jeopardizing its safety and viability. U.S. crew is required 
onboard to operate the Space Station. Without concluding contractual 
arrangements in 2008 for crew rotation and rescue services after 2011, 
the production of future Soyuz vehicles to meet U.S. obligations will 
be at risk. Negotiations for the procurement of Soyuz must begin 
approximately 36 months prior to launch in order to support Russia's 
well established timeline for the production of the Soyuz vehicles. The 
timing of enactment of Congressional authority is important. Delays 
will reduce the time allowed for contract negotiations, which in turn 
would likely lead to higher prices for these services. It is important 
that NASA be in a position to sign a contract by October 2008 with the 
Russian Space Agency, or the continued operation of the ISS after 2011 
could be in jeopardy.
    Accelerating the development of the Orion Crew Exploration Vehicle 
(CEV) would reduce the amount of time NASA would be reliant on Soyuz 
crew transportation and rescue services, though it would not obviate 
the need for such services, and the cost of acceleration would almost 
certainly be greater than any savings accrued by avoiding purchase of 
additional Soyuz vehicles. Orion is scheduled to achieve full 
operational capability--including crew rescue--in 2016; if Orion's 
development were accelerated it would not be able to provide crew 
transport to the ISS until several years after retirement of the Space 
Shuttle at the end of FY 2010, though the amount of Soyuz services NASA 
would have to purchase would likely be reduced.
    The estimated development and qualification time for a Capability D 
spacecraft is three to 6 years; thus, even if the effort were currently 
funded, NASA would still need to purchase Russian Soyuz crew 
transportation services to fill the period between Shuttle retirement 
and the Capability D availability. It is NASA's opinion that it is 
unrealistic to expect that the price per seat for Capability D will be 
significantly less than the cost of Soyuz services, and initially, it 
is likely to be higher as the cost will need to reflect at least a 
portion of the development cost outlays.

    Question 8. What is the earliest time you could initiate efforts to 
achieve Capability D, for human transport capability, under the COTS 
program, and when could it be reasonably expected that such a 
capability would be available to support U.S. human access to low-Earth 
orbit, and specifically to the International Space Station? What 
additional funds would be required, and over what period of time, to 
implement Capability D? What sort of new competition, if any, would you 
anticipate, to obtain additional offers to provide Capability D 
services?
    Answer. NASA estimates that industry would require a development 
period of between 3-6 years until a fully operational Capability D for 
crew transportation and rescue services would be available. Credible 
industry proposals for Capability D would need to take into 
consideration an extended development period, major financial 
investments, and high infrastructure costs. In order for NASA to 
initiate the first phase of a Capability D option, funding on the order 
of several hundred million dollars per partner would have to be made 
available through the development period. NASA estimates that an 
industry partner would have to spend well over $1.0B in the development 
of Capability D, either from company reserves or from outside 
investments in addition to the NASA funding. NASA believes that a co-
investment approach would appropriately balance the government's 
contribution with the desire to stimulate the market and ensure 
commitment from industry for a follow on procurement of demonstrated 
crew transportation services. This approach would be consistent with 
the current funded Space Act Agreements with SpaceX and Orbital 
Sciences Corporation for development and demonstration of cargo 
delivery.
    Capability D is currently unfunded. NASA does not support funding 
Capability D at the expense of NASA programs as proposed in the 
President's FY 2009 budget request. Should NASA be required to initiate 
Capability D within requested funds, the funds needed for this 
commercial demonstration would have to come from higher priority 
activities. The effect may be to delay the planned March 2015 
operational readiness of the next-generation human spaceflight 
vehicles, or eroding funds available to deliver cargo to the 
International Space Station.
    Given that technological advancements in the commercial space 
sector will likely occur between now and 2010, if additional funding 
were made available for a Capability D demonstration, NASA would hold a 
full and open competition resulting in funded Space Act Agreements to 
find the best partners to demonstrate crew transportation services. 
Doing so would ensure that NASA has the best proposals to choose from 
at the best value for the American taxpayers.
    Even if Capability D becomes operationally available during this 
time-frame, NASA will still need to purchase Russian Soyuz crew 
transportation and rescue services to fill any gap between Shuttle 
retirement and the projected Capability D operationally available date.

    Question 9. Can you provide for the record a detailed listing of 
all major modifications or terminations--either of contacts or of 
orders from vendors--you have made to date and the schedule for those 
you plan to make as you start shutting down the Space Shuttle program?
    Answer. NASA has not terminated any prime contracts for the Space 
Shuttle program to date, and will not do so until after the last Space 
Shuttle mission in 2010. The Space Shuttle prime contractors determine 
how long to maintain their subcontractor, vendor, and supplier 
relationships based on the needs of that specific prime contractor to 
continue to support the fly-out of the Space Shuttle manifest. Starting 
in 2005, as production parts and spares were delivered in sufficient 
quantity to complete the remaining Space Shuttle mission manifest, 
prime contractors began to complete planned supplier contracts and 
discontinued placing orders with vendors.
    The table below details the capabilities discontinued within the 
projects of the Space Shuttle Program (SSP), including the Reusable 
Solid Rocket Motor (RSRM), Orbiter, Launch and Landing, and Space 
Shuttle Main Engine (SSME) projects. Acronyms and abbreviations are 
defined below the table.

                                Table.--Discontinued Shuttle Program Capabilities
----------------------------------------------------------------------------------------------------------------
                                                                                    Release
     Project              Capability title                Decision summary            date      Contractor name
----------------------------------------------------------------------------------------------------------------
RSRM               Fabricate steel forgings        Vendor not needed to produce     10/31/05                   Ladish Company
                                                    case hardware due to
                                                    sufficient inventory.
----------------------------------------------------------------------------------------------------------------
RSRM               Heat treat large metal          Vendor has shut down at their      2/1/06           Bodycote
                    components                      own request.
----------------------------------------------------------------------------------------------------------------
Orbiter            Production/Repair/FATT&E of     Turn off production, but          5/24/06     UTC Fuel Cells
                    Fuel Cells                      maintain capability to
                                                    repair, and perform Failure
                                                    Analyses and Test, Tear-Down
                                                    and Evaluation of Fuel Cells
                                                    at Original Equipment
                                                    Manufacturer--UTC Fuel Cells.
----------------------------------------------------------------------------------------------------------------
Orbiter            Production of TPS FRSI and      Last planned purchase for SSP     9/30/06             Albany
                    Thermal Materials               completed in 2006.                            International
----------------------------------------------------------------------------------------------------------------
Orbiter            Production of D&C Switches and  The Orbiter Project Office and    9/30/06  Applied Resources
                    Vertical Scale Meters           the Space Shuttle Program are                         Corp.
                                                    planning on not placing any
                                                    production orders or skills
                                                    retention contracts with ARC--
                                                    Applied Resources Corp.
                                                    because delivery of the VSM
                                                    hardware will provide the
                                                    Program with sufficient
                                                    spares to support through
                                                    2010. The contract will close
                                                    as part of normal business
                                                    practices and will result in
                                                    no cost to the Orbiter
                                                    Project Office or Space
                                                    Shuttle Program.
----------------------------------------------------------------------------------------------------------------
Orbiter            Production/Repair/FATT&E of     Turn off Production, but          9/30/06     Ball Aerospace
                    GN&C Star Trackers              maintain capability to repair
                                                    and perform Failure Analyses
                                                    and Test, Tear-Down and
                                                    Evaluation of Star Trackers
                                                    at Ball Aerospace, the
                                                    original equipment
                                                    manufacturer.
----------------------------------------------------------------------------------------------------------------
Orbiter            Repair/FATT&E of C&T S-Band     Orbiter Phase-out Panel--         9/30/06       EDO Corp (AIL)
                    Preamplifier                    February 5, 2006. The NASA
                                                    Shuttle Logistics Depot will
                                                    take over from EDO
                                                    Corporation to perform
                                                    Failure Analyses and Test,
                                                    Tear-Down and Evaluation of
                                                    the Space Shuttle
                                                    Communication & Tracking S-
                                                    Band communication system.
                                                    There are no anticipated
                                                    workforce, environmental, or
                                                    historic preservation impacts
                                                    associated with the closeout
                                                    of this work at EDO. Once EDO
                                                    decommissions the area
                                                    dedicated to SSP, they will
                                                    utilize it for other
                                                    business.
----------------------------------------------------------------------------------------------------------------
Orbiter            Repair/FATT&E ELCSS Components  Discontinue capability to         9/30/06           Hamilton
                                                    manufacture new portable life                    Sundstrand
                                                    support capabilities for
                                                    current generation EVA suits
                                                    while maintaining capability
                                                    to repair and perform Failure
                                                    Analyses and Test, Tear-Down
                                                    and Evaluation of Environment
                                                    Control & Life Support
                                                    Components at Hamilton
                                                    Sundstrand, the original
                                                    equipment manufacturer.
----------------------------------------------------------------------------------------------------------------
Orbiter            Production of Display &         Discontinue contract with         9/30/06       Perkin Elmer
                    Control Flood Lights            Vendor.                                     Optoelectronics
----------------------------------------------------------------------------------------------------------------
Orbiter            Repair/FATT&E of MADS Recorder  Closeout of Sypris scheduled      9/30/06        Sypris Data
                                                    for March 31, 2007. There are                 Systems, Inc.
                                                    no potential impacts
                                                    associated with the closeout
                                                    of the capability at Sypris.
----------------------------------------------------------------------------------------------------------------
Orbiter            Production/Repair/FATT&E of     Production of Auxiliary Power     10/1/06           Hamilton
                    Auxiliary Power Unit Gas        Unit (APU) Gas Generators by               Sundstrand Corp.
                    Generators                      Hamilton Sundstrand supplier
                                                    Aerojet is phased out. The
                                                    capability to repair and
                                                    perform Failure Analyses and
                                                    Test, Tear-Down and
                                                    Evaluation of, those units at
                                                    Aerojet or Hamilton
                                                    Sundstrand is maintained.
----------------------------------------------------------------------------------------------------------------
Launch &           Launch Control Center Firing    Transfer Firing Room 1             1/2/07  NASA Kennedy Space
Landing             Room 1                          following successful Shuttle                   Center (U.S.
                                                    launch from Firing Room 4.                           Govt.)
                                                    Firing Room 1 is no longer
                                                    usable by Shuttle, and
                                                    Shuttle equipment to be
                                                    removed for spares and
                                                    excess. Firing Room 1 then
                                                    turned over to Constellation
                                                    for facility demolition and
                                                    modification.
----------------------------------------------------------------------------------------------------------------
SSME               Stennis Space Center Assembly   SSME ended testing on A-1 test    2/28/07  NASA Stennis Space
                    & Delivery A-1 Test Support     stand in October 2006. Test                    Center (U.S.
                                                    stand operations transitioned                        Govt.)
                                                    to Constellation Program on
                                                    Nov 9, 2006.
                                                     <bullet> Excess assets have
                                                    been identified for SSME.
                                                     <bullet> SSME testing on A-2
                                                    will continue until the end
                                                    of the Space Shuttle Program.
----------------------------------------------------------------------------------------------------------------
Orbiter            Repair/FATT&E of Data           BAE made a decision to stop       8/14/07        BAE Systems
                    Processing System Data Bus      supporting the SSP. They have               Aerospace, Inc.
                    Isolation Amplifier and         requested disposition of the
                    Multiplexer Interface Adapter   Bond Room (i.e., flight
                                                    hardware and associated piece-
                                                    parts) and Special Test
                                                    Equipment (STE) located at
                                                    their facility. There are no
                                                    other known users of this
                                                    hardware.
----------------------------------------------------------------------------------------------------------------

    Acronyms and Abbreviations:





  APU                         Auxillary Power Unit
  C&T                         Communication and Tracking
  D&C                         Display and Control
  DPS                         Data Processing System
  ECLSS                       Environmental Control and Life Support
                               System
  EDO                         [Not an acronym; Name of Corporation]
  FATT&E                      Failure Analysis, Test, Tear-Down and
                               Evaluation
  FRSI                        Felt Reusable Surface Insulation
  GN&C                        Guidance, Navigation, and Control
  MADS                        Modular Auxiliary Data System
  NSLD                        NASA Shuttle Logistics Depot
  OEM                         Original Equipment Manufacturer
  TPS                         Thermal Protection System
  VSM                         Vertical Scale Meters


    From prime-contractor-supplied data, NASA estimates that the number 
of active Space Shuttle flight hardware suppliers was reduced by prime 
contractors from approximately 1,500 at the end of FY 2004 to 
approximately 1,200 in FY 2007. Space Shuttle prime contractors base 
subcontractor, supplier, and vendor release dates on analysis of 
requirements to support Space Shuttle production, sustaining 
engineering, readiness for failure analysis, ground and mission 
operations skill requirements, and services. NASA tracks the phase-out 
of suppliers and vendors by the prime contractors as part of the Space 
Shuttle Transition and Retirement Strategic Capabilities Assessment and 
the Space Shuttle Critical and Single Source Supplier Logistics 
Assessment.

    Question 10. Please provide for the record details regarding your 
plans--and anticipated costs--for implementing disposition of Shuttle-
related hardware, facilities, tooling, etc., as you terminate the Space 
Shuttle Program.
    Answer. NASA's Human Space Flight Transition Plan (November 2006) 
and the Space Shuttle Program Transition Management Plan (March 2007) 
outline plans for the disposition of Shuttle related hardware, 
facilities and tooling. These plans are consistent with Space Shuttle 
project plans for the retirement of each major element's equipment and 
facilities. NASA established a Space Shuttle Transition and Retirement 
Strategic Capabilities Assessment (SCA), which schedules the retirement 
or transfer of each Space Shuttle technical capability. Each capability 
is a bounded function performed for the Space Shuttle Program in order 
to accomplish its mission execution requirements. A functional 
capability is comprised of government and contractor workforce, 
facilities/equipment, suppliers, and contracts that together perform a 
high-level function (e.g., Orbiter processing). Management key decision 
dates, Space Shuttle Program ``last need'' dates, and Space Shuttle 
Program release dates have been established for each capability. As 
each capability reaches the Management Key Decision Date milestone, a 
detailed plan, including disposition of Shuttle-related equipment, 
facilities and tooling, is confirmed.
    Space Shuttle Transition and Retirement costs for activities which 
need to be conducted prior to the end of FY 2010 are included within 
the Space Shuttle Program budget. NASA has not yet budgeted for Shuttle 
retirement costs beyond FY 2010, since trade studies are still being 
conducted to choose the most efficient and cost effective methods to 
disposition the large quantity of equipment and facilities--either by 
transfer to Constellation or through disposal. In generating cost 
estimates for Shuttle retirement, NASA found that the total cost is 
very sensitive to the assumed final destination and user of the 
equipment (e.g., Constellation Program, General Services Administration 
sale, museum display, scrap) and what needs to be done to prepare the 
equipment (e.g., nothing, decontamination, bulk storage, destruction). 
NASA facilities usage costs are driven both by the timing of 
Constellation needs and by the time required to prepare and excess 
Shuttle equipment for final disposition. In studying the cost of 
Shuttle retirement since FY 2004, NASA has found that as the Agency 
acquires more detailed information and conducts more detailed trade 
studies on disposition plans, the projected cost for disposition action 
required in FY 2011 and beyond continues to decrease. For example, as 
more detailed data on equipment condition and characteristics are 
researched, the quantity of equipment requiring expensive 
decontamination or demilitarization has been reduced. NASA anticipates 
that the costs to finish Space Shuttle retirement will be proposed as 
part of the FY 2010 President's budget request.

    Question 11. As you know from our previous discussions, I am 
concerned about the impact of the Shuttle termination on our current 
Shuttle work-force. You have generated plans for carrying out that 
transition and doing what you can to mitigate that impact. Is there 
anything this subcommittee or the Congress can do to make that task 
easier?
    Answer. Congress and the Subcommittee can help make the transition 
successful by continuing to support the U.S. Space Exploration policy 
as stated in the NASA Authorization Act of 2005 (P.L. 109-155), and 
providing full funding of the annual NASA budget requests (which enable 
Constellation development to proceed on schedule). It is important to 
maintain support for the Lunar Capability elements of Constellation, 
such as the Ares V Cargo Launch Vehicle, as these elements will utilize 
many of the personnel, facilities, and infrastructure made available 
immediately after the last Shuttle mission in 2010. In the future, NASA 
may identify specific authorities which could reduce costs to dispose 
of Shuttle equipment and facilities no longer needed after 2010 and not 
required for Constellation. Minimizing those costs will help the Agency 
avoid diverting funds from Constellation development and help minimize 
the gap between the last Shuttle mission and the Initial Operational 
Capability of the Orion Crew Exploration Vehicle.

    Question 11a. Do you need any new authority for workforce-related 
actions?
    Answer. In 2007, NASA identified potentially beneficial workforce 
authorities related to the civil service employees, including 
conversion incentives to go from permanent to temporary employment, and 
extended time health benefits coverage after leaving employment.

    Question 11b. How confident are you that the plans in place will 
make the best possible use of our skilled and talented workforce?
    Answer. NASA has high confidence that current plans will make best 
use of the skilled workforce, but it is important to note that any 
reduction to requested annual appropriations constrains Constellation's 
development, stretching out schedules and increasing the gap between 
Shuttle and Orion. The longer the gap, the more difficult it becomes to 
retain our needed workforce, as skilled and dedicated workers may leave 
for near-term work in other fields. NASA buys products and services 
from industry, and does not determine contractor workforce levels, and 
it is industry's responsibility to train, retain, and motivate 
workforce within the constraints of funding to deliver the agreed to 
products and services.

    Question 11c. What analysis has NASA done to understand the cost of 
the spaceflight gap, in terms of loss of workforce and skills, and how 
those operational kinds of skills are re-gained once development 
activity is completed on the new launch systems and activity returns to 
a focus on operations? Is the potential cost of that workforce 
evolution built into the current budget request, or are there plans to 
do so in future requests, especially in terms of the training and the 
skills development that will be needed?
    Answer. NASA is conducting a Shuttle Workforce Mapping Study to 
understand how skilled workforce will move or change as the Shuttle 
Program ends and Constellation Program progresses through development 
and on into operations. In November 2007, NASA completed the first 
phase of the study, which focused on the detailed skills and staffing 
plans for the Agency's civil service workforce. NASA is continuing the 
second phase of the study, which examines the top-level skills of the 
human spaceflight industrial supply base, including ground processing 
and mission operations. This second phase will be completed during the 
summer of 2008, and will inform future contract acquisition plans. NASA 
has made a substantial investment in training an industrial human 
spaceflight workforce with unique skills, and the Agency believes that 
this highly skilled, experienced, and dedicated human spaceflight 
workforce will be employed by successful bidders for future 
Constellation development work. The specific geographic distribution 
and quantity of each type of work continues to be determined as NASA 
competes and selects contractors to design and develop Constellation. 
As Constellation contractors further define their vehicles through 
successful design reviews, suppliers and vendors will be selected.
    By providing current Shuttle contractors assignments related to 
Constellation, NASA is already providing the tools, training, and 
opportunities for workers to gain experience and skills on new 
processes that will be implemented for Orion/Ares. Some of these new 
processes are being utilized in Shuttle processing to provide 
experience that the workforce will need for Constellation. This hands-
on experience will qualify employees for future work. Examples of 
cross-training opportunities include:

  <bullet> The United Space Alliance Shuttle Program Operations 
        Contract workforce is being used by Constellation to process 
        the Ares I-X vehicle for its first test flight in April 2009. 
        The first flight of Ares will be conducted by the Space Shuttle 
        workforce.

  <bullet> On STS-118, a single Solid Rocket Booster was stacked to 
        gather engineering information on the Mobile Launch Platform 
        for Ares I-X. The existing Space Shuttle workforce performed 
        this work for the Constellation Program.

  <bullet> On STS-118, Endeavor was powered up in the KSC Operations 
        and Checkout building using a new ``paperless'' process as a 
        test of future procedures for the Orion spacecraft. The Shuttle 
        workers gained a new tool for the remaining Space Shuttle 
        missions, and were able to preview and critique a new procedure 
        planned for Constellation.

    NASA has not specifically built funding for the potential costs of 
workforce retraining into Constellation budgets, because Constellation 
projects negotiate the value of work with successful prime contractors 
based on a company's specific proposal. By conducting Constellation 
contract competitions according to the NASA Human Space Flight 
Integrated Acquisition Roadmap schedule, NASA is identifying which 
companies will perform Constellation development work even as the 
Agency continues to fly the remaining Space Shuttle missions. This 
allows proposing companies to recruit from the existing human 
spaceflight workforce, and it enables workers to see--prior to the last 
Shuttle mission--which companies will conduct which work, so they can 
plan their careers accordingly. Constellation will hold budget reserves 
which will be allocated to address technical problems during 
development; reserves may also be used to address extraordinary issues 
related to retraining, but that application is not anticipated.

    Question 12. We hear complaints that NASA's programs and budget 
have become unbalanced in recent years, with inadequate attention and 
resources placed on areas such as Space Science, Earth Science, 
Aeronautics Research, Life and Microgravity Science, and so on. I noted 
in your statement you used the term ``balanced'' four different times 
in the first three paragraphs. You are obviously wanting to make a 
point. Can you give us a quick thumbnail view of how to respond to 
claims of imbalance in NASA's overall programs?
    Answer. The NASA budget request reflects the priorities and goals 
contained in the President's civil space exploration and aeronautics 
research policies, and it is also consistent with NASA Authorization 
Act of 2005 that put those goals into public law. The NASA budget 
request is `balanced' with respect to Agency's direction and guidance 
from the White House and Congress. Additionally, when compared to 
historical data, the percentage of NASA funds for human spaceflight is 
the same (62 percent) as it was during the years of Apollo. Therefore, 
the NASA FY 2009 budget request is also ``balanced'' with respect to 
historical NASA budgets.

    Question 13. The NASA Authorization Act of 2005 underscored the 
importance of developing a National Aeronautics Research Policy to help 
guide decisions about the proper content of government-funded 
aeronautics research activities and the level of resources to be 
provided to them. Can you provide, for the record, a trace between the 
budget request for aeronautics research and the specific elements of 
the National Research Policy and the National Aeronautics Research 
Plan, both of which have been issued since the passage of the 2005 Act?
    Answer.

The Alignment of the NASA Budget Request for Aeronautics Research with 
        the National Research and Development (R&D) Policy
    NASA's current budget request for aeronautics research implements 
NASA's overall aeronautics program under the Aeronautics Research 
Mission Directorate (ARMD) which NASA restructured in FY 2006 to focus 
on long-term, cutting-edge research in traditional aeronautics 
disciplines as well as in emerging fields with direct applications to 
aeronautics. Under the restructuring, ARMD established four programs: 
the Fundamental Aeronautics Program, the Aviation Safety Program, the 
Airspace Systems Program, and the Aeronautics Test Program. Although 
the restructuring was conducted before the completion of the National 
Aeronautics R&D Policy, NASA's aeronautics programs are strongly 
aligned with the principles of the policy because both took into 
consideration many of the same reports and studies that have been 
conducted over the past several years on the Nation's aeronautics 
enterprise. The primary examples are:

  <bullet> The Fundamental Aeronautics Program directly addresses the 
        first Policy's principle of ``mobility through the air'' by 
        conducting research that can enable the development of advanced 
        aircraft systems that fly with higher performance, lower fuel 
        consumption, and minimum environmental impact (noise and 
        emissions) at a range of speeds and from a wide variety of 
        airports. The Airspace Systems Program directly addresses this 
        principle by conducting air traffic management research that 
        will develop concepts, capabilities, and technologies required 
        to meet the Nation's anticipated growth in airspace operations, 
        both in the air and on the ground.

  <bullet> Both the Fundamental Aeronautics Program and the Aviation 
        Safety Program addresses the Policy's second principle of 
        ``national security and homeland defense'' by conducting 
        ``dual-use'' research in a number of areas including advanced 
        aircraft design, integrated propulsion concepts, multi-
        functional materials development, and advanced aviation safety 
        technologies.

  <bullet> The core mission of the Aviation Safety Program directly 
        addresses the Policy's third principle that states that 
        aviation safety is paramount.

  <bullet> All of ARMD's programs directly address the Policy's fifth 
        principle of developing a ``world-class aeronautics workforce'' 
        by focusing on cutting-edge research, and by fostering 
        intellectual partnerships with industry and academia by means 
        of cooperative Space Act Agreements and fully and openly 
        competed research awards that emphasize true collaborations 
        among partners. In addition, ARMD currently funds graduate 
        student scholarships and intends to expand its scholarship 
        efforts to include scholarships for undergraduates. Both the 
        undergraduate and graduate scholarships will include summer 
        internship opportunities at NASA research centers.

  <bullet> The Fundamental Aeronautics Program simultaneously addresses 
        the Policy's sixth principle of ``assuring energy availability 
        and efficiency'' and seventh principle of ``protecting the 
        environment'' by conducting research to improve aircraft 
        performance, increase fuel efficiency, lower emissions 
        (including particulate matter) and reduce noise. In addition, 
        the Airspace Systems Program also addresses these two 
        principles by conducting research to improve efficiency and 
        reduce environmental impact through better utilization of the 
        airspace.

The Alignment of the NASA Budget Request for Aeronautics Research with 
        the National Plan for Aeronautics Research and Development and 
        Related Infrastructure

Airspace Systems Program
    Research activities conducted in the Airspace Systems Program focus 
on mobility which is defined in the National Aeronautics R&D Plan, 
Chapter 2: ``Mobility through the air is vital to economic stability, 
growth and security as a Nation.''
    From its inception, the Airspace Systems Program and its two 
projects (NextGen-Airspace and NextGen-Airportal) were planned using 
guidance from the Joint Planning and Development Office (JPDO) on the 
research and development that is required to achieve the Next 
Generation Air Transportation System (NextGen) vision. In 2007, NASA 
and the JPDO reviewed and agreed on the alignment of the NextGen-
Airspace Project and NextGen-Airportal Project research with the JPDO 
R&D Plan and Integrated Work Plan. Both of these key JPDO documents 
were used in defining the roadmap for research for the National 
Aeronautics R&D Plan.
    Chapter 2, focusing on mobility, identify five specific goals:

        1. Develop reduced aircraft separation in trajectory- and 
        performance-based operations.

        2. Develop increased NAS capacity by managing NAS resources and 
        air traffic flow contingencies.

        3. Reduce the adverse impacts of weather on air traffic 
        management decisions.

        4. Maximize arrivals and departures at airports and in 
        metroplex areas.

        5. Develop expanded aircraft capabilities to take advantage of 
        increased air transportation system performance.

    The Program leads research activities for Goals 1, 2, and 4 with 
the collective research output of its two projects contributing to 
these goals. The NextGenAirspace Project explores and develops 
concepts, and integrated solutions providing research data to define 
and assess allocation of ground and air automation concepts and 
technologies necessary for the NextGen. Its fundamental research 
purpose is to address the demand/capacity imbalance problem in the NAS 
in the most safe, equitable, and efficient manner. The NextGen-
Airportal Project investigates innovative new technologies, approaches, 
and procedures with the goal of enabling enhancements within the 
airport and terminal domains to meet NextGen capacity and efficiency 
goals.
    The Program has a supporting role for Goal 3, and participates in 
the development of requirements for the integration of weather 
information into the ATM decision-making process. The Program also has 
a supporting role for Goal 5, and participates in the development of 
trade space metrics to understand realizable trades within noise, 
emissions and performance parameters for advanced aircraft that will 
operate in NextGen. One hundred percent of the Program and Project 
budgets are focused on these five goals.

Aviation Safety Program
    Research activities conducted in the Aviation Safety Program focus 
on safety which is defined in the National Aeronautics R&D Plan, 
Chapter 4: ``Aviation Safety is Paramount''
    The Aviation Safety Program was originally formulated in 1998 to 
develop technologies in support of a National Goal to reduce the U.S. 
aviation fatal accident rate by 80 percent by 2007. Building on that 
benchmark, the current Program, in collaboration with the JPDO is now 
focused on developing technologies in support of NextGen safety needs. 
In 2007, NASA and the JPDO reviewed and agreed on the alignment of the 
Aviation Safety Program research with the JPDO R&D Plan and Integrated 
Work Plan. Both of these key JPDO documents were used in defining the 
roadmap for the research for the National Aeronautics R&D Plan.
    Chapter 4, focusing on safety, identify three specific goals:

        1. Develop technologies to reduce accidents and incidents 
        through enhanced vehicle design, structure, and subsystems.

        2. Develop technologies to reduce accidents and incidents 
        through enhanced aerospace vehicle operations on the ground and 
        in the air.

        3. Demonstrate enhanced passenger and crew survivability in the 
        event of an accident.

    The Program leads research activities for Goals #1 and #2. In 
particular, three of the four Projects within the Program contribute to 
Goal #1: the Integrated Vehicle Health Management (IVHM) Project, the 
Aircraft Aging and Durability (AAD) Project, and the Integrated 
Resilient Aircraft Control (IRAC) Project. The IVHM project conducts 
research to advance the state of highly integrated and complex flight-
critical health management technologies and systems. The AAD project 
develops advanced diagnostic and prognostic capabilities for detection 
and mitigation of aging-related hazards. The IRAC project conducts 
research to advance the state of aircraft flight control automation and 
autonomy in order to prevent loss of-control in flight. The fourth 
Project, the Integrated Intelligent Flight Deck (IIFD) Project, 
contributes to Goal #2. The IIFD project pursues flight deck related 
technologies that will ensure crew workload and situation awareness are 
both safely optimized and adapted to the future operational environment 
as envisioned by NextGen. A component of the IVHM Project which focuses 
on research for new data-mining tools and methods also contributes to 
Goal #2. Additionally, research within the AAD Project relative to 
aging hazards for materials and structures can be applied to Goal #3. 
100 percent of the Program and Project budgets are focused on these 
goals.

Fundamental Aeronautics Program
    Research activities conducted in the Fundamental Aeronautics 
Program contribute to three of the principles outlined in the National 
Aeronautics R&D Policy:

        1. Mobility through the air is vital to economic stability, 
        growth, and security as a nation.

        2. Aviation is vital to national security and homeland defense.

        3. Assuring energy availability and efficiency is central to 
        the growth of the aeronautics enterprise, and the environment 
        must be protected while sustaining growth in air 
        transportation.

    The Fundamental Aeronautics Program is dedicated to the mastery and 
intellectual stewardship of the core competencies of aeronautics for 
the Nation across all flight regimes. The work in the Program directly 
benefits the public through the development of techniques and concepts 
for both subsonic (including rotorcraft) and supersonic vehicles that 
are cleaner, quieter, and more energy efficient. Research in 
revolutionary configurations, lighter and stiffer materials, improved 
propulsion systems, and advanced concepts for high lift and drag 
reduction all target the efficiency and environmental compatibility of 
future air vehicles. In addition, the Program conducts research in the 
hypersonic regime that, in addition to providing technologies for 
revolutionary, low-cost access to and from space, can be employed in 
systems used for national security and homeland defense.
    More specifically, the National Plan for Aeronautics R&D and 
Related Infrastructure outlines in Chapter 2, focusing on mobility, 
five separate goals. The 5th goal--Develop expanded aircraft 
capabilities to take advantage of increased air transportation system 
performance--is directly addressed by the Fundamental Aeronautics 
Program in collaboration with the Airspace Systems Program. A variety 
of different air vehicles will be enabled by the research in the FA 
program within the Subsonic Fixed Wing (SFW), Subsonic Rotary Wing 
(SRW), and Supersonic (Sup) projects. More details can be found in the 
actual document.
    Chapter 3 of the Plan focuses on national security and homeland 
defense. Of the 5 goals outlined in that Chapter, the Fundamental 
Aeronautics Program contributes concepts and technologies for four of 
them: Goal 1 (improved airframe aerodynamic efficiency) is mainly 
addressed by work in the SFW project; Goal 2 (improved rotorcraft) is 
directly addressed by the SRW project; Goal 3 (improved gas turbine 
engines) is addressed by a combination of SFW, SRW, and Sup, and Goal 5 
(hypersonic flight) is the subject of the research conducted in the 
Hypersonics (Hyp) project.
    Finally, Chapter 5 of the Plan focuses on energy availability and 
efficiency, and protecting the environment. While the SRW and Sup 
projects contain major elements in support of this goal, it is the SFW 
project that has the largest contribution to this goal. SFW is working 
on technologies to enable aggressive goals for performance improvements 
of future generations of fixed-wing vehicles starting with N+1 (the 
generation after the current one, represented by the Boeing 787), all 
the way to N+3 (two generations beyond that; expected to enter into 
service in the 2030-2035 period). The SFW project contributes to Goal 1 
(new aviation fuels) and Goal 3 (advanced technologies for reduced 
environmental impact). In fact, the entire SFW project is organized 
around a balanced approach to achieving performance, noise, and 
emissions targets that will result in the possibility of growing the 
NextGen without increasing the resulting environmental impact.

Aeronautics Test Program
    The Aeronautic Test Program (ATP) focuses on ensuring that NASA and 
the Nation have the right set of wind tunnel and flight test facilities 
in place and that these facilities are healthy and represent the 
capabilities that NASA and the Nation need to support the Nation's 
AeroSpace plans.
    The ATP activities are in alignment with the goals of Chapter 6 of 
the National Plan for Aeronautics Research and Related Infrastructure, 
specifically Goal #1--``Determine the national RDT&E infrastructure 
that satisfies national aeronautics R&D goals and objectives'' and Goal 
#2--``Establish a coordinated management approach for Federal RDT&E 
infrastructure that is based upon a national perspective and 
interagency cooperation.''
    ATP plans and activities are done in coordination with DOD through 
the National Partnership for Aeronautical Testing (NPAT) Council and 
with industry through the U.S. Industry Test Facilities Working Group. 
This close coordination ensures a national perspective is inherent in 
the definition and implementation of ATP plans.

    Question 13a. Please provide a summary of the aeronautics research 
activities that have been reduced or eliminated from NASA's aeronautics 
research program in response to the National Research Policy and the 
National Aeronautics Research plan, the budget amounts associated with 
those activities.
    Answer. At this time, no NASA Aeronautics research programs have 
been reduced or eliminated in response to last year's National 
Aeronautics R&D Policy or the recent National Aeronautics R&D Plan. The 
Policy does not contain the detailed information needed to make these 
types of decisions. The National Science and Technology Council's 
Aeronautics Science & Technology Subcommittee is currently writing an 
Appendix to the Plan which will include a preliminary assessment of 
current relevant Federal aeronautics R&D activities to identify areas 
of opportunity for potential increased emphasis, as well as potential 
areas of unnecessary redundancy. When completed, this Appendix can be 
used by NASA to assess its aeronautics research portfolio. The Appendix 
is scheduled to be completed by the end of December 2008.

Exploration
    Question 14. Your statement suggests that ``dithering and 
debating'' over NASA's goals and methods are counterproductive, and I 
can understand that sentiment. However, projects supported by public 
funds--especially those that take years to implement--have to be 
continuously justified and rejustified in the context of changing 
national priorities. How do you strike the balance between remaining on 
course with a chosen strategy and ensuring that new information and 
even new alternatives to that strategy are fairly and fully 
considered--if for no other reason than to validate the strategy you 
have selected?
    Answer. NASA's goals have been defined by Presidential policy and 
endorsed by Congress, and our strategy for achieving them has been 
crafted after careful consideration and thorough analysis. We are 
always open to new information, whether from within NASA or some 
independent external source; but it must indeed be new information. At 
the level of our architecture--our plan to use both the Ares I and Ares 
V--no new information has come to light that would suggest a change in 
our architecture is required.
    A level below the architecture is the design level--decisions about 
what kinds of engines to use, or what kind of materials to use, or what 
specific outer shape should be used for the Orion. We have already had 
one major design change which led to great life cycle cost savings--our 
decision to use a five-segment booster and J-2X engine for both the 
Ares I and Ares V. As we progress through each design review and each 
milestone we are continually conducting design trades in an effort to 
learn as much as we can about the implications of our choices. If we 
learn something in the course of those trades that suggests making a 
change to improve performance or reduce costs, then we will look very 
carefully at that and perhaps make a change.

    Question 15. The changes made in the planned configuration of the 
Ares launch system, namely the decision not to use the SSME and the 
movement to a five-segment 1st stage, appear to have moved that 
development away from the goal of maximizing use of current 
capabilities that was established in the 2005 NASA Authorization Act. 
Please provide for the record a summary of those and other changes made 
as the design concept has matured, and the degree to which those 
changes result in a lesser utilization of existing capabilities, as 
defined by the Act.
    Answer. The ESAS recommended Crew Launch Vehicle (CLV) 
architecture, was derived from elements of the existing Space Shuttle 
system. It was a two-stage, series-burn configuration with the CEV 
positioned on the nose of the vehicle. Stage 1 was derived from the 
Reusable Solid Rocket Motor (RSRM) and was composed of four field-
assembled segments. Stage 2 utilized LOX and Liquid Hydrogen 
(LH<INF>2</INF>) using a single Space Shuttle Main Engine (SSME) 
derived engine modified for altitude start and expendability.
    The Ares I architecture has changed from the original ESAS 
architecture to employ a 5-segment RSRM (a motor still of Shuttle 
heritage that will be supported with Shuttle infrastructure) and a 
lower cost J-2X upper stage engine instead of the SSME. There are not 
real impacts to utilization of existing capabilities in that ATK, the 
provider of Shuttle SRBs is the prime contractor for the Ares I first 
stage development. Additionally, Pratt & Whitney Rocketdyne, 
manufacturer of the SSME, was selected as the J-2X engine prime 
contractor.

    Question 16. NASA has considered--and rejected--alternative 
approaches to Space Shuttle replacement vehicles which would have made 
more use of existing Space Shuttle infrastructure, workforce, etc., 
please provide a description of those alternative approaches and the 
basis for their dismissal as viable alternatives.
    Answer. NASA evaluated many launch vehicle options that could be 
utilized for human space exploration missions. The principal factors 
considered were the desired lift capacity, the comparative reliability, 
and the development and life-cycle costs of different approaches. Among 
these approaches, NASA considered existing vehicles, such as the EELV 
fleet, to meet crew and cargo transportation needs. The information 
below outlines why NASA decided to move forward with the Ares launch 
vehicles after careful consideration and study of other launch 
alternatives.

Developing NASA's Exploration Architecture
    NASA is developing the Exploration architecture to safely and 
affordably transport humans and cargo beyond low-Earth orbit (LEO). 
This multi-purpose architecture is not simply a ``ferry to the 
International Space Station (ISS),'' or a ``Shuttle replacement.'' 
Instead, by utilizing tested human space elements, it includes the 
Heavy Lift Launch Vehicle (HLLV) to deliver up to 70-75 metric ton (mT) 
of cargo to Trans Lunar Injection (compared to the Apollo/Saturn 
capability of approximately 47 mT).
    NASA studied hundreds of commercial, government and concept launch 
vehicle and architecture systems prior to 2005, culminating in the 
release of the Exploration Systems Architecture Study (ESAS). NASA 
studied Space Shuttle-derived, EELVderived as well as ``clean sheet'' 
launch vehicle architectures in cooperation with the U.S. launch 
industry, and concluded that the Ares I and V system architecture 
provided the optimal solution for both LEO and beyond LEO applications. 
Figures of Merit (FOMs) used during the studies--cost, reliability, 
human safety, programmatic risk, mission performance and schedule--were 
applied to drive out the best alternative in the analysis. Additional 
considerations included legal requirements from the NASA Authorization 
Act of 2005 (P.L. 109-155), workforce skills and industrial 
capabilities. After a thorough analysis of the entire Exploration 
architecture requirements, EELV solutions were ultimately determined to 
be less safe, less reliable, and more costly than the Shuttle-derived 
solutions in development.
    The ESAS concluded that NASA should adopt and pursue a Shuttle-
derived architecture as the next-generation launch system for 
exploration missions due to their significant advantages, particularly 
with respect to safety, reliability, and cost. The extensive flight and 
test databases of currently flying hardware/software give a very strong 
technical and safety foundation with clearly defined and understood 
elements to anchor next-generation vehicles and minimize development 
costs and risks to flight crew. In addition, NASA's approach allows the 
Nation to leverage significant existing ground infrastructure 
investments (Kennedy Space Center (KSC); Michoud Assembly Facility 
(MAF), etc.) and personnel with significant human spaceflight 
experience. Overall, NASA's Shuttle-derived approach was found to be 
the most affordable, safe, and reliable approach, both by leveraging 
proven human rated vehicle and infrastructure elements and by using 
common elements across the architecture. While NASA continues to 
conduct trade studies aimed at refining the Ares V architecture for 
minimum development risks and operational costs, the Agency is 
committed to the fundamental Ares I-V approach established over 2 years 
ago.

The Ares versus the EELV
    Vehicle Performance: The EELV crew transport options examined were 
those of the Delta IV and Atlas V families. The study focused on the 
heavy lift versions of both Delta (currently flying) and Atlas families 
(drawings only), and confirmed that none of the medium versions of 
either vehicle had the capability to accommodate the Orion Crew 
Exploration Vehicle lift requirements. The Medium class EELVs, with no 
additional solid boosters, significantly under performed by 
approximately 40-60 percent. The option of using small, strap-on solid 
boosters was eliminated for safety reasons in the Orbital Spaceplane 
Safety Study conducted in 2004. Both EELV-heavy vehicles were assessed 
to require significant modification for human rating, particularly in 
the areas of avionics, telemetry, structures, and engine selection. 
Additionally, both the Atlas and Delta Heavy classes required 
development of new upper stages to achieve the lift performance 
required to launch Orion. Ares I is designed to launch the 23.3 mT 
Orion vehicle, which consists of the crew and service modules, into 
LEO. The Ares can also launch a 20.3 mT Orion to the inclination of the 
ISS.
    The ESAS assessment showed that lunar missions requiring more than 
three launches dramatically reduced the probability of mission success. 
Therefore, NASA issued an architecture goal to minimize complex on-
orbit assembly, and also placed a limit to no more than three launches 
for a mission. For lunar missions, this equates to a launch vehicle 
design with a lift capability near 100 mT or greater to LEO. Early in 
the trade study process, NASA identified the current EELV fleet, if 
used for lunar cargo missions, would require more than seven launches 
per lunar mission. This very high number of flights per mission is 
unacceptable from a mission success probability standpoint and did not 
meet the NASA goal of three launches maximum.
    While elements of current EELVs can be utilized to develop a 100 mT 
LEO equivalent launch vehicle (boosters, engines, etc.), the lack of 
acceptable EELV boost stage performance (compared to Shuttle-derived 
hardware) drives the need for an additional Liquid Oxygen (LOX)/Liquid 
Hydrogen (LH2) stage to reach orbit. The EELV-derived solutions 
required two upper stages as well as additional strap on core boosters 
to provide the necessary lift capability to minimize launches for on-
orbit assembly. These characteristics were deemed to decrease mission 
safety and reliability while increasing costs to unacceptable levels 
based on NASA requirements. NASA did not pursue ``clean sheet of 
paper'' designs because it was deemed too risky and expensive.
    Crew Safety/Reliability: The current EELVs were designed to carry 
unmanned payloads. Modifying the EELV design to meet the Human Rating 
Requirements would require changes in areas such as flight termination 
system changes to add a time delay for an abort scenario and inflight 
crew control/abort capabilities. The use of EELVs for crew 
transportation would also require NASA to invest significant funds into 
pad modifications required for crew access/emergency egress that 
currently does not exist at the EELV launch site. Based on ESAS 
assessments, the Shuttle-derived launch vehicle was highest-rated in 
terms of crew safety by about a factor of two over other options (Loss 
of Crew approximately \1/2000\). This confidence for crew safety is 
driven by the extensive history of the Shuttle system, which far 
surpasses the experience base for any other existing system. To add to 
the reliability of the system, the Ares I hardware is recovered and 
inspected for any system anomalies. In addition, Shuttle propulsion 
systems are already ``human-rated'' which mitigates one of the highest 
programmatic risks for a launch vehicle. Leveraging systems that are 
already human rated reduces the uncertainties and risks associated with 
human rating the new CLV. In addition, the current EELVs have a booster 
structural Factor of Safety (SF) of >1.25, where NASA requires that all 
structures have a 1.4 Factor of Safety (NASA Standard NASA-STD-5001). 
If the Agency were to accept the reduced SF of the EELVs, a large 
engineering and development effort would be required to validate 
structural integrity relative to NASA Standard and would likely 
eventually lead to some structural redesign of select systems. In 
addition, main propulsion systems would require modification, for 
example, the RL-10 upper stage engine would also require human rating 
in areas such as: redundancy upgrades; increased subsystem robustness; 
fault detection; isolation and recovery; engine redlines; safe in-
flight shutdown mode; and, any design changes from structural 
assessments. For Atlas V, RD-180 American co-production and human 
rating would be required adding greater challenges. From a human rating 
perspective, the RD-180 will require additional redundancy and 
increased robustness in select systems. Finally, for Delta IV, several 
modifications would be required to human rate the RS-68 including 
extensive health monitoring, increased robustness of subsystems, and 
elimination of the fuel-rich environment at liftoff which would pose a 
crew hazard.
    Life Cycle Costs: The Ares I and Ares V combination for lunar 
missions provides significantly lower non-recurring cost than that of 
the current EELV launch vehicle families. The Shuttle derived launch 
vehicle combination allows for a ``1.5 launch'' solution whereas the 
EELV architectures required two HLLV launches with more expensive 
hardware costs. It was determined that the total EELV-derived CLV plus 
EELV-derived Cargo Launch Vehicle (CaLV) Design, Development, Test, and 
Evaluation (DDTE) costs are approximately 25 percent higher for EELV-
derived versus selected Shuttle-derived architecture.
    The launch cost for human rated, EELV-derived systems is 
significantly higher than the current cost of a medium-class EELV. This 
launch cost also does not include the non-recurring development 
investment required to meet the Orion's lift requirements and human 
rate these systems, which has been estimated to cost in the several 
billions of dollars. In order for the unmanned payload customers to not 
incur the unnecessary additional costs for human-rated systems on the 
EELV, the EELV providers would likely need a unique human-rated variant 
which would increase the costs.
    NASA continued to refine its launch recommendations post-ESAS. In 
early 2006, NASA modified the architecture from a four-segment Reusable 
SRB (RSRB)/single Space Shuttle Main Engine (SSME) upper stage CLV, and 
a five-segment RSRB/Expendable SSME Core/J-2X Earth Departure System 
(EDS) CaLV to a five-segment RSRB/single J-2X upper stage CLV, and 
five-segment RSRB/RS-68 Core/J-2X EDS. After careful analysis, NASA 
elected to forgo the modification of the SSME for altitude-start and 
proceed directly to development of a common J-2X engine for both the 
Ares I upper stage and the Ares V Earth departure stage, which sends 
the Orion crew capsule/lunar lander combination to the Moon. This new 
approach eliminates a top ESAS-identified risk--SSME altitude start--
and addresses another risk--J-2X development--sooner thereby lowering 
overall Exploration risks and costs. In addition, the inordinate 
expense of using five SSMEs with each cargo launch made the selection 
relatively simple (and much less costly), utilizing the expendable RS-
68 engine with the added advantage of using a common engine to meet 
both Department of Defense and NASA needs. With this approach, engine 
development for the Ares I provides a significant and direct ``down 
payment'' on the Ares V test and development plan. Selecting common 
hardware not only maximizes nonrecurring investments and reduces 
overall lifecycle cost; it also gets NASA closer to enabling a lunar 
transportation system. Concentrating efforts on two major propulsion 
developments rather than on five, as was originally proposed, will 
reduce development costs by hundreds of millions of dollars and save 
billions in operations costs. These combined changes represented a 
projected savings of over $5 billion in life cycle costs over the 
initial ESAS recommendations.
    Infrastructure and Capability Retention: While NASA will continue 
to use existing U.S. expendable launch vehicles for the robotic 
exploration missions (five to eight launches per year), the Ares V 
system leverages heritage human-rated systems such as the Shuttle Solid 
Rocket Motor; the Solid Rocket Booster, as well as heritage 
infrastructure, including the MAF in Louisiana; and the Vertical 
Assembly Building and crawler and launch complex 39 at KSC in Florida. 
To sustain the manufacturing infrastructure capability required for the 
Ares V between Shuttle retirement and the first human lunar launch, 
NASA's Exploration architecture (Shuttle derived Ares I) ensured 
America's industrial base for production of large solid rocket systems, 
high-performance liquid engine systems, large lightweight stages, 
large-scale launch processing infrastructure, and the current 
production level of solid propellant fuels is available to support the 
Ares V. If NASA selected the EELV-based CLV options, this would have 
required a significant amount of ``keep alive'' costs to maintain the 
industry and Center infrastructure and skills assets for eventual use 
on Ares V development.
    External Reviews: Several external reviews have been conducted with 
regard to NASA's launch vehicle selection. NASA's conclusions regarding 
the Space Shuttle-derived Ares I and V vehicles have received agreement 
by the Department of Defense (DOD) and elements of NASA's plan were 
validated by Congressional Budget Office (CBO) and Government 
Accountability Office (GAO) reports. In 2005, the DoD reviewed NASA's 
analysis and concurred with NASA's approach. A joint recommendation was 
formally submitted in a memorandum to the Director of the Office of 
Science and Technology Policy, Dr. John Marburger III, in August 2005.
    In October 2006, CBO concluded a study on the NASA's selection of 
the Ares I and Ares V launch vehicles (``Alternatives for Future U.S. 
Space Launch Capabilities Report''). The CBO report contrasted CBO's 
analysis with the recent NASA ESAS report and resulting implementation 
approach and identified a number of observations, highlighting four 
main points:

        1. fewer launches per exploration mission increases overall 
        mission reliability;

        2. NASA's Shuttle-derived launch vehicle approach is the most 
        economical option when minimizing the number of launches;

        3. since CBO cost results are consistent with NASA's ESAS 
        conclusions, and since NASA also based its launch decisions on 
        safety and reliability (not assessed by CBO), NASA's selection 
        of a Shuttle-derived launch vehicle is further validated by the 
        CBO study; and,

        4. the CBO estimates for the NASA-selected launch vehicles are 
        within NASA budget projections.

    And the most recent report from the GAO in November 2007 (``Agency 
Has Taken Steps toward Making Sound Investment Decisions for Ares I but 
Still Faces Challenging Knowledge Gaps Report'') noted that ``NASA has 
taken steps toward making sound investment decisions for Ares I.'' The 
GAO report also noted that:

        ``Furthermore, NASA's decision to include the J-2X engine and 
        five-segment booster in the Ares I design in order to reduce 
        long-term operations and support cost is in line with the 
        practices of leading commercial developers that give long-term 
        savings priority over short-term gains. The Ares I project was 
        also proactive in ensuring that the ongoing project was in 
        compliance with NASA's new directives, which include elements 
        of a knowledge-based approach. NASA's new acquisition 
        directives require a series of key reviews and decision points 
        between each life cycle phase of the Ares I project that serve 
        as gates through which the project must pass before moving 
        forward . . . We found that the Ares I project had implemented 
        the use of key decision points and adopted the recommended 
        entrance and exit criteria for the December 2006 Systems 
        Requirements Review and the upcoming October 2007 Systems 
        Definition Review.''

    Summary: NASA is designing transportation architecture, not just a 
point solution for access to LEO. In deciding on this architecture, 
NASA considered principal factors such as performance, reliability and 
development and life cycle costs when comparing alternatives. NASA also 
took into consideration the growth path to heavy lift capability which 
results from the choice of a particular launch vehicle family. To grow 
significantly beyond today's EELV family for lunar missions requires 
essentially a ``clean sheet of paper'' design, whereas the Ares V 
design makes extensive use of existing elements, or straightforward 
modifications of existing elements, which are also common to Ares I. 
The Shuttle-derived launch vehicle architecture selected by NASA meets 
all of the goals and objectives to achieve the exploration mission, 
while also:

  <bullet> providing the best possibility of meeting stakeholder and 
        customer requirements, including legal mandates, within the 
        funding available and time-frame desired;

  <bullet> providing the safest, most reliable and cost effective 
        launch vehicle for NASA missions;

  <bullet> maximizing leverage of existing, human rated systems and 
        infrastructure;

  <bullet> leveraging collaboration between the retiring Shuttle 
        Program and emerging Constellation projects by sharing lessons 
        learned and transitioning valuable resources, ranging from a 
        specialized workforce to a unique launch infrastructure;

  <bullet> creating the most straightforward growth path to later 
        Exploration launch needs; and,

  <bullet> ensuring the industrial base for production of large solid 
        rocket systems, high performance liquid engine systems, large 
        lightweight stages and critical, large scale launch processing 
        infrastructure.

    Question 17. Last year, the Congress enacted the America COMPETES 
Act, which included language directing that NASA shall be a full 
participant in interagency activities directed at improving our 
Nation's technological capabilities and competitiveness, and supporting 
efforts to improve Science, Technology, Engineering and Mathematics 
(STEM) disciplines in education. Can you discuss what you believe to be 
NASA's role in implementing this direction from the Congress?
    Answer. The America COMPETES Act (P.L. 110-69) establishes NASA as 
a full participant in all interagency activities to promote 
competitiveness and innovation and to enhance science, technology, 
engineering and mathematics education. In addition to its importance to 
our Nation's economic and technological status, a highly educated and 
well-prepared workforce has been and continues to be particularly 
critical to the success of NASA's mission.
    NASA's Education projects are inherently unique, and the Agency 
will continue to use its ability to inspire, engage, and educate 
students in new ways in support of the Act, which aims to keep America 
the most innovative nation in the world by strengthening our scientific 
education and research, improving our technological enterprise, 
attracting the world's best and brightest workers, and providing 21st 
century job training. As the education goals of America COMPETES so 
closely model that of NASA, the Agency's role is to continue to be a 
model of excellence in managing a portfolio of unique STEM engagement 
and education projects (including USRP) based on NASA content, while 
collaborating with other agencies, acting as lead Agency for the ISS 
National Laboratory, and reporting specific findings as directed.
    NASA's Education Goals, upon which its portfolio is based, are the 
following:

  <bullet> Strengthening NASA and the Nation's future workforce--NASA 
        will identify and develop the critical skills and capabilities 
        needed to ensure achievement of NASA's exploration mission. To 
        help meet this demand, NASA will continue contributing to the 
        development of the Nation's science, technology, engineering, 
        and mathematics workforce of the future through a diverse 
        portfolio of education initiatives that target America's 
        students at all levels, especially those in traditionally 
        under-served and underrepresented communities.

  <bullet> Attracting and retaining students in STEM disciplines--To 
        compete effectively for the minds, imaginations, and career 
        ambitions of America's young people, NASA will focus on 
        engaging and retaining students in STEM education programs to 
        encourage their pursuit of educational disciplines critical to 
        NASA's future engineering, scientific, and technical missions.

  <bullet> Engaging Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on interactive 
        educational activities, NASA will engage students, educators, 
        families, the general public, and all Agency stakeholders to 
        increase Americans' science and technology literacy. These 
        three goals complement one another. By engaging Americans in 
        NASA's unique mission, the Agency can better attract and retain 
        students in STEM disciplines, thereby strengthening NASA and 
        the Nation's future workforce.

    In cooperation with other Federal agencies, NASA will continue to 
coordinate education programs, sharing resources, and eliminating 
wasteful duplication of effort. NASA coordinates its Education Program 
through the Academic Competitiveness Council (ACC) and the National 
Science and Technology Committee's Education Subcommittee. NASA uses 
these forums to collaborate with other scientific and education 
agencies (e.g., Department of Education, Department of Energy, and 
National Science Foundation), seeking ways to minimize redundancies and 
replicate effective practices and maximize collaboration in efforts to 
improve STEM education.

Additional Background
    NASA's founding legislation, the Space Act of 1958, directs the 
Agency to expand human knowledge of Earth and space phenomena and to 
preserve the role of the United States as a leader in aeronautics, 
space science, and technology. High achievement in STEM education is 
essential to the accomplishment of NASA's mission. The Strategic 
Management of Human Capital initiative, under the President's 
Management Agenda, requires agencies to ``build, sustain, and 
effectively deploy the skilled, knowledgeable, diverse, and high-
performing workforce needed'' to meet Agency core competencies. Our 
education investments will contribute to the Agency's human capital 
needs.
    All of NASA's education efforts are part of an integrated Agency-
wide approach to human capital management. Within the NASA Strategic 
Plan, education is identified as a cross-cutting function that supports 
all of the Agency's strategic goals and objectives. The NASA Strategic 
Management and Governance Handbook requires the Office of Education to 
submit a plan for Agency education implementation that provides 
guidance for the execution of programs and projects supporting those 
strategic goals and objectives. The input is submitted annually as part 
of the single Institutional Implementation Plan for the Agency.

    Question 17a. Please provide for the record an accounting of NASA 
activities and projects which you believe address the objectives of the 
America COMPETES Act.
    Answer. NASA is collecting data to be used in a comprehensive 
annual report containing education activities conducted; goals; and 
objective metrics for funding decisions including program/project 
description, amount spent on each program/project, and number of 
students or teachers served by each program/project that will be 
submitted January 2009 pursuant to section 2001(e) of the America 
COMPETES Act. The Office of Education is also making related 
preparations regarding the Assessment Plan which is due August 2008 
pursuant to section 2001(f).
    The information will be collected via many internal activities. 
NASA's Office of Education has established a comprehensive portfolio 
management process that ties all NASA Education projects to long-term 
and annual goals and has resulted in significant restructuring of the 
education portfolio. All budget requests are tied to annual and long-
term goals. The NASA Education Coordinating Committee, composed of 
individuals representing all Agency organizations with a role in 
education, oversees the entire strategic planning process for the NASA 
Education, ensuring that NASA maintains a balanced and effective 
portfolio of education projects aligned with the official outcomes and 
objectives. In December 2007, NASA Education finalized baselines for 
its performance measures, and is currently establishing a single 
database and reporting system for all of its projects. The Office of 
Education continues to perform summative and formative evaluations of 
projects, and it is using the results of independent evaluations to 
restructure and improve individual projects.

  <bullet> NASA is utilizing the existing Undergraduate Student 
        Research Program (USRP) to support basic research projects on 
        STEM subjects. The USRP is one of NASA's workforce development 
        projects for undergraduate students. It will incorporate 
        science, technology, engineering, and mathematics (STEM) 
        activities of each of NASA's field centers and the Jet 
        Propulsion Laboratory (JPL). Undergraduate students selected 
        for this program will undertake research internships at NASA 
        field centers under the tutelage of NASA scientists and 
        engineers.

  <bullet> NASA's document, ``An Opportunity to Educate: ISS National 
        Laboratory,'' presents a plan to validate the National 
        Laboratory Education Concept Development Task Force's strategy 
        for using ISS resources and accommodations as a venue to 
        engage, inspire, and educate students, teachers, and faculty in 
        the areas of science, technology, engineering, and mathematics. 
        On June 20, 2008, the plan for the National Laboratory was 
        transmitted to Congress. Through the implementation of selected 
        demonstration projects, NASA and the participating external 
        organizations will learn lessons that will allow the ISS 
        National Laboratory to be optimized for the full operation 
        phase of the ISS.

  <bullet> While not referred to specifically in the Act, NASA's Higher 
        Education Program is a portfolio of activities and projects 
        that invest in innovation through research and development to 
        directly improve the competitiveness of the United States. The 
        Program focuses on supporting institutions of higher education 
        in strengthening their research capabilities and providing 
        opportunities that attract and prepare increasing numbers of 
        students for NASA-related STEM careers. The research conducted 
        by the institutions will contribute to the research needs of 
        NASA's Mission Directorates. The student projects, including 
        USRP, serve as a major link in the student pipeline for 
        addressing NASA's Human Capital Strategies and the President's 
        Management Agenda. More information can be found at http://
        www.nasa.gov/education.

  <bullet> The program/projects within the Higher Education Program 
        that support NASA's Higher Education Outcomes and Objectives 
        are: National Space Grant College and Fellowship Program (Space 
        Grant); The Experimental Program To Stimulate Competitive 
        Research (EPSCoR); USRP, Graduate Student Researchers Project 
        (GSRP), and the Minority University Research and Education 
        Program (MUREP) which is listed as a subset.

  <bullet> GSRP cultivates research ties to the academic community to 
        help meet the continuing needs of the Nation's aeronautics and 
        space effort. This project seeks to increase the number of 
        highly trained scientists and engineers in aeronautics and 
        space-related disciplines and to broaden the base of students 
        pursuing advanced degrees in science, mathematics, and 
        engineering.

  <bullet> Space Grant is a national network of colleges and 
        universities that works to expand opportunities for Americans 
        to understand and participate in NASA's aeronautics and space 
        programs by supporting and enhancing science and engineering 
        education, research, and public outreach programs.

  <bullet> EPSCoR develops academic research enterprises that are long-
        term, self-sustaining, and nationally competitive by supporting 
        states with modest research infrastructure to become more 
        competitive in attracting research funding. Funding is awarded 
        to lead academic institutions, fostering a STEM relationship 
        with industries for research and development opportunities.

  <bullet> A subset of the Higher Education Program, the Minority 
        University Research and Education Program (MUREP) engages 
        underrepresented populations through a wide variety of 
        initiatives. Multiyear grants are awarded to assist minority 
        institutions, faculty, and students in research pertinent to 
        NASA missions. The program focuses on recruiting and retaining 
        underrepresented and underserved students in STEM disciplines 
        through completion of undergraduate or graduate degrees in 
        support of their entry into the scientific and technical 
        workforce. More information can be found at http://
        www.nasa.gov/education.

    Question 17b. Include in the material the budget history for those 
activities from FY 2007 through the current budget runout to 2013.
    Answer.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                  Undergraduate Student Research Project (USRP)
----------------------------------------------------------------------------------------------------------------
     FY 2007          FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013
      Actual          Enacted
----------------------------------------------------------------------------------------------------------------
       $2.3M            $4.0M           $4.1M           $4.0M           $4.0M           $4.0M           $4.0M
----------------------------------------------------------------------------------------------------------------
                                            ISS National Laboratory*
----------------------------------------------------------------------------------------------------------------
     FY 2007          FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013
      Actual          Enacted
----------------------------------------------------------------------------------------------------------------
       $0.0M            $0.0M             TBD             TBD             TBD             TBD             TBD
----------------------------------------------------------------------------------------------------------------
*A budget has not been established for the ISS National Laboratory activity, as the project is in its
  formulation phase. Details regarding the contribution of funding across the Federal Government and management
  of the overall project have not yet been determined.


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                          NASA Higher Education Program
----------------------------------------------------------------------------------------------------------------
     FY 2007          FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013
      Actual          Enacted
----------------------------------------------------------------------------------------------------------------
      $50.8M           $64.5M          $46.5M          $48.5M          $48.5M          $48.5M          $48.5M
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                           NASA Minority University Research Education Program (MUREP)
----------------------------------------------------------------------------------------------------------------
     FY 2007          FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013
      Actual          Enacted
----------------------------------------------------------------------------------------------------------------
      $24.7M           $27.5M          $28.1M          $30.7M          $30.7M          $30.7M          $30.7M
----------------------------------------------------------------------------------------------------------------

Background

  <bullet> The program/projects within the Higher Education Program 
        that support NASA's Higher Education Outcomes and Objectives 
        are: Space Grant; EPSCoR; USRP, GSRP, and MUREP which is listed 
        as a subset.

  <bullet> The NASA FY 2009 Budget Estimates document is the resource 
        for the listed funding amounts for Higher Education Program and 
        Minority University Research and Education Program. The Higher 
        Education funding listed here includes the budgets of 
        individual projects USRP, GSRP, as well as Space Grant and 
        EPSCoR which are listed individually in the NASA FY 2009 Budget 
        Estimates document.

  <bullet> The FY 2008 Enacted Higher Education funding level includes 
        $7M for Congressionally-mandated Global Climate Change 
        Education which will address innovative opportunities for 
        educating students on global climate change with a special 
        component focusing on teacher education preparation (pre-
        service).

    Question 17c. Please provide a separate summary of ISS-related 
activities that would appear to support the implementation of the 
objectives stated in the America COMPETES Act.
    Answer. NASA's response document, ``An Opportunity to Educate: ISS 
National Laboratory,'' presents a plan to validate the task force's 
strategy for using ISS resources and accommodations as a venue to 
engage, inspire, and educate students, teachers, and faculty in the 
areas of science, technology, engineering, and mathematics.
    The document is being finalized for printing and submission to 
Congress in the coming weeks.
    For the demonstration phase of the plan, eleven organizations 
submitted candidate demonstration projects which are varied and cover 
science, technology, and engineering. The candidate activities convey 
the possibilities inherent in the ISS National Laboratory concept.

Background:

    In 2006, NASA asked a range of Federal agencies with 
responsibilities in education to participate in the ISS Education 
Coordination Working Group charged with developing a strategy for using 
the ISS as an educational asset. The initial report from the task 
force, delivered in December 2006, affirmed that there was a serious 
interest on the part of Federal agencies in use of the ISS.
ISS Education Coordination Working Group Members

Peirce Hammond
Department of Education

Bernice Anderson
National Science Foundation

Wanda Ward
National Science Foundation

Bill Valdez
Department of Energy

Jeff Dilks
Department of Energy

Robert McGahern
Department of Defense

Tyson Tuchscherer
Department of Defense

Tom Tate
U.S. Department of Agriculture

Lindell Williams
U.S. Department of Agriculture

Dan Berch
National Institutes of Health

Bruce Fuchs
National Institutes of Health

Shelia Bauer
Federal Aviation Administration

Sandra L. Bruner
U.S. Geological Survey

Robert Ridky
U.S. Geological Survey

Louisa Koch
Nat'l Oceanic & Atmos. Admin.

Bernice Alston
NASA Headquarters

Mabel Matthews
NASA Headquarters

Anngienetta R. Johnson
NASA Headquarters, Chair

Brion Au
EarthKam

Frank Bauer
NASA Goddard Spaceflight Cntr

Charles Brodell
NASA Goddard Spaceflight Cntr

Bradley Carpenter
NASA Headquarters

Brenda Collins
NASA Ames Research Center

Elizabeth Dial
Department of Defense

Lynn Harper
NASA Ames Research Center

Al Holt
NASA Johnson Space Center

P.W. Jennings
National Science Foundation

Robert Kelso
NASA Johnson Space Center

Michael Marlaire
NASA Ames Research Center

Cindy McArthur
NASA Johnson Space Center

Dawn Mercer
NASA Marshall Spaceflight Cntr

Dottie Metcalf-Lindenburger
NASA Astronaut Educator

Jonathan Neubauer
NASA Johnson Space Center

Julie Robinson
NASA Johnson Space Center

Carla Rosenberg
NASA Headquarters

  
  
ISS Education Coordination Working Group Consultants
    R. Lynn Bondurant
    Aerospace Educator

    Francis (Skip) Fennel
    President National Council of Teachers of Mathematics and Professor 
of Education, McDaniel College

    Charles Hill
    Associate Director, Systems Integration Texas A&M University

    Ken Huff
    Chair, National Science Teachers Association (NSTA) Aerospace 
Advisory Board

    Mike Hynes
    National Council of Teachers of Mathematics (NCTM) Professor, 
Teaching and Learning Principles, University of Central Florida (UCF)

    Harriett G. Jenkins
    Retired Federal Executive-Consultant

    Ronnie Lowenstein
    Lowenstein Associates

    James Rubillio
    Executive Director, National Council of Teachers of Mathematics

    Kendall Starkweather
    Executive Director, International Technology Education Association

    Harold Stinger
    President and CEO, Stinger Ghaff arian Technologies (SGT)

    Laureen Summers
    Program Manager, American Association for the Advancement of 
Science

    Bonnie VanDorn
    Executive Director, Association of Science-Technology Centers 
(ASTC)

    George Whiteside
    Executive Director, National Space Society

    Michael Wiskerchen
    Director, California Space Grant
    Question 17d. Please provide details regarding interagency 
activities or discussions related to the President's America's 
Competitiveness Initiative (ACI) in which you or your designated 
representatives have participated, pursuant to the direction of the Act 
authorizing that participation.
    Answer. On June 6, 2007, NASA Assistant Administrator for Education 
Dr. Joyce Winterton participated in the U.S. House of Representatives 
Committee on Science and Technology Subcommittee on Research and 
Science Education hearing, ``Federal STEM Education Programs.'' The 
purpose of the hearing was to review the K-16 STEM education activities 
of Federal agencies and to explore current efforts for the improvement 
of interagency coordination and evaluation of programs. The witnesses 
provided Subcommittee Members with their suggestions for how those 
agencies could best contribute to STEM education nationwide and 
strongly recommended closely collaborating with educators in the field 
when developing programs.
    The Office of Education also represents the Agency on the 
Interagency Aerospace Revitalization Task Force, a group of Federal 
agencies with a vital interest in strategic planning for STEM education 
to strengthen the science and technology workforce.
    NASA is also leading the interagency ISS Education Coordination 
Working Group, with its concept plan ``An Opportunity to Educate: ISS 
National Laboratory,'' being finalized for submission to Congress. The 
Working Group is also in early discussions with other interested 
agencies that are not formal participants.
Background

  <bullet> In an effort to identify the contributions of Federal 
        agencies to improving STEM education, the Academic 
        Competitiveness Council (ACC) was created in the Deficit 
        Reduction Act of 2005 (P.L. 109-171) and charged with creating 
        an inventory of STEM education programs across Federal 
        agencies, identifying the effectiveness of those programs, 
        determining areas of overlap or duplication among programs, 
        identifying target populations served by the programs, and 
        recommending processes to integrate and coordinate those 
        programs.

  <bullet> The Aerospace Revitalization Task Force Act (P.L. 109-420) 
        establishes the Interagency Aerospace Revitalization Task Force 
        and directs the task force to develop a strategy for the 
        Federal Government for aerospace workforce development. P.L. 
        109-420 also directs the Task Force to develop: (1) cooperation 
        among Federal agencies to provide a skilled workforce; (2) 
        integrated Federal policies to promote and monitor public and 
        private sector education and training programs for science, 
        engineering, technology, mathematics, and skilled trades; and, 
        (3) partnerships with industry, organized labor, academia, and 
        state and local governments for occupational information and 
        for workforce education, training, and certification resources, 
        including grants, loans, and scholarships.
ISS Research
    Question 18. Subsequent to the announcement of the Vision for 
Exploration in January 2004, the Space Shuttle manifest then in place 
contemplated considerably more missions than were subsequently planned. 
How many missions were removed from the manifest scheduling and 
planning process that would otherwise have been scheduled if the 2010 
Shuttle termination date had not been imposed?
    Answer. Prior to announcement of the new U.S. Space Exploration 
Policy, there were 29 Space Shuttle missions remaining on the manifest. 
This included the STS-114 return-to-flight mission and the final 
servicing mission to the Hubble Space Telescope (HST). The STS-114 
mission was conducted as planned, and the HST mission remains planned 
for later this year. Of the remaining 27 missions, 9 were canceled in 
order to complete ISS assembly by 2010, and 16 were left on the 
manifest, in addition to 2 logistics contingency flights that would be 
added to the manifest if they could be flown safely by September 2010.

    Question 18a. Please identify how many of those missions would have 
flown in support of ISS assembly, outfitting, maintenance, logistics 
and utilization. Include all payloads initially intended for delivery 
to the ISS that were not included in the current manifest planning for 
the remaining Space Shuttle flights.
    Answer. The nine canceled missions noted above would have flown in 
support of ISS assembly, outfitting, maintenance, logistics, and 
utilization. It is not practical to identify ``all payloads initially 
intended for delivery'' because this would range from major payload 
elements interfacing directly with the Space Shuttle cargo bay to 
literally thousands of secondary payloads being transported on ISS 
pressurized and un-pressurized logistics carriers and in Shuttle mid-
deck lockers. However, the major elements and cargo categories that 
were de-manifested included:

  <bullet> Centrifuge Accommodation Module (CAM);

  <bullet> Alpha Magnetic Spectrometer (AMS);

  <bullet> Russian Solar Power Module (SPM);

  <bullet> Cupola (subsequently we were able to add it as part of Node 
        3);

  <bullet> Originally Designed Express Pallets (un-pressurized 
        carriers);

  <bullet> Originally Designed External Stowage Platforms (un-
        pressurized platforms on the ISS);

  <bullet> Un-pressurized logistics supplies, user payloads, and 
        carriers; and,

  <bullet> Pressurized logistics supplies, user payloads, and carriers.

    Subsequently, new EXPRESS Logistics Carriers (ELCs) have been 
designed that will both transport un-pressurized logistics elements to 
ISS and serve as the on-orbit stowage platforms. This design was 
optimized for the cargo-to-carrier mass fraction in order to restore a 
limited capability for critical system spares.

    Question 18b. Please also provide the rationale for non-inclusion, 
the process by which those decisions, where applicable, were presented 
and agreed to by our international partners, and what impact the non-
availability of those payloads has on ISS research capabilities, 
directly or indirectly.
    Answer. The rationale was to deliver, via the limited, remaining 
Shuttle flights, only those elements critical to the completion of the 
ISS in a sustainable configuration (i.e., power/thermal truss elements, 
international laboratories, habitability systems to enable a six-crew 
capability for maintenance and utilization, and critical system spares 
and consumables). The process used to arrive at this solution was a 
review of the Shuttle/Station Configuration Options Team that performed 
the needed analyses during the May-June 2005 time-frame. We reviewed 
the new plans with our International Partners in a series of meetings. 
The partners were interested in seeing that we were developing a 
sustainable Space Station and not just flying their modules. Final 
consensus was reached that this overall transportation would result in 
a long term, viable ISS.
    In the case of U.S. research payloads, the guideline was to focus 
research equipment capability on those objectives directly related to 
the Exploration mission. As a result, human biomedical research 
remained of paramount importance, while the remaining research was 
largely, although not exclusively, suspended or terminated. The impact 
of reducing the scope of previously planned NASA utilization of the ISS 
was to free up approximately half of the ISS utilization capacity for 
non-NASA uses. The ISS vehicle capability was not degraded; power/
thermal resources, crew time, data management and communications, and 
availability of pressurized/unpressurized payload sites were not 
affected. This reduction has enabled the National Laboratory concept 
for ISS.

    Question 18c. Also include a report on the status of de-manifested 
items, in terms of their readiness for flight, their continued 
viability and whether they could be flown, if deemed necessary, on 
alternative expendable launch vehicles, whether provided by U.S. 
vendors or foreign launch systems.
    Answer. All de-manifested items were withdrawn from planning with 
two exceptions: the Alpha Magnetic Spectrometer (AMS) and the Cupola. 
Through subsequent analysis, NASA determined that the Agency could 
include the Cupola as part of Node 3. In the case of AMS, an extensive 
study of alternative launch capabilities was completed and provided to 
the Congress in February 2008.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
